<html>
<title> - LEGISLATIVE HEARING ON H.R. 1750, H.R. 1824, H.R. 1598, H.R. 1315, H.R. 1240, H.R. 675, H.R. 513, H.R. 2259, H.R. 2475, H.R. 1632, H.R. 112, H.R. 2579, AND H.R. 1370</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
              LEGISLATIVE HEARING ON H.R. 1750, H.R. 1824,


               H.R. 1598, H.R. 1315, H.R. 1240, H.R. 675,


               H.R. 513, H.R. 2259, H.R. 2475, H.R. 1632,


                   H.R. 112, H.R. 2579, AND H.R. 1370

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2007

                               __________

                           Serial No. 110-30

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                        U.S. GOVERNMENT PRINTING OFFICE

37-468                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 21, 2007

                                                                   Page
Legislative Hearing on H.R. 1750, H.R. 1824, H.R. 1598, H.R. 
  1315, H.R. 1240, H.R. 675, H.R. 513, H.R. 2259, H.R. 2475, H.R. 
  1632, H.R. 112, H.R. 2579, and H.R. 1370.......................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    48
Hon. John Boozman, Ranking Republican Member, prepared statement 
  of.............................................................    48
Hon. Ginny Brown-Waite...........................................    17
Hon. Timothy J. Walz.............................................    18
    Prepared statement of Congressman Walz.......................    49

                               WITNESSES

U.S. Department of Veterans Affairs, Keith Pedigo, Director, Loan 
  Guaranty Service, Veterans Benefits Administration.............    34
    Prepared statement of Mr. Pedigo.............................    83

                                 ______

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Commission.....................................................    21
    Prepared statement of Mr. Chamrin............................    71
American Trucking Associations, Inc., Ray Kuntz, Chairman, and 
  Chief Executive Officer, Watkins and Shepard Trucking Company, 
  Helena, MT.....................................................    27
    Prepared statement of Mr. Kuntz..............................    79
Brady, Hon. Robert A., a Representative in Congress from the 
  State of Pennsylvania..........................................     4
    Prepared statement of Congressman Brady......................    51
Disabled American Veterans, Brian E. Lawrence, Assistant National 
  Legislative Director...........................................    26
    Prepared statement of Mr. Lawrence...........................    78
Israel, Hon. Steve, a Representative in Congress from the State 
  of New York....................................................     5
    Prepared statement of Congressman Israel.....................    51
Jackson-Lee, Hon. Shelia, a Representative in Congress from the 
  State of Texas.................................................     7
    Prepared statement of Congresswoman Jackson-Lee..............    55
Michaud, Hon. Michael H., a Representative in Congress from the 
  State of Maine.................................................    15
    Prepared statement of Congressman Michaud....................    70
Reichert, Hon. David G., a Representative in Congress from the 
  State of Washington............................................    16
    Prepared statement of Congressman Reichert...................    70
United States Olympic Committee, Charlie Huebner, Chief of U.S. 
  Paralympics....................................................    23
    Prepared statement of Mr. Huebner............................    76
Welch, Hon. Peter, a Representative in Congress from the State of 
  Vermont........................................................    13
    Prepared statement of Congressman Welch......................    67
Wynn, Hon. Albert Russell, a Representative in Congress from the 
  State of Maryland..............................................     2
    Prepared statement of Congressman Wynn.......................    49

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Defense, Leslye A. Arsht, Deputy Under 
  Secretary of Defense (Military Community and Family Policy), 
  statement......................................................    87
U.S. Department of Labor, Hon. Charles S. Ciccolella, Assistant 
  Secretary, Veterans' Employment and Training Service, statement    89

                                 ______

Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations, statement................................    89
Davis, Hon. Jo Ann, a Representative in Congress from the State 
  of Virginia, statement.........................................    91
National Association of Mortgage Brokers, Harry H. Dinham, 
  President, statement...........................................    92
Vermont State Office of the Adjutant General, Michael D. Dubie, 
  Major General, The Adjutant General, letter....................    69

                   MATERIAL SUBMITTED FOR THE RECORD

Newspaper Articles and Report:
    ``Bills in the Napsack: A Law Gets Lost; Creditors Press 
      Troops Despite Relief Act,'' The New York Times, Late 
      Edition--Final, March 28, 2005, Section A; Column 3, By 
      Diana B. Henriques.........................................    53
    U.S. Government Accountability Office, Testimony of Cynthia 
      A. Bascetta, Director, Healthcare--Veterans' Health and 
      Benefits Issues, Before the Committee on Veterans' Affairs, 
      entitled: ``VA Healthcare, More Outpatient Rehabilitation 
      Services for Blind Veterans Could Better Meet Their 
      Needs,'' GAO-04-996T, July 22, 2004........................    58

Post-Hearing Requests and Follow-up Administration Views on 
    Legislation:
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Leslye A. Arsht, Deputy Under Secretary of Defense 
      (Military Community and Family Policy), U.S. Department of 
      Defense, letter dated October 23, 2007, requesting 
      Administration views on H.R. 513, H.R. 1598, and H.R. 1750.    94
    Hon. Gordon H. Mansfield, Acting Secretary, U.S. Department 
      of Veterans Affairs, to Hon. Bob Filner, Chairman, 
      Committee on Veterans' Affairs, letter dated October 26, 
      2007, transmitting Administration's views and estimates for 
      H.R. 704, H.R. 2259, and H.R. 1824.........................    96
    Hon. James B. Peake, M.D., Secretary, U.S. Department of 
      Veterans Affairs, to Hon. Bob Filner, Chairman, Committee 
      on Veterans' Affairs, letter dated March 31, 2007, 
      transmitting Administration's views and estimates for H.R. 
      1370.......................................................    98


                   LEGISLATIVE HEARING ON H.R. 1750,



              H.R. 1824, H.R. 1598, H.R. 1315, H.R. 1240,



               H.R. 675, H.R. 513, H.R. 2259, H.R. 2475,



             H.R. 1632, H.R. 112, H.R. 2579, AND H.R. 1370

                              ----------                              


                        THURSDAY, JUNE 21, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Boozman, and 
Moran.
    Also Present: Representatives Brown-Waite, Walz.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity, Hearing on Pending Legislation will come to order.
    For purposes of trying to get through with, and hearing 
from our first panel of witnesses before votes may be called, I 
know Mr. Wynn is on his way as is our Ranking Member, Mr. 
Boozman, but I would like to get started.
    Before I begin with my opening statement, I want to call 
attention to the fact that Representative Tim Walz, 
Representative Jo Ann Davis, and Ms. Leslye Arsht, Deputy Under 
Secretary of Defense for Military Community and Family Policy 
for the Department of Defense have asked to submit written 
statements for the record. If there is no objection, I ask 
unanimous consent that their statements be entered for the 
record. Hearing no objection, so entered.
    [The prepared statement of Congressman Tim Walz and the 
written statements of Congresswoman Jo Ann Davis, and Ms. 
Leslye Arsht appear on pages 49, 90 and 86.]
    As some of you may recall, this Subcommittee has held 
numerous hearings in the prior Congress as well as this one 
regarding adaptive housing, education assistance, and ensuring 
that our returning servicemembers and their families have a 
smooth and effective transition to civilian life.
    With an increasing number of disabled veterans returning 
home from Iraq and Afghanistan, there is an urgent need to 
review these important pieces of legislation. Today we have 13 
bills before us that seek to do a number of things. They seek 
to protect our Nation's veterans from financial burdens 
incurred while serving one's country; expand education programs 
while meeting the current needs of our economy; provide 
transition assistance to members of the National Guard and 
Reserve; strengthen re-employment rights for returning 
veterans; ensure the vitality of programs that assistant 
veterans in making the best use of Montgomery GI Bill Education 
Benefits; and establish an office to promote programs to assist 
our injured veterans to heal from the wounds they have 
sustained while in the U.S. Armed Forces.
    In addition, I have introduced legislation that will be 
discussed here today that seeks to address some of the special 
housing needs of our returning brave men and women in uniform. 
The first bill is H.R. 1315, which would provide specially 
adaptive housing assistance to disabled servicemembers residing 
temporarily in housing owned by a family member. Under current 
law a temporary grant may be available to veterans who are or 
will be temporarily residing in a home by a family member, but 
the assistance provided by this bill allowable up to $14,000 
may be used to adapt the family member's home to meet the 
veteran's special needs at that time.
    The second bill, H.R. 675 would increase the amount of 
assistant available to disabled veterans for specially adaptive 
housing grants from the current $50,000 to $60,000. I believe 
these two bills will be critical components in assisting our 
disabled veterans and servicemembers and expand the resources 
available to give them a level of independent living they may 
not otherwise attain.
    I look forward to working with the Ranking Member, as well 
as all members of the Subcommittee to continue to improve the 
quality of care and services available to our veterans.
    As soon as Mr. Boozman arrives, I will want to acknowledge 
him for an opening statement. So if Mr. Moran would indulge us 
to move directly to the first panel.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 48.]
    Mr. Moran. Madam Chairman, to expedite matters I am happy 
to forgo an opening statement. I look forward to hearing the 
comments from our colleagues.
    Ms. Herseth Sandlin. Very good. Joining us on our first 
panel is the Honorable Albert Wynn; the Honorable Steve Israel; 
the Honorable Sheila Jackson-Lee; and the Honorable Robert 
Brady.
    All of your written statements will be entered into the 
record. Mr. Wynn, if you are ready you may start, otherwise I 
will have Mr. Brady go. You are more than welcome to start out 
and you are recognized for five minutes.

  STATEMENTS OF HON. ALBERT RUSSELL WYNN, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF MARYLAND; HON. ROBERT A. BRADY, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF PENNSYLVANIA; HON. 
 STEVE ISRAEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
  NEW YORK; AND HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

             STATEMENT OF HON. ALBERT RUSSELL WYNN

    Mr. Wynn. Thank you very much, Madam Chairwoman. I am also 
in a markup so with your indulgence I would appreciate it.
    Mr. Moran. Go ahead.
    Ms. Herseth Sandlin. Very good.
    Mr. Wynn. Chairwoman Herseth Sandlin, Ranking Member 
Boozman, and members of the Subcommittee, thank you for the 
opportunity to testify today on H.R. 1750 the bill I have 
offered to extend the protections offered under the 
Servicemembers Civil Relief Act.
    H.R. 1750 would extend the protections to a mortgage 
property owned by a servicemember or a qualified Reserve or 
Guard member to one year from the current law which provides 
for a 90--protection for 90 days.
    The bill attempts to address the very real economic and 
life hardships that active-duty servicemembers and women and 
their families frequently face and acts to protect the families 
most treasured and needed possession, their home. The bill is 
consistent with the requirements and limitations of the 
Servicemembers Civil Relief Act, originally passed in 1940 and 
amended in the 108th Congress. The Servicemembers Civil Relief 
Act is an important safeguard for our Nation's veterans and 
active-duty servicemembers.
    The bill would extend the protections granted to active-
duty servicemen and their immediate families by increasing the 
period in which they are protected against mortgage 
foreclosure. It gives servicemembers, Guard, and Reserve 
members returning from active duty time to re-adjust to 
civilian life while protecting their most valued asset and 
rebuilding a normal life with their family.
    Many combat injuries occurred as a result of active duty 
both physical and mental can seriously obstruct servicemen and 
servicewomen from finding and holding down a job. Upon their 
return due to the operational tempo and intense levels of 
combat that our troops face in this conflict, more and more 
returning servicemembers are evidencing signs of serious combat 
stress and related mental health conditions. Repeated and 
lengthened employments dramatically affecting the troops--
dramatically affect the troops and their families.
    A recent study found that those who have served multiple 
tours are 50 percent more likely to suffer from acute combat 
stress. The Defense Department Task Force on Mental Health 
reported in early June that almost 40 percent of the troops 
have experienced some type of psychological problem. When they 
come home, these veterans are unable to fully mesh back into 
normal life. They may lose their job, their home, they may end 
up on the street, unfortunately.
    I received considerable anecdotal evidence of the family 
distribution that occurs and that is why we believe this bill 
is very important. There are also economic challenges that the 
returning members face. And the bottom line is that this bill 
would allow basically a year to reconnect with your family, re-
establish your financial situation, and proceed on with your 
life while protecting you from the loss of your home due to 
mortgage foreclosure.
    Now this is not a absolute protection. As exist under 
current law, it is only a protection that says that you are 
entitled to a court hearing which would allow you to present 
evidence that your non-payment of your mortgage is materially 
affected by conditions relating to your active-duty service.
    I think this protection is a practical approach to solving 
the problem. It also really gives life to the rhetoric that we 
often espouse of our honoring our veterans by assuring them a 
reasonable period of time to readjust and protect their home 
from mortgage foreclosure.
    I really thank you for this opportunity and be happy to 
respond to any questions you might have.
    [The prepared statement of Congressman Wynn appears on p. 
49.]
    Ms. Herseth Sandlin. Mr. Wynn, thank you very much. Mr. 
Brady, we look forward to your testimony. Thank you for being 
such an early and consistent leader on the issue of credit 
protection for our servicemembers. You are now recognized for 
five minutes.

               STATEMENT OF HON. ROBERT A. BRADY

    Mr. Brady. Thank you, Madam Chairwoman. I would like to 
thank you, thank the Committee also for having me testify here. 
I would like to discuss H.R. 513, the ``National Hero's Credit 
Protection Act.''
    No military personnel should ever suffer financial hardship 
for answering the call. This bill will require that credit 
reporting agencies add a simple note to the credit files of 
deployed active-duty servicemembers and activated Reservist and 
National Guard personnel indicating that late and slow payments 
to existing accounts occurred during the deployment or 
mobilization.
    This bill will make it easier for our troops to protect 
their credit by requiring them to report their deployment to 
just one agency instead of to every creditor. But it will not 
allow anyone to run up new debt or to get out of any debt they 
already owe. It will not cost the Federal Government anything 
to implement. There will be no new forms or actions for the 
Defense Department to use. Troops will be advised of their 
rights under the servicemembers readiness process that they 
already go through and it will not impact creditors because 
their debt will still be paid.
    I believe that this a simple cost-effective way to protect 
our troops during this, the longest deployment in America 
history.
    Real quickly, Madam Chairwoman, I was approached by a 
sheriff in the city of Philadelphia that was deployed in the 
first deployment to Iraq. And it was a woman. She was there for 
18 months. And she asked me to intervene and help her to 
straighten out her credit that was ruined by her 18 months that 
she was over in Iraq.
    She said to me she saw many armored tanks, many armored 
vehicles, military planes, a lot of military equipment, but she 
didn't see a mail truck. And because of that she could not get 
her bill for 18 months. She was a single woman and lived at 
home and mail wasn't being forwarded to her over in Iraq.
    When she came back she asked me if I would intervene to try 
to help her get her credit straightened out, and after being 
hung up about four or five times with major credit agencies, I 
was able to get a little bit of help for her, but not the 
necessary help that now she has credit problems, that her 
interest is a little high. I am still trying to help her as we 
speak, six, seven--five, six years from now. I think this bill 
would help our men and women that are out there protecting 
myself, yourself, and all of us every single day. And it is 
wrong to have their credit ruined while they are protecting the 
United States of America.
    Thank you.
    [The prepared statement of Congressman Brady appears on p. 
51.]
    Ms. Herseth Sandlin. Thank you, Mr. Brady. We will look 
forward to posing a few questions for you.
    Mr. Brady. Sure.
    Ms. Herseth Sandlin. Mr. Israel, you are now recognized for 
five minutes. Thank you, for your efforts in this same area.

                 STATEMENT OF HON. STEVE ISRAEL

    Mr. Israel. Thank you very much, Madam Chairwoman and thank 
you to Mr. Moran and the entire Committee. I am grateful for 
the opportunity to testify in support of H.R. 1598, which is a 
bipartisan bill introduced by Mr. Jeff Davis, a gentleman from 
Kentucky who serves on the Armed Services Committee and myself.
    I want to thank Mr. Brady for starting the debate and being 
the first to respond to the critical issue of servicemembers 
who are taking bullets and being harassed in the military 
theater and then have to come back and fight a bureaucracy to 
try and restore their credit at home.
    My legislation is essentially a compliment or supplement to 
Mr. Brady's and we have had a dialogue on how we can continue 
to work together. My legislation closes the gap between the 
protections that the Servicemembers Civil Relief Act provides 
to people in military theater and the awareness that most 
servicemembers and many creditors don't have with respect to 
those protections.
    For example, I have a constituent named Carl Botkin who 
left Long Island to serve as a Naval Reserve Officer in Kuwait 
from July 2005 to April 2006. Almost as soon as he left, his 
phone began ringing off the hook at home where his wife was 
constantly harassed by creditors. She called her auto company 
because somebody had told her that they weren't allowed to 
charge her the interest rate that they were charging her and 
asked whether there was any relief that she could get. And was 
told over the phone that there is no such law in place that 
offers that relief and, ``If you don't pay we will come and get 
your car.''
    She called her credit card company because her credit card 
debt was growing. And the company continued to charge her with 
fees and interest and all sorts of penalties in contradiction 
to the Servicemembers Civil Relief Act. When they called our 
office, we were able to get many of those fees and penalties 
waived, but the fact of the matter is that this poor women went 
through extraordinary distress. And she is not alone.
    The New York Times, on March 28, 2005, published a front 
page story reporting that companies and servicemembers are 
often unaware of those protections. With a headline, 
``Creditors Press Troops Despite Relief Act,'' and I would 
submit that for the record, Madam Chairwomen.
    [The New York Times article appears after Mr. Israel's 
statement on p. 53.]
    Ms. Herseth Sandlin. So entered.
    Mr. Israel. The article talked about Sergeant John Savage 
who got a call from his wife on his way to Iraq and was told, 
``They are foreclosing on our house.'' At Fort Hood, Texas, a 
soldier's wife was sued by a creditor trying to collect a debt 
owed by her husband who was in Baghdad even though default 
judgments are not permitted against deployed soldiers. Camp 
Pendleton, California, ``A dozen Marines return home from Iraq 
to find that their cars and possessions were improperly sold 
while they were in Iraq to cover unpaid storage and towing 
fees.'' And in Ordan, Ohio, a young Army couple was served with 
foreclosure papers.
    The problem is that ignorance has been used as an excuse 
for the law on the Servicemembers Civil Relief Act. Many times 
deployed personnel are kissing their families goodbye, they are 
packing up their stuff, they are responding to their orders. 
They don't have the time to alert their creditors and tell them 
that they are leaving.
    Many of these creditors have said publicly, ``We didn't 
even know this law existed. Of course we wouldn't have harassed 
and intimidated the families of our servicemembers if we knew 
this law was the law. We didn't know.'' And so what my law does 
basically is this: It was designed in consultation with folks 
who are active in the consumer credit industry. They consulted 
with us in designing this bill so that is logistically 
feasible.
    It requires the Department of Defense when adjusting a 
servicemembers paycheck to receive combat pay, hostile duty 
pay, to automatically alert the three major credit bureaus that 
this person is now in a combat environment. That adjustment has 
to be made anyway on the payroll system. So it now 
automatically alerts the credit bureaus rather than making it 
the onus of the deployed personnel to alert the credit bureaus.
    The credit bureaus receive that information, they flag that 
servicemember's file. When somebody tries to call that--contact 
that credit bureau and report adverse information, that company 
would be told immediately this person is under the protection 
of the Servicemembers Civil Relief Act. It doesn't entitle them 
to not pay their debts, to not pay their loans. It 
affirmatively indicates to a creditor who may be trying to 
repossess a car that you can't repossess the car; who may be 
trying to score against that creditor--that borrower that you 
can't do it.
    It affirmatively says that this person is under the legal 
protection of Federal law and you have certain obligations and 
you have certain restrictions. So that nobody could say, ``Gee, 
we didn't know there was such a law.'' And so that the person 
who is being deployed doesn't have to be the one to, as they 
are saying goodbye to their families, and packing up their 
belongings, and reading their orders, write to every single 
creditor, terminate their leases, have the obligation of 
informing their creditors what the law is.
    It gets them off the hook. Not to pay their debts, they 
still have to do those things, but it puts the onus on the 
Department of Defense in order to make that alert in the credit 
bureaus and provides those additional protections.
    I thank the Chairwoman of the Subcommittee and very much 
appreciate your consideration of this bill.
    [The prepared statement of Congressman Israel appears on p. 
51.]
    Ms. Herseth Sandlin. Thank you, Mr. Israel. We have been 
joined by the Ranking Member Mr. Boozman. He has indicated he 
will temporarily waive his opening statement and questions 
until after we have heard from our final witness.
    Ms. Jackson Lee, thank you for being here, you are 
recognized for five minutes.

              STATEMENT OF HON. SHEILA JACKSON-LEE

    Ms. Jackson-Lee. Madam Chairwoman, let me thank you very 
much. To the Ranking Member, let me thank him for his 
courtesies. And thank the full Committee and the Subcommittee 
for the forward thinking leadership of this very important 
commitment to our veterans in this new Congress, in the 110th 
Congress.
    I want to particularly applaud the work of the Subcommittee 
on Economic Opportunity, because it is charged with legislative 
oversight and investigative jurisdiction over education of 
veterans, employment, training of veterans, vocational 
rehabilitation, veterans housing programs, and readjustment of 
servicemembers to civilian life.
    I believe there could be no more important aspect than the 
training and rehabilitation of our veterans. It is the ultimate 
commitment that after they have been willing to give the 
ultimate sacrifice, and many of them have come back with any 
number of injuries no matter what wars they participated in, 
that we say to them, ``You count and you care.'' And I want, 
again, to applaud this particular Committee and Subcommittee 
for that kind of attitude.
    My legislation, the Vision Impairment Specialist Training 
Act or VISTA Act of 2007, H.R. 1240, is to make good on that 
commitment of training, vocational rehabilitation, and the real 
answer to a question, ``Do I still care?''
    I am very proud that this legislation is supported by the 
Chairman of the Veterans' Affairs Committee. He is one of the 
original cosponsors, as well as Mr. Michaud, who is the Chair 
of this Committee's Subcommittee on Health; and the co-Chairs 
of the Congressional Vision Caucus, my colleague Gene Green of 
Texas, Ms. Ros-Lehtinen of Florida. It is a bipartisan 
legislative initiative. And we are very happy to note that a 
companion bill has been filed today by Senator Hagel and 
Senator Obama. And so it will be submitted to the Veterans' 
Affairs Committee there.
    We know that, and if I might just lay the ground work for 
the--for what we are literally facing as it relates to visually 
impaired veterans. There are 160,000 legally blind veterans in 
the United States, but only 35,000 are currently enrolled in 
Veterans Health Administration (VHA) Services. In addition, it 
is estimated that there are one million low vision veterans in 
the United States. And incidences of blindness among the total 
veteran population of 26 million are expected to increase by 
about 40 percent over the next few years.
    I need not frame for you that we know that there are 25,000 
injured soldiers coming back from Iraq and Afghanistan and the 
numbers are mounting. Because the injuries are focused on IEDs, 
brain injuries or head injuries rather, we know that much of 
that is impacted, if you will, or does impact sight.
    And so my legislation says that we are concerned. And I 
might add that Tom Zampieri is in the room, the Blind Veterans 
Association is a strong supporter of this legislation. But what 
does my the legislation do? And I think it goes to the heart of 
the matter. How do we help them? We need more trained 
individuals who know how to work with the visually impaired. We 
want them back on their feet. And my legislation does just 
that. It helps to remedy the situation by directing the 
Secretary of Veterans Affairs to establish a scholarship 
program for students seeking a degree or certificate in blind 
rehabilitation, vision impairment, and or orientation and 
mobility.
    The availability of these scholarships will provide an 
incentive to students considering entry into the field. 
Additionally, in exchange for the scholarship award, students 
are required to work for three years in a healthcare facility 
of the Department of Veterans Affairs (VA) to assure that our 
veterans are well cared for. Such a facility is in Houston; 
such facilities are in many of our Congressional districts; 
more really should be provided for.
    And so this legislation clearly says to the veteran, ``If 
you are visually impaired, you still have a future. You still 
have the ability to work. You still need to have mobility. And 
we are going to help you.'' In detail, this legislation will 
provide financial assistance to students enrolled in a program 
to study or study leading to a degree or certificate in visual 
impairment. It also again requires these individuals to be at 
the sites or to go back and give back to those who are in need.
    I do want to add a point about scholarships, because 
everyone says scholarships how does it work? The scholarship is 
from the Federal Government. And this debt will be owed to the 
United States thus a discharge and bankruptcy does not 
discharge a person from a debt under this legislation. If the 
discharge order is entered in less than five years after the 
date of termination of the agreement or the contract.
    Let me just simply say that I have seen these veterans. 
Many of us have been to Walter Reed; many of us have been to 
our veteran's hospital. And we see the kind of catastrophic 
injuries and we are grateful for the science of today that 
allows these young people to live. And I think the value of 
this legislation by creating more of these medical 
professionals, is that more and more of these injuries are in 
younger and younger Americans. Young people who have gone to 
war, 18, 19, 20, 21 who have their lives before them. This 
legislation will multiply the number of impaired specialist. So 
we will give these individuals a new lease on life, if you 
will, and give them the opportunity to be able to serve their 
country again in the capacity that they desire to do so.
    I ask my colleagues to give this due considerations before 
this Committee. And I thank the gentle lady and the Ranking 
Member for their time and this Committee. Thank you very much.
    [The prepared statement of Congresswoman Jackson-Lee 
appears on p. 55.]
    Ms. Herseth Sandlin. Thank you very much. Thank you to all 
of you for making time to be here in what we all have our busy 
schedules. I do hope that you will have time to stay for some 
questions. I want to recognize the Ranking Member, Mr. Boozman 
for any opening statement or questions he may have of our 
colleagues.
    Mr. Boozman. In the interest of time the, and I know you 
all have got a myriad of things to do. I really don't have any 
questions, Madam Chairwoman. And we will go ahead and defer to 
the rest of the panel.
    Ms. Herseth Sandlin. We have also been joined by Mr. Walz 
and Mr. Moran. Since the Ranking Member forwent some questions, 
I am going to recognize Mr. Moran, because he was here at the 
beginning of the hearing. Mr. Moran.
    Mr. Moran. Madam Chair, thank you very much. I thank you 
and the Ranking Member for making it possible for us to hear 
from our colleagues. I don't have any questions of the folks 
who have testified. I just would commend them for their 
bringing us creative ideas and approaches as we try to figure 
out how do we best meet the needs of our veterans, both from 
the perspective of making certain that we are able to recruit 
and retain servicemen and women and that our commitments are 
met to those who do serve.
    So I appreciate the interest and intensity with which you 
look at issues affecting veterans and I look forward to working 
with you to see that many of your ideas are accomplished in 
this Congress. I thank the Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Moran. Mr. Walz?
    Mr. Walz. Well, first of all, thank you Madam Chair for 
extending me the courtesy of being here today and to the 
Ranking Member, Mr. Boozman, I thank you.
    I don't have any specific questions, but I too would like 
to echo Mr. Moran's thoughts. I thank you for the passion you 
bring to these issues and I know as a 24-year veteran of the 
National Guard and someone who is deployed in these current 
missions, especially Mr. Israel the issue you bring up, is far 
more prevalent than anyone who hasn't gone through it knows. 
And I appreciate your thoughtfulness in that in realizing what 
a burden that is on the family. And it is easy to set in this 
setting and for people to say, ``Well maybe they just make a 
couple phone calls you it will be taken care of.'' It is not 
quite so simple.
    So I truly appreciate your passion. I appreciate the 
Chairwoman for having you here and bringing these thoughtful 
suggestions to us and things that I hope would love to see each 
one enacted. So thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Walz, and for the 
valuable perspective you bring having served recently and your 
years of service in the National Guard. Mr. Boozman?
    Mr. Boozman. Mr. Israel, one thing that does come up is, 
and again I am very supportive of what you are trying to get 
done, do you have any concern at all that in doing this that it 
might make it more difficult for those that are serving to 
actually get credit at a good rate as we start to do some of 
these things?
    Mr. Israel. Thank you, Mr. Boozman. In formulating this 
legislation we consulted intensely with the consumer credit 
industry. And in fact they indicated that that would be no 
problem whatsoever. In fact, they felt that it would--on the 
other side of the equation, it would strengthen those members 
credit and protect them from getting higher interest rates as a 
result of lower scores that were lowered without their 
knowledge.
    Ms. Herseth Sandlin. Mr. Brady, the notation requirement in 
your bill, do you think that the notation of slow payment due 
to service should be made for all personnel on active duty, or 
should it be restricted for those active-duty servicemembers or 
activated Reservist who are in a combat zone?
    Mr. Brady. My bill states that those that are receiving 
combat pay. Mobilized, they are in or deployed in the combat 
zone.
    Ms. Herseth Sandlin. Can you elaborate on how you think the 
notation can be of assistance? Does your bill also specify or 
would you be open to the issue of once there is a notation made 
for purposes of the servicemember, should there be problems 
upon his or her return, should there be a preservation of the 
pre-activation credit score or does the notation actually get 
transmitted to any entity that is requesting it?
    Mr. Brady. The notation would get put in by the three major 
credit agencies. And they would be all you have to do is notify 
one and they will put a little notation in their credit that 
they were deployed at this certain time and they should not be 
penalized in any way, shape, or form. Nor should their credit 
be altered in any way until they are on through their 
deployment and then they go back and have to pay their bill.
    But it freezes that timeframe when they are in combat, that 
they can't have their credit hurt. And I would be open to any 
kind of suggestion anybody would make to make this a better and 
stronger bill for our men and women in harms way.
    Ms. Herseth Sandlin. Thank you. I just wanted to clarify 
that once the notation is made, what is the practical effect of 
that? If it freezes the current credit rating and their score, 
then we want to make sure that is specified.
    Mr. Brady. Yes. It is incumbent upon the three major credit 
agencies. When they receive a notation, any one of them have to 
share with the other two and that notation will be notified any 
time there is a credit problem or credit inquiry for this 
person at the time only when they were deployed.
    Ms. Herseth Sandlin. Mr. Israel, I appreciate the 
consultation you have described with the credit industry and 
how this would work. I certainly agree that the duty should be 
on the U.S. Department of Defense (DoD). We all know 
individuals who have been activated and they have a lot of 
things on their mind as they prepare for their deployments. To 
leave a lot of the financial issues either to a spouse or to 
parents causes a lot of difficulty and the duty should be on 
the DoD.
    As we know, we have had problems particularly for the 
selected Reserve as it relates, at least in some early 
deployments, for TRICARE and the TRICARE coverage for those 
selected Reserve and their families. Can you elaborate on how 
we are going to ensure that the DoD is going to effectively and 
efficiently notify the bureaus and keep track of this within 
the system? I know you are on the Armed Services Committee, so 
perhaps there has been some oversight done already to ensure 
that the problems in TRICARE have been alleviated.
    Mr. Israel. Well I, Madam Chairwoman, I used to be on the 
Armed Services Committee and now I am on the Appropriations 
Committee. My heart is still with the Armed Services Committee, 
my wallet is with the Appropriations Committee, however.
    I will say that although this is a bipartisan bill 
cosponsored by Mr. Davis, a Republican member of the Armed 
Services Committee, I cannot tell you that it is by river, 
meaning I can't tell you that is the support or the opposition 
of the Pentagon. So I want to state that for the record.
    What we tried to do was find a logistically feasible and 
practical way for the Pentagon to alert credit bureaus to the 
change in status, rather than forcing the burden on the 
servicemember himself or herself. And the simplest way to do it 
is to take advantage of the fact that when you are deployed 
into a combat environment, you actually receive a change in 
your pay check. You receive combat pay, which means that 
somebody in the Pentagon has to go into the computer program 
and adjust your record so that you can get that additional pay.
    And the idea was, while they are doing that they would just 
press another send button or another key that would alert the 
credit bureaus to the fact that this person is now in a combat 
environment and is under the protection of the Servicemembers 
Civil Relief Act.
    So essentially, it becomes a clerical responsibility by the 
Department of Defense, which is already engaged in the clerical 
responsibility of adjusting that person's pay. And then, when 
the person is deployed out of a combat environment, what 
happens is that the Pentagon readjusts the pay to the base 
amount without combat pay and would then notify the credit 
bureaus that this person is no longer in combat.
    And so essentially we just add this one step to the 
Pentagon which is far better than adding 12 different steps as 
Mr. Brady says to the servicemember.
    Ms. Herseth Sandlin. Yes, Mr. Brady.
    Mr. Brady. Not to get into an argument with my dear friend, 
he only has one step. He only has to call one credit agency. He 
doesn't have to call all the others. And it's incumbent upon 
him, because it is his responsibility because it is his credit 
that is being hurt, rather than having to go to the Defense 
Department and rely on them pushing the button. I am going to 
push that button. I don't know whether somebody in the 
bureaucracy is going to push it, because it affects me.
    And what they do when the get orders, their orders say they 
are deployed for 18 months, 22 months, 12 months. They have to 
go to other agencies to get their rights. All they got to do is 
go to one other credit agency, give them a copy of their 
orders, 18 months they know that their credit will be on hold 
for 18 months. They do it themselves. No other jurisdiction has 
to get involved other than yourself.
    Ms. Herseth Sandlin. I appreciate that. Have either of you 
heard from any of the veterans service organizations with 
regard to specific support or specific concerns about either of 
your bills?
    Mr. Brady. Just applauding us for doing it. Applauding us 
for doing it.
    Mr. Israel. I would echo that. And I just want to state I 
don't think there is a difference between Mr. Brady and I on 
this at all. It is kind of a one, two punch. There is under Mr. 
Brady's bill the servicemember makes one call to a credit 
bureau, which I support. Under my bill, there would be this 
additional requirement by the Department of Defense to alert 
the credit bureaus as well.
    And I know that we are have been talking together about 
combining our efforts. Is that fair to say?
    Mr. Brady. Sure.
    Mr. Israel. Okay.
    Ms. Herseth Sandlin. Okay. Well there may be some other 
areas that we want to explore. We do have ten minutes left on 
the vote and I have one quick question for Ms. Jackson-Lee.
    But we want to address this issue in the most effective way 
possible. And that is why we have the third and fourth panels 
that will be addressing each of the bills and we are wanting to 
work with you both in having approached this maybe slightly 
differently and maybe the initial bill and a supplement as you 
described it, Mr. Israel. We may have some follow up questions 
for you.
    Ms. Jackson-Lee, I commend your efforts in this bill and 
the importance of this bill. I, too, have looked at the issue 
specifically for disabled veterans for specially adaptive 
housing, as I mentioned in my opening statement. I did seek a 
Congressional Budget Office (CBO) score on mine, which includes 
from the $50,000 to $60,000 which is $47 million over ten 
years. Have you similarly sought a score for this bill as it 
relates to the cost of the scholarship program?
    Ms. Jackson-Lee. We are in the midst of doing that now. I 
do want to make--I am glad you asked that question and I want 
to make sure that in the scholarship program only if you serve 
for a period of time and return your services to the Veterans 
Affairs Department will the debt be forgiven. So at least there 
is a component where we are not providing this training and 
never getting a return in kind.
    If you do not perform the commitment, then it as I 
indicated, it becomes a debt that you are obligated to pay as 
long as the request is made five years after the--before five 
years in after the agreement, but we are in the midst of 
determining that.
    I will say that I think that it will equate to a positive 
off set only because I want to share with you the U.S. 
Government Accountability Office (GAO) study more out patient 
rehabilitation services for blind veterans could better meet 
their needs. And I think the cost of providing services because 
blind veterans or impaired veterans with impaired eyesight are 
not able to be mobile, are not able to work. That cost may 
exponentially be, if you will, less when you equate it to what 
we would get if we provided these trained individuals who can 
help them become more able to work or more able to be more 
mobile in this instance.
    So, we will get that number to the Committee, but I believe 
it will be a number that will show that it is certainly more 
reasonable to do so in order to provide these services.
    And I would like to just certainly give more enthusiastic 
recognition of the Blind Veterans Association that includes 
this bill in their legislative update. And rumor has it that 
the Veterans' Affairs Department is supporting this 
legislation. And I know that we don't want to dwell on rumor, 
but I thought I would add that to the statement.
    Thank you. We will provide that information to the 
Committee.
    [The 2004 GAO report, entitled VA Healthcare: More 
Outpatient Rehabilitation Services for Blind Veterans Could 
Better Meet Their Needs, GAO-04-996T, referred to appears on p. 
58.]
    Ms. Herseth Sandlin. Thank you. Hopefully we will have the 
rumor confirmed on our fourth panel, but thank you. I 
appreciate your response as it relates to the potential cost 
estimates and agree with your anticipation of what hopefully 
the CBO score will show.
    Thank you, again, for making the time to take our questions 
and I do look forward, as I know the Ranking Member does, in 
working through some of these issues in better meeting the 
needs of our Nation's veterans.
    We will break now for the next series of votes and be back 
shortly for the second panel.
    [Recess.]
    Ms. Herseth Sandlin. The Subcommittee will come to order. 
Mr. Boozman and Mr. Reichert are both on their way, but because 
we are trying to fit in a lot this afternoon and the witnesses 
on our second panel have other places to be as does Ms. Brown-
Waite who has joined us on the Subcommittee for this panel. I 
would like to go ahead and get started.
    Our second panel is comprised of the Honorable Peter Welch; 
the Honorable Michael Michaud; and the Honorable David 
Reichert. Mr. Welch, we will start with you. You are recognized 
for five minutes.

 STATEMENTS OF HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS 
     FROM THE STATE OF VERMONT; HON. MICHAEL H. MICHAUD, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF MAINE; AND HON. 
DAVID G. REICHERT, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
                         OF WASHINGTON

                 STATEMENT OF HON. PETER WELCH

    Mr. Welch. Thank you, Ms. Sandlin and the other Members of 
the Subcommittee. I also want to acknowledge the presence of 
Mr. Michaud who has been a leader on issues involving veterans 
and very helpful to me and the veterans in Vermont.
    Our bill that I am here today on has to do with the fact 
that historically, the Guard has been treated differently than 
the active-duty military. And there may have been reasons for 
that in the past, but whatever they were, they don't exist any 
longer, because as this Committee knows, as well as everyone in 
Congress, members of the National Guard are now frontline 
troops whose responsibilities are to play a frontline role in 
combat.
    And let me just go through some of the problems that we can 
solve with the favorable consideration of the legislation 
before you. A regularly discharged veteran who has some level 
of disability will typically have to wait about six months 
before receiving a disability check from the U.S. Department of 
Veterans Affairs (VA). During that time period, veterans who 
suffer a disability are at their most vulnerable for divorce, 
for dislocation from work, from facing all the challenges of 
getting re-integrated into civilian life.
    Now the Army came up with a pretty good program to help 
alleviate that, and they call it the Benefits Delivery at 
Discharge (BDD) program. And what it does is allow a member of 
the Armed Services to go through the disability determination 
process about six months before the discharge. And most of the 
time the situation is not going to change in the next six 
months. That has been incredibly successful, because what it 
has meant is that that soldier has had a disability 
determination before they leave the service and then upon 
discharge from the service they have got their rating and they 
are either getting the benefit or they are not, but they know 
the answer and they are able to move on with life immediately 
in their new status.
    Reservist and Guardsmen, while they comprise now 40 percent 
of the combat forces in Iraq and Afghanistan, don't have 
regular access to this benefit discharge program. In my State 
of Vermont, in fact, we have sent 4,000 soldiers to Iraq and 
Afghanistan since September of 2001 and nearly half of them are 
from the Guard and the Reserves.
    So all of us, obviously, know that we are asking first 
class service from our Guard and Reservist and we don't want to 
give them second class benefits. So in addition to the delay 
that is disproportionately imposed on applications from Guard 
and Reservist, there is a denial rate for their applications 
that is more than twice the denial rate for members of the 
regular Army. And obviously since they are doing the same thing 
in the same place facing the same conditions, there are no real 
explanations other than systemic ones for that.
    The denial rate has been documented in a study that was 
obtained under the Freedom of Information Act, but it was, just 
to be specific, 7.6 percent; but for National Guard and for the 
Reserves it was a denial rate of 17.8 percent. So the bottom 
line here is that we have in place, through the Army, an 
excellent program, the Benefit Delivery at Discharge. That is 
not as available to the Reservist and the Guard as it should 
be, because it works. And the point of this legislation is to 
establish a degree of cooperation between the Army and the U.S. 
Department of Veterans Affairs (VA) to have this program be 
made available to our soldiers who are in the Reserve and in 
the Guard.
    It is simple. It is straight forward. It is fair. There is 
no reason to deny benefits simply because of administrative 
burdens as opposed to the merits of the case. So I am pleased 
also, Madam Chair, to offer at this time with I hope unanimous 
consent into the record, a letter from the Adjutant General in 
Vermont, someone we are very proud of, two star General Michael 
Dubie who is in support of making this program available to the 
members of the Reserve and the Guard.
    And I thank all of you for your excellent work.
    [The prepared statement of Congressman Welch, and attached 
letter from the Adjutant General in Vermont, appear on p. 66 
and 68.]
    Ms. Herseth Sandlin. Without objection, so entered.
    We know you have been working closely with the State 
Adjutant General in Vermont. We appreciate that. Each of us has 
to work very closely with our State Adjutant Generals because 
they have a particular and unique perspective and understanding 
of what the men and women under their charge go through post-
deployment. We appreciate that and we will enter that for the 
record.
    Mr. Welch. Thank you.
    Ms. Herseth Sandlin. Mr. Michaud, you are recognized.

              STATEMENT OF HON. MICHAEL H. MICHAUD

    Mr. Michaud. Thank you very much, Madam Chairwoman and 
Ranking Member Boozman. I want to thank the Committee for 
allowing me testify this afternoon on H.R. 2475, the ``Veterans 
Home Equity Conversion Mortgage Act of 2007.'' I introduced 
H.R. 2475 with Congresswoman Brown-Waite of Florida to provide 
another tool for our aging veterans to help them live out their 
remaining years comfortably.
    Our legislation would allow the VA to offer a home equity 
conversion mortgage to eligible elderly veteran homeowners aged 
62 or older. The Home Equity Conversion Mortgage enables our 
older homeowners to convert their equity in their homes into 
tax free income without having to sell the home, give up the 
title, or take on a new monthly mortgage payment.
    Instead of making monthly payments to a lender as with a 
regular mortgage, a Home Equity Conversion Mortgage converts 
the equity in the individual's home to cash. The lender makes 
the payment to the individual veteran. With the rate of 
American homeownership at an all time high, Home Equity 
Conversion Mortgage have become a mainstream and highly 
successful financial planning tool for elderly homeowners.
    The Federal Housing Administration (FHA) endorsed 8,041 
reverse mortgages during the month of April compared to 6,536 a 
year earlier. If you take that out to seven months into the 
current fiscal year, FHA has endorsed 61,101 loans compared to 
39,674 during the same period last year, which is a 54 percent 
increase.
    The intent of H.R. 2475 is to allow the VA to offer reverse 
mortgages in the same way that FHA currently does. Like the FHA 
program, those interested in obtaining this type of mortgage 
must receive significant counseling. The veteran must 
demonstrate a full understanding of the benefits and risk, as 
well as the consequences of his or her heirs before being 
deemed eligible for the loan.
    While our legislation leaves it to the discretion of the 
Secretary, if the Secretary follows current VA home loan 
regulations, veterans would be eligible for higher available 
loan limits than the Farmers Home Administration Loan program, 
which means more cash out to the veterans and a savings of 
roughly 0.5 percent of interest rate, because monthly mortgage 
interest premiums are not required with VA guaranteed loans.
    Elderly veterans should be offered this valuable tool, 
which allows them to cash out the equity that they have built 
up in their homes over 20, 30, or 40 years. This would enable 
them to continue to meet the demand of increasing health, 
housing, and cost without their risking them losing their 
homes. There is almost a no risk to veterans and very little 
risk to the VA. This is truly a win, win opportunity. This 
legislation would allow more veterans to remain in their homes 
longer without having to take on additional monthly bills or 
facing the prospect of losing their homes.
    It will help them to enjoy the so called golden years of 
their lives. And I want to thank the Chairwoman, Mr. Ranking 
Member, and also Congresswoman Brown-Waite for cosponsoring 
this legislation with me. With that, I yield back.
    [The prepared statement of Congressman Michaud appears on 
p. 70.]
    Ms. Herseth Sandlin. Thank you, Mr. Michaud, and we 
appreciate the bipartisan efforts between you and Ms. Brown-
Waite in introducing and advancing this legislation.
    Mr. Reichert, welcome to the Subcommittee. Thank you for 
appearing before us today and you are now recognized for five 
minutes.

              STATEMENT OF HON. DAVID G. REICHERT

    Mr. Reichert. Sure I am glad to be there. Madam Chairwoman, 
Ranking Member Boozman and members of the Subcommittee, thank 
you for the opportunity to testify in support of H.R. 1632, the 
``Improving Veterans Re-Employment Act.'' Congressman Tim Walz, 
as you know, and I have worked together on this bipartisan 
legislation to enact an important technical fix to the tracking 
and reporting of re-employment complaints filed by people in 
the Guard and in the Reserves.
    You will find Congressman Walz's supporting testimony in 
your hearing documents. So I am grateful that he has joined us 
here today, knowing that he is on the full Committee. As you 
know, the Uniform Services Employment and Re-Employment Rights 
Act is meant to ensure that members of the Guard and Reserve 
return to the rights, seniority, and benefits of the civilian 
jobs they put on hold to defend our freedom.
    The Departments of Labor and Defense are charged with 
assisting veterans and employers with this law and mediating 
disputes with the support of the Department of Justice and the 
Office of Special Counsel. Labor submits an annual report to 
Congress on their re-employment complaints filed by veterans. 
Early in 2005, I learned that Reservists and Guardsmen in my 
district and across the country were facing difficulties in 
returning to their civilian jobs. I know from my former career 
as the Sheriff of King County in the Seattle area of 
Washington, that the best course of action comes when you 
collect information first. And so, we went on an information 
search, gathering intelligence.
    We commissioned a GAO study to examine how thousands of 
members of the Guard and Reserve who are called up to serve in 
Iraq and Afghanistan were transitioning back into the civilian 
work force. The study found that the Departments responsible 
for enforcing the Uniform Services Employment and Re-Employment 
Rights Act do not coordinate the tracking, sharing, or 
reporting of the complaint data they receive.
    This compromises their ability to swiftly and effectively 
respond to the veterans' job needs. The GAO study also found 
that Congress was only receiving information on a very small 
percentage of the thousands of complaints filed by the 
Reservists and Guardsmen each year, hampering our ability to 
take immediate action to address the concerns of Reservists and 
Guardsmen.
    This bill would enact a simple, straightforward fix to this 
lack of cohesive information sharing and reporting. It would 
require that the Departments coordinate the sharing of and 
reporting on the complaint data filed by Reservists facing 
difficulties being re-hired. It would require them to use 
uniform categories in tracking and reporting the data. And it 
would require the Departments to specifically report on hiring 
difficulties resulting from service connected disabilities.
    These provisions will enable Congress to better identify 
trends in the re-employment difficulties of our servicemembers 
and the corrective actions that must be taken to ease their 
transition back into the civilian work force. Good intelligence 
generates good action, and informed action leads to positive 
results. This bill would give those responsible for tending to 
our veterans re-employment concerns the information needed to 
best assist them. I am encouraged by the steps the Departments 
of Labor and Defense have already taken to improve the 
reporting of Reservists' and Guardsmen hiring difficulties. I 
appreciate their support of the provisions in this legislation.
    The conflicts in Iraq and Afghanistan have presented our 
Armed Forces with many new challenges, some expected and some 
unforeseen. As members of the House Veterans' Affairs 
Committee, you understand as well as anyone in this chamber the 
importance of providing comprehensive support for all of our 
servicemembers needs, ensuring that veterans can easily return 
to civilian life and the work that they left to serve our 
country.
    I respectfully urge you to support H.R. 1632, which will 
help our veterans return to their civilian jobs and enable us 
to better serve all of our men and women in uniform. I thank 
you so much for allowing me the time.
    [The prepared statement of Congressman Reichert appears on 
p. 70.]
    Ms. Herseth Sandlin. Thank you. Thanks to all three of our 
panelists. I now would like to recognize Ms. Brown-Waite for 
any statements or questions she may have.

          OPENING STATEMENT OF HON. GINNY BROWN-WAITE

    Ms. Brown-Waite. I thank the Chairlady and certainly the 
Ranking Member for allowing me to once again be with this 
Committee--Subcommittee. I was on it last year.
    Ms. Herseth Sandlin. We miss you. That is right.
    Ms. Brown-Waite. And it is good to be back. I was very 
proud to join with my colleague Congressman Michaud in 
introducing H.R. 2475. This measure would actually help older 
veterans utilize a financial instrument that has become very 
increasingly common. It is the Reverse Home Equity Mortgage. By 
ensuring the providers of these products against a loss the 
Department of Veterans Affairs will help improve the lives of 
those individuals who have served our country.
    Millions of those from the greatest generation and soon to 
be retiring baby boomers have served their country, raised a 
family, built a career, and are looking forward to spending 
their golden years in homes that hold all of these memories. 
Too often a senior's most valuable asset is his home. His or 
her home. Before Congress created the Home Equity Convertible 
Mortgages under the Federal Housing Act, the only way to tap 
into this asset was for a senior to sell their home, giving up 
all of their priceless treasurers. However, under the HECM 
program, seniors are actually paid to stay in their homes and 
only upon their death or relocation are required to pay the 
money back.
    What started as a pilot program less than a decade ago now 
provides over 75,000 seniors with piece of mind in the comfort 
of their own home throughout their retirement. This bill 
extends this program to those who qualify for services under 
Veterans Affairs. The legislation is, I believe, a common sense 
way to thank our Nation's veterans. In fact, such a program 
should actually raise revenue for the government, for the VA. 
Other reverse programs that have been implemented by the 
Federal Government have generated money while benefiting 
countless number of older consumers.
    I ask the Subcommittee to take a closer look at our bill 
and would be happy to answer any questions. I know that I have 
held various meetings in my district to help seniors to gather 
more information about reverse mortgages. They are always very, 
very well attended. And people come away from there, and I 
always encourage them, ``Talk to your family before you do 
this. Make sure that this is a good family decision.'' But it 
is something that many seniors are taking advantage of, because 
it helps them, too, to feel as if they have some control over 
their financial destiny. And I think it is an excellent bill 
and I am very pleased to work with Representative Michaud on 
it.
    And I yield back the balance of my time.
    Ms. Herseth Sandlin. Thank you, Ms. Brown-Waite. I would 
now like to recognize Mr. Walz for any statement or questions 
he may have.

           OPENING STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Well thank you once again, Madam Chair, for 
extending me the courtesy and Mr. Boozman for allowing me to be 
here. It is a great privilege. Thanks to all my colleagues who 
are here for offering up great legislation to take care of our 
veterans. Your passion, your concern and your thoughtfulness is 
truly appreciated.
    And it is a real pleasure for me to be a cosponsor with the 
gentleman from Washington, Mr. Reichert's legislation. Mr. 
Reichert is a veteran himself and as a sheriff of a large 
department hired many National Guard and Reserve soldiers. He 
understands this issue intimately. He was working on it when I 
was a member of the Guard and not in Congress. So it is a real 
privilege for me to join you. You are fighting the good fight 
and doing the right thing. So I thank my colleague.
    What Mr. Reichert and our bill is trying to do is trying 
to, I think, establish a solid baseline to work from and trying 
to get an understanding of how we can best use our resources to 
address this problem of re-employment. And Mr. Reichert and I 
were just having a conversation on the floor a little while ago 
about how this issue is kind of the silent one that is out 
there. And one of the issues is, and I know in my State and I 
know Mr. Reichert would agree in Washington, our employers do a 
fantastic job of doing everything they can to try and help our 
citizen soldiers.
    But the burden is very great and they are unwilling to try 
and talk about it. So one of the things is that the statistics 
are hard to get a grasp on and Mr. Reichert is very thoughtful 
on what he is asking for here.
    And I would just like to, from your expertise on this, Mr. 
Reichert, and you talked a little bit in your opening 
statement, elaborate a little bit on what you see as a 
deficiency in a way that you think that we could correct this, 
where it would make a difference.
    Mr. Reichert. Well it is very simple. In just a couple of 
minutes, the problem has been that most of the complaints are 
filed through the Department of Defense. However, Department of 
Labor has received about 2,400 complaints, and there are 10,000 
complaints that have been filed through DoD and those 
complaints are not brought together. So when we get our report 
here in Congress, we are only learning about 2,400 complaints 
and issues, and we are only getting a piece of the picture as 
to what the real issues and the real problems are.
    There are 10,000 other complaints out there that we don't 
see in the annual report to Congress. And so what this bill 
does is gather that information together, gather those 
complaints together, and now we are able to analyze nearly 
13,000 complaints to find the true picture of what is really 
happening when Reservists and Guardsmen come back to their 
families. And it gives the Department of Labor a better 
understanding as to how to address each need as they look at 
the total picture rather than just a very small fraction of the 
complaints.
    Mr. Walz. Well thank you so much, Mr. Reichert. And I would 
say that for most of us to understand this, this is about an 
issue of compassion for our veterans in terms of treating them 
the way they need to be treated. It is also an issue of 
national security to make sure that our retention rates stay as 
high as they possibly can that we can retain these soldiers by 
them keeping their jobs. And I think Mr. Reichert has got the 
first step here before we rush head long into how we are going 
to fix this, it is best that we know the real data.
    So it is a pleasure for me to be on this with you Mr. 
Reichert, and I thank you. I yield back, Madam Chair.
    [The prepared statement of Congressman Walz appears on p. 
49.]
    Ms. Herseth Sandlin. Thank you, Mr. Walz. Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chairwomen. Again, I agree 
with what Mr. Walz said. I appreciate all three of you being 
here, it is so exciting to see people like you that are working 
so hard. You and your staffs' that are devoting your time 
trying to sort through all these veteran issues, trying to make 
life easier for them. And so we really do appreciate it.
    So I look forward to moving the process forward, but again 
just want to commend you for your hard work and again bringing 
forth some really excellent ideas that we need to look at and 
hopefully fix. Thank you.
    Ms. Herseth Sandlin. Well I want to echo Mr. Boozman's 
sentiments.
    [Laughter.]
    We have two more panels after you to specifically address 
their positions on each of your bills.
    All three of you have identified by working together with 
other members of the Subcommittee areas where there is a 
disconnect between either DoD and the VA; DoD, Department of 
Labor, and then opportunities for the VA along the lines of 
what we have pursued in the past, very effective programs. So 
we appreciate you introducing these bills, bringing them to our 
attention.
    I have worked with others in identifying some of these 
gaps. As you stated, Mr. Reichert, to have cohesive information 
sharing and reporting that allows us to do our job better and 
our oversight to identify the corrective action that may be 
necessary is very helpful. We look forward to continuing to 
work with you to advance these bills.
    I do have a quick question for Mr. Michaud and Ms. Brown-
Waite. Mr. Michaud, you had mentioned that H.R. 2475 would 
provide almost no risk to the veteran and very little risk to 
the VA. In either of your opinions, given that the risk is very 
minimal, what are the risks that are involved and how do we 
best address those risks? If indeed you feel that they have to 
be addressed or if, as the program is structured along the 
lines of other programs that we have had, whether they be 
revenue generators or not that those risks can be adequately 
addressed separate from specifying that in the legislation 
itself.
    Mr. Michaud. Well I think the risks to the veteran would be 
if a veteran was to move out of his home before the time was 
up, then he would have to repay the mortgage. If you look at 
the benefit of the program, I think the benefit clearly 
outweighs the risk to the veteran if he has to move out.
    And as far as what risk there might be to the VA system, I 
think there would be very little other than if a veteran tends 
to live a long, long, long time, which hopefully that is the 
case, but I can see there is very, very little risk.
    And I might also add I want to thank Ms. Brown-Waite. She 
has definitely been a leader in this particular area and has 
focused on this issue a lot longer than I have and want to 
thank her publicly for her leadership. I really enjoyed working 
with you and your staff on this particular issue.
    Ms. Brown-Waite. I think that is an excellent question. The 
risk to the veteran is exactly as Mr. Michaud had said, but 
think about the benefits. I mean the benefit clearly is people 
age better in their own home. And they will have spending money 
as a result of it. And they will be able to draw that equity 
out.
    Many seniors, whether they are veterans or non veterans, at 
first are a little reluctant to take the money out of their 
house because initially they want to say, ``Oh, I am going to 
leave to my daughter or my son or my grandchildren.'' But that 
is why I always encourage them, ``Please talk to your family 
about it,'' because most families will say, ``You know, if it 
helps you be more comfortable, go for it.''
    The VA always has the home as the asset. And so there is 
little or no risk there for the VA. And then actually, 
historically, has been a money generator. I know that with the 
reverse mortgages elsewhere, it actually has generated money.
    Ms. Herseth Sandlin. Well, again, thank you both for your 
responses. And we may be posing some similar questions to other 
witnesses on the other panels. Thank you once again.
    Mr. Welch, thank you for identifying yet another area in 
which we can identify a gap and better serve our National Guard 
and Reservist as it relates to the specific program you have 
identified of the Benefits Delivery at Discharge program. Again 
identifying mechanisms whereby we can close this gap and have 
DoD more responsive to this in a systemic way. I don't think 
there is any intent to dismiss the needs or to be neglectful, 
but sometimes the systemic issue of the administrative burdens 
versus the merits as you described in just enhancing the 
availability of these programs for the selected Reserve.
    Thank you all very much. We appreciate your time and the 
your availability on rather short notice to appear before our 
Subcommittee.
    I would now invite panel three to the witness table. 
Joining us on our third panel of witnesses we have Mr. Ronald 
Chamrin, Assistant Director of the Economic Commission for the 
American Legion; Mr. Brian Lawrence, Assistant National 
Legislative Director for the Disabled American Veterans; Mr. 
Ray Kuntz, Chief Executive Officer of Watkins and Shepard 
Trucking Company and Chairman of the American Trucking 
Associations; and Charlie Huebner, Chief of U.S. Paralympics 
for the U.S. Olympic Committee.
    Mr. Chamrin, you are recognized for five minutes.

 STATEMENTS OF RONALD F. CHAMRIN, ASSISTANT DIRECTOR, ECONOMIC 
  COMMISSION, AMERICAN LEGION; CHARLIE HUEBNER, CHIEF OF U.S. 
    PARALYMPICS, UNITED STATES OLYMPIC COMMITTEE; BRIAN E. 
  LAWRENCE, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED 
  AMERICAN VETERANS; AND RAY KUNTZ, CHIEF EXECUTIVE OFFICER, 
WATKINS AND SHEPARD TRUCKING COMPANY, HELENA, MT, AND CHAIRMAN, 
              AMERICAN TRUCKING ASSOCIATIONS, INC.

                 STATEMENT OF RONALD F. CHAMRIN

    Mr. Chamrin. Madam Chairwoman and Members of the 
Subcommittee, thank you for this opportunity to present the 
American Legion's view on several pieces of legislation being 
considered by the Subcommittee today.
    The American Legion commends the Subcommittee for holding a 
hearing to discuss these very important and timely issues. 
Madam Chairwoman, I will limit my remarks to a few pieces of 
legislation.
    H.R. 1598, servicemembers Credit Protection Act. American 
Legion supports Section 801, Notice of Consumer Reporting 
Agencies, efforts to assist the servicemember and protecting 
the credit reporting will allow the servicemember to focus on 
their mission and provide a favorable climate. Mobilizing 
troops have enormous responsibilities for their mission, their 
fellow troops, their families, and themselves and may have 
little time to monitor their credit.
    Many servicemembers and veterans are unaware of benefits 
and protections that are afforded to them. Additionally, the 
veteran must perform certain steps and procedures that to 
receive their maximum benefit and protection afforded by law. 
Filing, following up and responses to matters while in a combat 
zone is extremely difficult. Efforts to assist veterans in a 
transition from civilian life to active duty and back again to 
civilian life will greatly benefit a veteran.
    American Legion supports the addition of Section 605C the 
Combat Zone Duty Alert to the Fair Credit Reporting Act. This 
measure aims to protect the credit of servicemembers deployed 
to an overseas combat zone.
    H.R. 1315. The American Legion supports the intent, but 
strongly objects to the restrictive language ``. . . in the 
line of duty.'' This would be inconsistent with the current VA 
policy for awarding of a service connected disability rating 
for an injury or medical condition incurred or aggravated while 
on active-duty. American Legion strongly objects to denying 
veterans severely disabled due to injuries sustained while at 
off duty status.
    Active duty servicemembers in transit to and from the duty 
station would also be excluded from this benefit if severely 
injured.
    H.R. 1240. The American Legion supports this legislation. 
servicemembers and returning--servicemembers are returning from 
the battlefield with vision loss, amputations, TBI, and other 
injuries. These veterans are young and have their whole lives 
ahead of them. This bill will help to ensure that in future 
years these veterans will have the care and improved quality of 
life that we as a nation should gladly give.
    H.R. 513, the National Heroes Credit Protection Act. The 
American Legion supports the protection of credit ratings of 
persons activated for military service as stipulated in this 
provision. Supporting the troops includes ensuring that they 
are solely focused on their mission at hand while on active 
duty. A large number of National Guard and Reserve troops that 
are called to active duty are deployed to a combat zone and 
have little or no opportunity to review their finances, credit 
scores, and other matters while deployed.
    Additionally, many young servicemembers are unaware of many 
best financial practices, protections, and benefits afforded to 
them.
    H.R. 2259. American Legion supports this bill to ensure 
that members of the Reserve components are able to fully 
participate in the Benefits Delivery at Discharge program. It 
is extremely important to ensure the financial, psychological, 
and physical well-being of our Nation's heroes. We do note the 
absence of any mention of the Department of Labor's Veterans' 
Employment and Training Service and feel that VETS is an 
integral member of the transition process. The American Legion 
strongly supports the Transition Assistance Program.
    H.R. 1632. The American Legion supports the Improving 
Veterans Re-employment Act of 2007. This bill seeks to amend 
title 38, U.S.C., to improve the annual report required on 
veterans re-employment rights. The number of cases from each 
agency that are disability related must also be contained in 
the report.
    The American Legion also supports the strongest veterans 
preference laws possible at all levels of government. We 
believe that the evidence compiled in this report will show the 
current state of enforcing the Uniformed Services Employment 
and Reemployment Rights Act and veterans preference laws to our 
Nation's veterans.
    The American Legion is deeply concerned with the protection 
of the veteran and the prevention of a legal and egregious 
hiring practices. Currently, veterans are filing claims after 
the non-compliance employment event occurred, and therefore may 
become financially disadvantaged. Concurrent measures and 
continuous oversight must be enforced and in place to protect 
veterans from unfair hiring practices, not just reactionary 
investigations.
    Many veterans give up or do not file complaints because 
they must seek employment elsewhere or face serious financial 
difficulties. We further state that the veteran must be 
protected at the onset of the hiring process, especially 
because corrective actions to remedy the veterans plight are 
not always guaranteed.
    H.R. 112. The American Legion agrees with the intent H.R. 
112 in that allows for members of the Armed Services and 
veterans to receive enhanced educational benefits more in line 
with today's needs. The American Legion feels that a monthly 
tax-free substance allowance index for inflation must be part 
of all educational assistance packages.
    Furthermore, while this legislation is aimed toward the 
active-duty force MGI Bill chapter 30, the American Legion 
supports legislation that will allow Reservists to earn these 
credits for education just as active duty troops do.
    In addition to the positive measures that the bill 
encompasses, the American Legion feels that all veterans be 
treated equally regardless of their Reserve/National Guard 
status in such that an individual who is called to duty and 
served honorably should not have to remain in the selected 
Reserve to use their earned benefits.
    Finally, and my final bill, H.R. 2579. The American Legion 
has no official position on the mechanism of funding State 
Approving Agencies (SAA). However, the American Legion fully 
supports re-authorization of SAA funding to the current fiscal 
year 2007 levels.
    In conclusion, this legislation discussed today aims to 
better serve veterans and ultimately assists them in financial 
stability. American Legion commends the Subcommittee for 
addressing these important issues and appreciates the 
opportunity to present this statement for the record.
    I would be happy to answer any questions you would have. 
Thank you.
    [The prepared statement of Mr. Chamrin appears on p. 71.]
    Ms. Herseth Sandlin. Thank you for the views on all of 
those bills. I know it is hard to get through in five minutes. 
And with the indulgence of Mr. Lawrence and Mr. Kuntz, Mr. 
Huebner has a flight to catch. So if you don't mind I am going 
to recognize him now for five minutes. Thank you both.
    Mr. Huebner?

                  STATEMENT OF CHARLIE HUEBNER

    Mr. Huebner. Thank you. Thank you, Madam Chairwoman and 
also Ranking Member Boozman and Members of the Subcommittee. I 
appreciate the opportunity to testify today on H.R. 1370. I do 
have a personal message for you Madam Chair. Our CEO, Jim 
Shear, is the first Olympian to be head of the U.S. Olympic 
Committee and also the first South Dakotan to be head of the 
U.S. Olympic Committee. And he wanted to express to you and to 
the Committee his thanks for your leadership in support of 
veterans.
    Ms. Herseth Sandlin. Well thank you very much for passing 
that along. We will look forward to seeing him. Always nice 
when you have a first for South Dakota.
    Mr. Huebner. He also said he will be at the Mowbridge Rodeo 
over the 4th of July weekend. So if you are in South Dakota, he 
would love to have you to Mowbridge.
    [Laughter.]
    By way of brief background, the USOC, the U.S. Olympic 
Committee is an organization chartered by Congress to run 
Olympic and Paralympic programs. Paralympic activity is sports 
for physically disabled athletes and the Paralympic games are 
held approximately two weeks after the Olympic games at the 
same Olympic venues.
    The Paralympic movement began shortly after World War II 
utilizing sports as a form of rehabilitation for injured 
military personnel returning from combat. The USOC today spends 
more than $10 million annually on Paralympic programs. All of 
those funds, of course, are from private sources. We expect our 
budget to grow to $16 million to support Paralympic program by 
2012.
    In addition, disabled sports programs from throughout 
United States are spending an additional $20 million at the 
local level to provide sports and physical activity programs 
for person with physical disabilities.
    Injured military personnel and veterans are the soul of the 
Paralympic movement. When I speak of the Paralympic movement, I 
am not talking about the a small number of persons that will 
make future Paralympic teams. I am speaking of a movement and 
individuals with physical disabilities that are using the 
simple platform of sports to re-enter life. I am talking about 
a population that is educated, employed, active in their 
communities, and inspiring Americans to achieve and overcome 
obstacles.
    However, it is likely I am very proud to say, that by 2008 
there will be one or more former servicemembers that will 
represent America for the second time at the Paralympic games 
in Beijing. That will be a great achievement and story for 
America and the American people.
    Three years ago, recognizing the growing number of U.S. 
military personnel returning home with physically debilitating 
injuries, and utilizing our experience, expertise, and 
understanding of the impact of sport on the physical and mental 
rehabilitation process for young men and women that are newly 
disabled, the USOC launched the Paralympic Military program.
    Components of the Paralympic Military program include 
national training of community leaders to implement Paralympic 
sport at the community level; clinics and mentor visits at 
military and VA installations; development of local community-
based programs in targeted markets that have military or VA 
installations; and Paralympic military sport camps conducted at 
our Olympic training centers in Colorado Springs and Chula 
Vista, California.
    The Military Sports Camps provide an introduction to 
Paralympic sport, but also the introduction of Paralympians 
that serve as mentors to newly injured military personnel and 
veterans. These successes have been told nationally by entities 
such as USA Today, The New York Times, NBC Sports, and ABC 
Sports just in the last 30 days.
    As successful as the Paralympic Military program has been, 
we have only scratched the surface and will do more. Currently, 
there is a significant lack of Paralympic and community-based 
programs for persons with physical disabilities in the United 
States. We have been most fortunate in developing a very 
positive and productive working relationship with the 
Department of Veterans Affairs and other Paralympic 
organizations. Since we have collaborated on certain 
activities, but have been limited financially and 
programmatically.
    We believe that this legislative proposal, H.R. 1370 to 
establish an Office of National Veterans Sports Programs and 
Special Events accompanied by supportive funding would serve as 
a vehicle for the VA and USOC jointly to serve a larger 
universe of veterans for whom Paralympic sport would serve as a 
valuable rehabilitation activity, to re-integrate into 
communities with family members and friends.
    We would envision an expansion of community-based programs 
to target a larger number of veterans and their families and 
create similar programs at community facilities of some of our 
Paralympic partners such as the Lakeshore Foundation in 
Birmingham, Alabama and the City of Colorado Springs, Colorado, 
the home of Fort Carson where today a community-based programs 
for persons with physical disabilities does not exist.
    These programs would be community extensions of VA programs 
that are identified in collaboration with our partners at the 
Veterans Affairs. This legislation in the interest of this 
Subcommittee that is giving this proposal a hearing is 
testimony to the need of activities for veterans, programs that 
enable them to return to a full and active life. We have 
learned that these various sport rehabilitation programs, 
whether they be the USOCs, the Department of Veterans' Affairs 
or those of Disabled Sports USA, Disabled American Veterans 
(DAV), Paralyzed Veterans of America (PVA) make a positive 
difference in the lives of those who are being served.
    We are confident that the expertise that we have developed 
in Paralympic programs and the collaborations with the agencies 
mentioned, including the American Legion at the community 
level, can and will have a significant impact on veterans that 
are newly disabled re-entering their communities. Thank you.
    [The prepared statement of Mr. Huebner appears on p. 76.]
    Ms. Herseth Sandlin. Thank you, Mr. Huebner. If you do need 
to leave prior to the other two witnesses finishing their 
testimony, we understand. We may be submitting some questions 
for you as a follow up for the record. Thank you very much for 
being here and your testimony.
    Mr. Huebner. My pleasure. Thank you.
    Mr. Boozman. Can I just make a comment, Madam Chair?
    Ms. Herseth Sandlin. Yes, Mr. Boozman.
    Mr. Boozman. Now you left out Arkansas, John Register.
    Mr. Huebner. No. Yeah.
    [Laughter.]
    I have it here on my notes, sir, but Mr. Register who runs 
the Paralympic Military program is a proud alumni of the 
University of Arkansas----
    Mr. Boozman. Yes.
    Mr. Huebner [continuing]. And ran track and field there.
    Mr. Boozman. He ran track and field. Was a full time all 
American, I believe, in one of the great track programs in 
literally in the world. So we are very proud of him also.
    Mr. Huebner. Two-time Paralympian and a veteran, sir.
    Mr. Boozman. Well be sure and tell him that we said, 
``Hi,'' and we are very proud of your and his work.
    Mr. Huebner. Thank you, sir.
    Ms. Herseth Sandlin. Whenever small under-represented 
States, in our opinion, get that kind of recognition we want to 
make sure it is on the record.
    [Laughter.]
    Thank you again.
    Mr. Huebner. My pleasure.
    Ms. Herseth Sandlin. Mr. Lawrence, you are now recognized.

                 STATEMENT OF BRIAN E. LAWRENCE

    Mr. Lawrence. Thank you. Madam Chair, Ranking Member 
Boozman, and Members of the Subcommittee, on behalf of the 1.3 
million members to the Disabled American Veterans, I am pleased 
to present our views on the bills under consideration today. I 
will limit my remarks to the measures that address DAV 
resolutions.
    The DAV has a long standing resolution to provide a 
realistic increase in specially adapted housing grants. It also 
calls for automatic annual adjustments based on cost of living. 
Therefore, we hope that the proposals contained in H.R. 675 
will be favorably considered.
    H.R. 1315 is also a commendable bill that would provide 
adaptive housing grants to disabled members of the Armed Forces 
residing with a family member. The DAV supports this measure 
which addresses the needs of some of our most severely disabled 
veterans.
    The DAV also supports H.R. 1370 to establish a VA Office of 
National Veterans Sports Programs and Special Events. The VA 
along with the DAV and other veterans organizations host 
rehabilitative special event programs for veterans receiving 
healthcare from VA. These programs showcase the therapeutic 
value of sports, fitness, and recreation which are profoundly 
beneficial in helping veterans overcome the impact of severe 
disabilities.
    The DAV has a resolution calling for a separate line item 
appropriation to ensure the continuance of these worthy 
programs. So we are pleased with the intent of this legislation 
and we would recommend that include language to place the 
office under the Veterans Health Administration.
    Currently the programs are under the authority of VA Public 
Affairs Office and VHA is almost completely removed from the 
administrative decisions. Though Public Affairs certainly has a 
role to play, the ultimate purpose of the events is to provide 
therapy to severely disabled veterans. Since VHA is responsible 
for providing such care, it should be the designated authority 
for the programs.
    The DAV supports H.R. 1370 and hopes the Subcommittee will 
consider our suggestions.
    Finally, the DAV supports H.R. 2259 to ensure that members 
of the National Guard and Reserves can utilize the Benefits 
Delivery at Discharge program. BDD improves service for 
separating members by eliminating lengthy delays and claims 
decisions and redundant and an unnecessary physical 
examinations. Rating decisions adjudicated in the BDD program 
are generally more accurate and appealed less frequently than 
those processed via regular claims procedures.
    The DAV strongly recommends that BDD be expanded and made 
available to every person retiring or separating from active 
duty.
    Thank you for the opportunity to state our position on 
these bills and I will be happy to answer any questions.
    [The prepared statement Mr. Lawrence appears on p. 78.]
    Ms. Herseth Sandlin. Thank you for your testimony once 
again before the Subcommittee, Mr. Lawrence. Mr. Kuntz, you are 
now recognized for five minutes.

                     STATEMENT OF RAY KUNTZ

    Mr. Kuntz. Thank you, Madam Chairman Herseth Sandlin, 
Ranking Member Boozman, and Members of the Subcommittee. My 
name is Ray Kuntz, I am a newly installed Chairman of the 
American Trucking Associations (ATA) and the Chief Executive 
Officer of Watkins and Shepard Trucking, a Montana based 
company.
    I appreciate the opportunity to appear here before the 
Subcommittee on behalf of ATA and to voice our continued 
support on H.R. 1824 to expand the scope of programs of 
education that are eligible for accelerated benefits under the 
Montgomery GI Bill.
    The ATA commends Representative Michaud for re-introducing 
this important piece of legislation. The American Trucking 
Associations is a national trade association for the trucking 
industry and is a federation of affiliated State trucking 
associations conferences and organizations that include over 
38,000 motor carrier members representing every type and class 
of motor carrier in the country.
    When I appeared before this Subcommittee regarding this 
legislation two years ago, I stated that the long-haul 
truckload sector of the truck transportation industry annually 
experiences critical workforce challenges. This situation has 
not significantly changed since 2005, although shortages for 
this particular sector ebb and flow to market demands, the 
driver shortage for long-haul truckload industry still remains 
and is expected to worsen in years ahead.
    There are a number of factors involved in the driver 
shortage issue. Stringent government regulations, insurance 
carrier standards, and standards of carriers themselves that 
restrict availability of qualified drivers to the commercial 
vehicle industry. Through my own personal involvement with 
Watkins and Shepard's Truck Driving School, I can tell you that 
oftentimes truck driving schools reject more applicants than 
what they can enroll.
    Despite the driver shortage, in the last year my company's 
truck driving school received around 1,000 applications for 
truck driving jobs. From that total, we were able to train and 
hire 58, or in other words, about six percent of those people 
that applied for the jobs.
    An estimated 300,000 servicemen and women annually 
transition from Operation Enduring Freedom and Operation Iraqi 
Freedom to the civilian sector. Of this population, 
approximately 54,000 Army and 24,000 Marine personnel per year 
transition to civilian life with significant transportation and 
truck driving experience.
    Just like moving armies and fleets, transporting goods 
across the country requires monumental logistic efforts and 
excellent driving skills. For transitioning veterans with 
military occupational specialties into these areas, 
professional truck driving may be a very natural career path. 
Although many of these veterans have experienced operating 
large trucks in the Armed Forces, this experience does not 
readily translate to a civilian commercial drivers license. 
Additional education is usually needed to further train these 
individuals on basic truck operations, Federal Motor Carrier 
Safety Administration safety regulations, newer onboard 
technologies, and specific motor carrier State motor carrier 
testing skills and requirements.
    Unfortunately, the traditional Montgomery GI Bill Benefits 
for former military personnel are inefficient in funding 
truckdriver training programs. The ATA believes that the 
expansion of the VA Accelerated Benefits program would go a 
long way toward fixing this and could potentially add a 
significant number of qualified veterans to the demand driven 
labor pool of truckdrivers.
    However, according to the Department of Veterans Affairs, 
expanding the eligibility list include truckdriver training 
programs would be cost prohibited. I have reviewed the VA's 
list of approved education programs that are eligible for 
educated for accelerated benefits.
    ATA applauds the VA for encouraging veterans to enter high-
technology careers, however, many of the approved courses of 
study on this list do not accurately reflect today's market 
driven career demands and opportunities.
    This eligibility list was developed in 2002 by the Bureau 
of Labor Statistics and the National Science Foundation for the 
VA Department without direction from Congress. Further, many of 
the educational programs eligible for funding on this list are 
two to four year programs. Degree courses that can 
appropriately be funded through traditionally monthly 
Montgomery GI payment process.
    In closing, I would like to reiterate ATA's support for 
legislative intent of H.R. 1824. However, we believe that in 
order to move this bill forward, significant changes need to be 
made to the Montgomery GI Bill's Accelerated Benefits program.
    ATA recommends that VA's current list of educational 
programs eligible for these benefits be replaced or revised to 
reflect career training opportunities in high-growth industries 
rather than solely high-technology industries.
    Further, to better align the program with the original 
intent of providing affordable financing for high cost, short-
term educational training. The payment of accelerated benefits 
should be limited to educational opportunities lasting one year 
or less.
    ATA further or looks forward to working with Representative 
Michaud and the Subcommittee in ways to enhance H.R. 1824 to 
improve veterans access to educational opportunities in high-
growth well paying industries like trucking--the trucking 
industry.
    This concludes my remarks and I would be happy to answer 
questions. And also if I may, I feel like I should probably 
comment on the first bill that was testified on today if that 
would be okay with the Chairman?
    [The prepared statement of Mr. Kuntz appears on p. 79.]
    Ms. Herseth Sandlin. If we can move to questions first and 
then we will give you an opportunity at the end of questioning 
to do that. I am going to have to step out for a minute and 
would want to come back to hear your comments.
    Just a couple of quick questions before turning it over to 
the Ranking Member. Mr. Huebner, again, thank you for your 
testimony on H.R. 1370. I do have one quick question. As you 
know, the way the bill is written would authorize up to $2 
million annually. Do you feel that is sufficient to meet the 
needs of the Paralympics program or achieve the expansion that 
you envision and articulated here today?
    Mr. Huebner. That is a great question. And when we are 
looking at the Paralympic program we are looking at multiple 
organizations beyond that, including programs like DAV and PVA 
and other organizations.
    It is a great start, but no doubt we are investing a 
significant amount of private dollars that we are going to 
increase and continue to raise. An investment from this entity 
will help us expedite the amount of programs that we can 
deliver immediately. So an increase in that support would be 
very well received.
    Ms. Herseth Sandlin. Thank you. And then Mr. Chamrin, on 
H.R. 1315, the Adaptive Housing Bill that I have introduced. I 
know that the American Legion has a concern about the 
definition of, ``. . . line of duty.'' And would you be 
supportive of the definition, ``. . . while on active duty,'' 
or ``. . . on authorized leave,'' versus, ``. . . in the line 
of duty?''
    Mr. Chamrin. Madam Chairman, I would have to get back to 
you on that one.
    Ms. Herseth Sandlin. Okay. If you could get back to us on 
it. If we can work with you and Committee staff to get some 
clarification on the concern and what would diminish the 
concern with that actual language.
    Mr. Chamrin. Absolutely.
    Ms. Herseth Sandlin. Okay. Mr. Kuntz, you state that many 
applicants are rejected, what are the main problems? And what 
can we do to help these applicants?
    Mr. Kuntz. Well the main problems probably relate toward 
the regulations of our industry. You know, I say a lot of times 
that if we have four percent unemployment that probably three 
and a half percent won't pass a drug test. So that limits us to 
a very small portion, but you know we have aggressive drug 
testing, aggressive alcohol testing. We have to go back in 
their driver's records and if they have had a history of DUI's, 
accidents and it is those issues and their ability to correctly 
complete the courses.
    But it is primarily just the group of people that we get 
and the history they bring to the table with them that does not 
allow us to put them in a truck. Most insurance companies won't 
let someone in that has had like a DUI for six, seven years 
after that.
    So there is a lot of limiting factors. And when you get a 
lot of--when you see people come out of other careers where 
they have been unsuccessful sometime their habits take them 
down those roads.
    Ms. Herseth Sandlin. Recognizing the objective of Mr. 
Michaud's bill, which is to assist in expanding the pool of 
applicants for this high-need, high-growth industry, does the 
trucking industry or any of the driving training programs 
actively recruit or advertise to transportation experienced 
military personnel?
    Mr. Kuntz. Yeah. There are several trucking companies that 
are very actively advertising and we are reaching out in a 
variety of ways. But more importantly we recognize that the 
quality of the individual that we get out of the military tends 
to fit and be a little higher quality individual than we get 
out of normal life. It is just the background and the training 
and the discipline that they have to learn to be a soldier 
tends to fit real well in the qualifications to be a 
truckdriver.
    Ms. Herseth Sandlin. Thank you all for your responses and 
your testimony. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chairwoman. Mr. Huebner, 
again just one quick question. With the increased allocation, 
can you be a little bit more specific about some of the plans 
that you would have? You mentioned that you would expand 
programs, can you give an example perhaps of a specifically as 
to what you are doing?
    Mr. Huebner. Yes. The two most significant things that we 
are in the process of doing right now with dollars that we are 
raising, is the national training of how to implement 
community-based programs. And that is training community 
leaders, military, installation personnel, VA personnel on how 
to implement a community program.
    The second component is implementing those community 
programs and our stated goal to our Board of Directors is to 
develop 250 new programs by 2012 in 250 American cities. And as 
mentioned in my testimony, Colorado Springs, Colorado, which is 
home to, you know, a significant military presence has no 
program today for persons with physical disabilities. We will 
have one in that market by the end of this year.
    So those are the two most significant things that we are 
going to be doing. With increased dollars, we can expedite that 
plan. Right now we have a stage where we are going to launch 20 
new programs this year, 60 by the end of 2008. We can expedite 
that strategy with increased funds.
    Mr. Boozman. Very good. Thank you.
    Mr. Huebner. Does that answer your question?
    Mr. Boozman. Yes, sir. Very much so. And again the 
Chairwoman doesn't have any more questions. I don't have any 
more questions. If you feel like you need to go.
    Mr. Huebner. Thank you, sir.
    Mr. Boozman. Very good. Mr. Kuntz, I agree with you about 
the 2002 statistics and the fact that, things get in the world 
that we live in now things get outdated very quickly, but if 
you have 2002 when you are doing this, then you know you run 
the risk of your data being a little bit old even when you 
start. And then in the world that we live things doing very 
quickly.
    So I am supportive of what you are trying to get done and 
the trucking initiative. Why isn't the traditional method of 
payments provided under the Montgomery GI Bill appropriate for 
funding truck training school tuition? What we are doing now, 
why isn't it working?
    Mr. Kuntz. Well the traditional method, as you know, gives 
around $1,004 I believe a month for training and then a 
percentage of that sometimes for truck driving training. The 
average truck driving school is about four to six weeks. And 
when an applicant applies to a school for Montgomery GI 
funding, he can get usually one month of it. And in many cases 
they don't get that $1,000 for two or three months and then the 
veteran himself receives the check. And in some cases doesn't 
decide to reimburse it to the school.
    So as it is, it covers just a small percentage of the cost 
of the school. It doesn't get there in time to help the school 
cover the wages. And most of these are private schools just a 
small percentage of companies like ours actually have their own 
schools. Most companies rely on private schools and private 
schools need the money up front because they got to make 
payroll and tuition and fuel and gas. And so as a result of 
that, most of the private schools won't even consider GI 
funding as an alternative today. And again a lot of these folks 
get turned away.
    And it is really important to remember that not just are we 
getting people returning from the military today. A lot of the 
people come in and want truck driving jobs as vets have been 
out of the service for three, four, five and even 15 years. And 
unfortunately a lot of these men and women have failed at two 
or three careers and unfortunately bring a list of bad credit 
including bankruptcies and other forms of funding are also 
closed. And so they just get the door slammed in their face. 
And even though they recognize it, a truck driving career might 
allow them to make $45,000 a year, get health insurance, have a 
retirement. They don't have that option because they don't have 
the financing ability.
    Mr. Boozman. No, I agree. I think that is one of the things 
that we are finding is that many individuals as they start to 
re-train have been out for a while and under the best of 
circumstances, you know, financially are not in great shape. 
And then because of that it really does limit their options 
when they have to come up with anything up front.
    I think, you know, that your feeling is, is that the 
accelerated benefit should only apply to short-term things of a 
year or less. Why--what is your reasoning? Why don't you think 
that the two- to four-year program should be part of the----
    Mr. Kuntz. Well if you look at the list and you see things 
like mathematical studies, engineering, engineering studies, 
computer systems networking and I majored in a math background 
and I wasn't the brightest guy in the room and it took me four 
years, but the brightest guys in there also took four years.
    And so the existing GI funding adequately takes care of 
those people, but it is the people that if you look at the 
80,000 people that are coming out of the service this year that 
drove truck for a living in Iraq, I would venture to say that 
you may not find one of those guys that is going to go into 
mathematical training, but probably as many 50 percent of them 
may go into truck driving.
    And I believe that with everything that has happened over 
there, it is very, very important that we get these young men 
and women into meaningful jobs quickly. You know, I 
unfortunately have a very tragic story that I will share with 
you about that.
    My stepson, Chris, went into the Guards right out of high 
school. And the only job he ever had was flipping hamburgers 
and making hot dogs. And he went in the Guards as a gunner. And 
think of the tremendous responsibility that a gunner has in 
protecting everybody in his platoon. And several people in his 
platoon will tell you that he made some decisions that saved 
their lives.
    A year ago, November, he came back from the Guards and we 
thought he was doing fine, but he couldn't find a meaningful 
job. He went back to flipping hamburgers and hot dogs and as 
time went on you could see almost a depression set in. He 
started drinking. In September of last year, he quit going to 
Guards. And unfortunately, the Guards started sending out their 
little threatening letters. And in November he reached out to 
my son who tried to help him. In January he quit his job and 
bought his first gun. And in February shot himself.
    And I bring that up because it is so important that we find 
a way to get these people into meaningful jobs. And there 
aren't a whole lot of these guys that are going to be 
mathematicians. Chris was never going to be a mathematician, he 
was never going to be a computer scientist. He might of been a 
truckdriver or some other job that would allow short-term 
accelerated payment. But if you look through the list, the 
right jobs are not on the list.
    Mr. Boozman. No. Very good. And I understand your other--
your son also was in the military. Both your stepson and----
    Mr. Kuntz. Yeah.
    Mr. Boozman [continuing]. Your son. So----
    Mr. Kuntz. My oldest son is actually the other, you know, 
our family has experienced both sides of it. My oldest son was 
a West Point grad and ripped his ankle up very badly during 
Ranger Training. Went through a year of rehab stationed in 
Hawaii and got out under disability and very successfully went 
through----
    Mr. Boozman. Right.
    Mr. Kuntz [continuing]. Law school and used the GI Bill 
under the traditional method to get through law school. And 
today he is practicing law. And I believe that his being able 
to find a career quickly led to where he is today and dealt 
with the depression of getting tore up in the Army.
    Mr. Boozman. Right. Well we appreciate the sacrifice of 
your family very much. Can I ask one more question, Madam 
Chairman? I'm sorry.
    I would like the VSOs to comment regarding Mr. Israel's 
bill. I guess one of the concerns that we have is giving 
information on when servicemembers are deployed, when there is 
really not a whole lot of control over the data, perhaps who 
might eventually have access.
    The other thing is if their credit problems during 
deployment, the family could always provide that data in a 
different way. Do you all have any concerns along that line 
also or have you thought about that?
    Mr. Chamrin. We are very concerned with----
    Mr. Boozman. Having somebody that the husband is gone or?
    Mr. Chamrin. Right.
    Mr. Boozman. Is really what we are----
    Mr. Chamrin. We are always concerned with the overseas 
deployment and the following up with their finances especially 
identity theft. We want to make sure that they have full 
coverage. There is, I am fortunate to have a last name that is 
not very common, but there is Smith, there is Jones. How many 
Bob Jones, Mike Smiths are there out there?
    You know, to have the follow up and someone taking care of 
them is very important, especially in a situation where they 
are not able to have access to the Internet, or maybe a phone 
to call back to their spouse. A lot of young servicemembers, 
age 20 to 24 are single. Either they don't have a lot of 
support that are able to help them out.
    Mr. Lawrence. Mr. Boozman, the DAV doesn't have a position 
on that bill, but just a personal observation that occurred to 
me during the testimony that could potentially cause a problem.
    The trigger reaction or would notify the credit agencies 
was the receipt of combat pay. But if people are receiving--you 
can only--they cap out special pay. So if somebody was 
receiving dive pay and demolition pay and jump pay, they can't 
receive combat pay. So the people that were already maxed out 
on their special pay, there wouldn't be--they wouldn't receive 
combat pay, so those people would be left out. So it just seems 
like there has to be some other way of bringing this up. And I 
just wanted to share that with you.
    Mr. Boozman. Okay. Thank you. Thank you, Madam Chairwomen.
    Ms. Herseth Sandlin. Thank you. That would be true of Mr. 
Brady's bill as well. I mean separate from the concerns that I 
have about DoD's ability to manage this and make sure no one 
falls through the cracks, but also the concern that I think the 
Pentagon would have about essentially advertising to entities 
outside of the Pentagon; dates of deployment and everything 
else.
    Mr. Brady's bill also, he testified, would be for those in 
a combat zone. Would it be geared toward kind of the notation 
of when the servicemember gets his or her orders, I am fairly 
certain that he made mention of combat pay there, but your 
point is well taken, something we will certainly work through 
to make sure that there is an ability of the individual 
servicemember regardless of what the orders state or what type 
of pay classification is the trigger that we avoid, again, 
people falling through the cracks and the protections that we 
are trying to offer.
    I thank you all again for your testimony, for your 
dedication and commitment to our Nation's veterans.
    Mr. Kuntz, thank you in particular for sharing the tragic 
experience of your family with us to help shed light on the 
importance of the flexibility of the benefits that we are 
offering so that people can transition more effectively into 
meaningful jobs or access to different benefits.
    We have asked Mr. Wilson with the Education Service who 
will be testifying in the next panel to develop a list for us 
based on the current list of programs available for accelerated 
payments to see just how many people are actually signing up 
for those programs and comparing that to a different set of 
programs that the President has set forth in a different 
context to see if we can make some adjustments whether it is 
specifically to commercial drivers license programs or to other 
programs as well that will better meet the needs of the young 
people returning home.
    Thank you all. I would now like to invite our final panel 
to the witness table. We appreciate your patience and welcome 
back to the Subcommittee.
    We have Mr. Keith Pedigo, Director of Loan Guaranty Service 
for the U.S. Department of Veterans Affairs; Mr. Keith Wilson, 
Director of Education Service for the U.S. Department of 
Veterans Affairs; and Mr. Dean Gallin, Deputy Assistant General 
Counsel for the U.S. Department of Veterans Affairs.
    Your written statement will be entered into the record. 
Again welcome back to the Subcommittee. Mr. Pedigo you are 
recognized for five minutes.
    Could you turn your microphone on, or it is not close 
enough.

 STATEMENT OF KEITH PEDIGO, DIRECTOR OF LOAN GUARANTY SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
AFFAIRS; ACCOMPANIED BY KEITH M. WILSON, DIRECTOR OF EDUCATION 
 SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; AND DEAN GALLIN, DEPUTY ASSISTANT GENERAL 
COUNSEL, OFFICE OF GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Pedigo. Madam Chairwoman and Members of the 
Subcommittee, I am pleased to be here today to discuss 13 bills 
that would affect a variety of VA benefit programs. Joining me 
this afternoon is Mr. Keith Wilson, Director of VA's Education 
Service and Mr. Dean Gallin from our Office of General Counsel.
    Madam Chairwoman, we do not yet have cleared positions on 
three of the bills, H.R. 1824, 1370, and 2259, but we will 
provide our comments for the record as soon as they are 
available.
    [The VA views for H.R. 1824, and H.R. 2259, were provided 
in an October 26, 2007, letter from Acting Secretary Gordon H. 
Mansfield, which appears on p. 95. The VA views for H.R. 1370 
were provided in a March 31, 2008, letter from Secretary James 
B. Peake, which appears on p. 98.]
    Madam Chairwoman, H.R. 112 entitled the ``GI Advanced 
Education in Science and Technology Act,'' would amend chapter 
30 of title 38 by adding a new sub-chapter containing 
provisions through which the Secretary would, subject to the 
availability of appropriations, be required to pay monthly 
stipends to eligible doctoral candidates who are pursuing full-
time doctoral degrees in sciences of engineering, mathematics, 
and other technology disciplines.
    The bill would limit the number of stipend payments to a 
total of 60 months. The amount of the stipend would be $1,200 
per month. Madam Chairwoman, VA does not support enactment of 
H.R. 112 for several reasons.
    First, this bill represents a departure from the existing 
chapter 30 Montgomery GI Bill structure, which provides 
equivalent benefit opportunities to veterans who establish 
entitlement under Sections 3011, 3012 and certain other 
provisions of that Chapter.
    This measure would restrict eligibility for the proposed 
doctoral stipend to only those veterans eligible under Section 
3011. In the absence of a clearly supportable rationale for 
this eligibility restriction, we cannot support altering the 
existing chapter 30 benefit structure by singling out for 
special treatment one group of entitled veterans from others 
who have established the same basic program entitlement.
    In addition, we have not noted any savings to offset the 
estimated costs of this bill. We estimate the increase 
Readjustment Benefit cost would be $25.9 million over a 10-year 
period. General Operating Expense (GOE) costs were estimated at 
$3 million for computer system upgrades.
    Next I will discuss H.R. 2579. Currently VA is authorized 
to enter into contracts with State and local agencies known as 
State Approving Agencies or SAAs to perform services necessary 
to ascertain the qualifications of educational institutions 
furnishing courses to veterans and other individuals receiving 
VA educational assistance. The total amount the VA may pay in 
any fiscal year may not exceed $13 million and must be paid 
solely out of amounts available for payment of readjustment 
benefits.
    H.R. 2579 would require that VA make these payments out of 
the readjustment benefits account and the general operating 
expense account rather than solely from the readjustment 
benefits account. The total amount that could be available from 
the readjustment benefits account would be $13 million. VA does 
not support this legislation because using two funding sources 
for this program instead of one dedicated source would make the 
program more complicated for SSAs and more difficult to 
administer.
    H.R. 675, entitled the ``Disabled Veterans Adaptive Housing 
Act,'' would increase the maximum dollar amounts available 
under the Specially Adapted Housing program, as well as provide 
for additional increases to the grants by tying the maximum 
dollar amounts to an annual cost of construction index. The VA 
supports the overall objective of increasing SAH grants, but 
has two concerns.
    First, the existing statutory limit on grants made pursuant 
to Section 2101(a) is an aggregate that includes temporary 
residences grants, an authority which is due to expire in 2011. 
An ambiguity may arise at the time of expiration with regard to 
the amount of assistance available under Section 2101(a). To 
avoid this potential situation, VA recommends statutory 
revisions to eliminate this ambiguity.
    Second, in light of cost associated with grant amounts, we 
would recommend enactment of legislation offsetting the cost 
associated with grant increases. Section three of the bill 
would require that VA increase SAH assistance caps except for 
temporary residence grants every fiscal year starting in 
October 2007. Such increases would be based on changes and a 
residential home cost-of-construction index. VA opposes 
indexing programs such as Specially Adapted Housing Grants. 
Instead, we would prefer to provide adjustments on an ad hoc 
basis.
    VA estimates the enactment of Sections two and three of 
this bill would result in a benefit cost of $68.6 million in 
the first year and $194.2 million over ten years.
    H.R. 1315 would make Specially Adapted Housing Assistance 
available to disabled, active-duty servicemembers temporarily 
residing in homes owned by their family. VA supports enactment 
of this provision. However, VA notes that as drafted, the 
provision continues to require specific legislation in order to 
make active-duty members of Armed Forces eligible any time 
newly enacted assistance may become available.
    Insofar as these disabled active-duty servicemembers are 
already eligible for SAH benefits, there would be no additional 
cost.
    H.R. 513, 1598, and 1750, would amend the Servicemembers 
Civil Relief Act by expanding and increasing protections 
afforded servicemembers. Because these bills would not affect 
the provision of VA benefits, VA defers to the Department of 
Defense concerning this legislation.
    H.R. 1240 would require the Secretary to establish and 
carry out a scholarship program to provide financial assistance 
to individuals enrolled in education programs leading to a 
degree or certificate in visual impairment or orientation and 
mobility.
    In exchange for scholarship assistance, the individual must 
enter into a written agreement to serve as a full-time VA 
employee for a period of three years. The maximum amount of 
financial assistance that could be provided to a participant 
who is a full-time student would be limited to $15,000 per 
academic year and up to a maximum of $45,000.
    VA supports this scholarship program, but believes it 
should be authorized under chapter 76 of title 38 U.S. Code not 
a new chapter 80. We estimate the total cost of H.R. 1240 to be 
$349,233 in fiscal year 2008 and $3.7 million over a 10-year 
period.
    H.R. 1632 would add informational requirements to the 
annual report that the Secretary of Labor must submit to 
Congress concerning employers' compliance with laws governing 
the re-employment rights of members of the Armed Forces.
    Because these bills would not affect the provision of VA 
benefits or require any reporting by VA, we defer to the 
Department of Labor concerning this legislation.
    H.R. 2475 would authorize VA to guarantee home equity 
conversion mortgages or HECMs made to elderly veteran 
homeowners. We cannot support this bill for several reasons.
    First, the original intent of the VA loan program was to 
provide home ownership opportunities for veterans and active-
duty servicemembers who forgo such an opportunity in order to 
serve in the Nation's military.
    While the program has been modified by legislation over its 
63 year history, all program changes have been designed to 
enable veterans to purchase and retain homes. In contrast, a 
HECM program focuses on the ability to extract equity prior to 
disposal of the property. In addition, the Federal Housing 
Administration, or FHA, currently has a very active and 
successful HECM program. We fail to see what a VA HECM program 
would have to offer that would not be a duplication of this 
existing Federal program.
    Further, the FHA fully ensures lenders against losses, 
whereas, by statute, VA is only able to guarantee the lender 
against a percentage of its potential loss. We do not believe 
this proposed VA HECM program would be as attractive to the 
lending community as the FHA program.
    Finally, we note that the text of the bill contains certain 
inconsistencies and ambiguities that would require 
clarification.
    Madam Chairwoman, this concludes my statement. Mr. Wilson 
and Mr. Gallin and I would be pleased to respond to any 
questions that you and members of the Subcommittee may have.
    [The prepared statement Mr. Pedigo appears on p. 83.]
    Ms. Herseth Sandlin. We thank you for your testimony. I 
understand that we will just move directly to questions as Mr. 
Wilson and Mr. Gallin are here to provide any answers to those 
questions along with you, Mr. Pedigo.
    Mr. Boozman, did you have questions or comments for the 
panel?
    Mr. Boozman. Yes, ma'am. Thank you. On H.R. 2579 on State 
Approving Agencies, what we are trying to do is not require you 
to use both those funds, but just to give you some flexibility 
so that if you have the $13 million and that is not adequate, 
then you can have some flexibility to do something differently 
and receive some more funding.
    I guess my question is if you only have $13 million to work 
with, what are you going to do next year? What is that program 
going to look like? You have a couple different choices. You 
can cut back over all the States, reduce their funding, or you 
can get the larger States to continue and cut back, thus making 
the smaller States disappear and then you can suck that up 
within the deal.
    So, again my concern is, is that through whatever 
pressures, budgetary or whatever, that we are going to get 
ourselves in the situation where we have problems along that 
line. We have all of these subs coming back, and we have to get 
this stuff done. And again that is the purpose, like I said not 
requiring you to do that, but giving you the flexibility that 
if you need that money, that you could do that. It sounds like 
it would take some effort on your part as far as fiddling with 
the accounts.
    But tell me what, if you are just going to have your $13 
million, what is the program going to look like? What are you 
going to do to make that work?
    Mr. Wilson. If we would go down to $13 million we have 
developed a couple different contingencies. We can look at it 
basically from the perspectives that you talked about. We can 
look at spreading the pain evenly among all the SAAs. We can 
also look at having the larger SAAs perhaps take a larger share 
of the burden with the idea of trying to keep some SAA presence 
in as many States as possible.
    We have got contingencies both ways. But flexibility, I----
    Mr. Boozman. But the questions isn't if. I mean you are 
going to down to $13 million. So go ahead.
    Mr. Wilson. Yeah. Flexibility I believe is the key issue. 
And creating a mechanism that will potentially require us to 
fund the existing dollar amount out of two different pots will 
be very restrictive.
    We cannot take both pools of money and administer them 
under one contract. We would, in essence, be in a situation 
where we would have some State contracts out of the $13 
million, some out of any other potential money. So if we were 
in that type of situation, the impact of having less than the 
current $19 million, say the $13 million, and potentially 
making other offices or other States wholly out of General 
Operating Expenses would impact just those States that would be 
funded out of the GOE.
    Mr. Boozman. So I guess what is the answer? I mean we want 
to help you. You said that mechanism isn't going to work. I am 
very concerned that we are going to get ourselves into a bind, 
because I would really like know very quickly what the plan is. 
I mean we are getting to where we need to address that.
    Mr. Wilson. Yes.
    Mr. Boozman. So I would like to know what is the plan. 
Certainly at that point if we don't feel like the plan is 
workable, or you, as you think it through, you don't think it 
is workable, then we need to do something different. But I 
guess what I want to know is if you are opposed to this, then 
what are you for? What do you want us to do?
    Mr. Wilson. We are in support of the funding remaining 
within the Readjustment Benefits (RB) account, preferably at 
the level it is now. But it, we believe, is important that the 
funding be in the RB account as it is now.
    Concerning the plan that we have, as I mentioned, we do 
have contingencies for how we would handle this. We are 
required by statute to pick up work if a State chooses not to 
contract with us. We will do that. We will also have issues 
that may not be addressed, for instance, part of the increase 
in funding for the SAAs gave them an added role in outreach. It 
is possible that that additional outreach will be reduced or 
not occur.
    We cannot develop definite contingency plans because 
contracting with VA is something that would be up to the 
individual States. We cannot tell what States would or would 
not contract with us depending on the amount of money that we 
can offer them.
    So concerning specifics, we will have to address the 
specific States when we find out that information.
    Mr. Boozman. And so when would all that go into effect?
    Mr. Wilson. October 1.
    Mr. Boozman. Okay. So you know we are getting there.
    Mr. Wilson. Yes, we are.
    Mr. Boozman [continuing]. Madam Chairwoman I would hope 
that working together that we can kind of figure out what the 
plan is and then go from there. But as you know, with the 
budgetary constraints it makes it difficult. I want to help 
you, but again I would like to know what you are planning on 
doing. If you pick up the slack, with personnel, what do you 
do. I know that everybody is working hard now. What are you 
going to give up when you pick up the slack? See what I am 
saying? That is the other side.
    Mr. Wilson. Yes.
    Mr. Boozman. So, again, I would very much like us to be 
able to address that as soon as we can.
    Mr. Wilson. Absolutely. I share the same concerns that you 
have. I would like to provide more specificity concerning what 
our contingency plans would be. The decisions that we would 
make concerning potentially what work would have to be shifted 
and what work would be not be done, would be dependent on what 
specific States were impacted.
    Mr. Boozman. Okay. And the other thing was, again working 
with our staffs', I believe this is something we all want to 
get done. If you have a suggestion that where we can finagle 
around that would make it easier than what we are trying to do 
to help you, and we really are trying to help you, then that 
would be something that we would like to know so that we can 
move this thing forward. Thank you, Madam Chairwoman.
    Ms. Herseth Sandlin. Well thank you, Mr. Boozman. It is 
clear that we both share this as a priority. I appreciate the 
Ranking Member introducing the bill to try to provide you with 
the tools to meet what we think are clear needs. The testimony 
that we took earlier this year as it relates to the role of the 
SAAs--we are going to look at other alternatives too, but we 
are just trying to be helpful here in recognizing where the 
SAAs are serving an important role, and have enhanced that role 
over time, and now unfortunately we are dealing with a 
statutory issue that needs to be addressed. We would appreciate 
ideas and input that you can provide working with us and 
members of our staff.
    I appreciate that you have a contingency plan in place, but 
with the variables and the uncertainties that poses for the 
States at this point, we may just need to discuss how we can 
best go about sharing as much information as possible so that 
everyone can plan accordingly at least for Fiscal Year 2008 as 
we try to make changes that will help us further down the line.
    Mr. Pedigo, I appreciate the comments that you provided 
about the Specially Adaptive Housing bills that I have 
introduced. Recognizing the need for some specific legislation 
necessary to address active-duty servicemembers as well as the 
recommendations that you made with regard to the expiration 
date of the temporary assistance and needing to make some 
revisions to eliminate ambiguity. So we will take those 
recommendations and give them further consideration.
    Let me move now to the issue of the Home Equity Conversion 
Mortgage bill that was introduced by Mr. Michaud and Ms. Brown-
Waite. Do you think that the Federal Housing Administration 
program is meeting the home equity conversion mortgage needs of 
veterans today?
    Mr. Pedigo. As far as we can determine, it is. And I say 
that based not on any type of formal studies that we have done 
to make that determination, but based on the fact that we do 
not receive communications from veterans indicating that they 
wish that VA had a home equity conversion mortgage or 
communications indicating that they cannot get a HECM.
    And so our conclusion is that they are availing themselves 
of the FHA HECM program, which has 95 percent of the market 
share for HECMs in the country.
    Ms. Herseth Sandlin. I appreciate what you are saying 
there, but I think Ms. Brown-Waite's comments earlier with 
regard to the meetings that she has had, to try to help share 
information with seniors about different financial tools 
available to them. This is the kind of outreach that for 
veterans who are already enrolled and getting benefits and 
accessing different services from the VA might actually be more 
likely to get helpful information about those financial tools 
available to them if it were offered the way it has been 
introduced by Mr. Michaud and Ms. Brown-Waite separate from the 
outreach that may or may not available through FHA.
    I appreciate what you are saying. I do think there are some 
opportunities here for us, however, that may not have been 
identified yet. And as you mention, it is not--your comments 
are not made from a formal survey that has been done, but we 
know that there is the 95 percent market share, but you know 
are there some folks that we may be able to assist within the 
veterans' community by offering a separate program.
    You did state in your testimony that there were 
inconsistencies and ambiguities in H.R. 2475 that would require 
clarification. Could you elaborate on that statement and tell 
us what you think the inconsistencies and ambiguities might be?
    Mr. Pedigo. Well there were several in there. For example, 
it was not clear in the draft bill how the funding fee would 
come into play. As you know we charge a funding fee for 
veterans who are using the home loan program. And the language 
in the draft was not clear as to whether we would be expected 
to charge a funding fee. And of course that would play a big 
part in determining whether, if we got such a program, it would 
be a negative subsidy or whether it would require appropriated 
funds.
    So that was the biggest issue. There were some other issues 
in there, for example, counseling. There is a requirement in 
there that VA make sure that these veterans were able to avail 
themselves of counseling and it wasn't clear whether VA was 
going to be expected to provide that counseling or whether the 
veterans would use the existing counseling infrastructure that 
exist in the Department of Housing and Urban Development.
    And also to what extent the veteran would be required to 
pay for that counseling. Those were just a couple of the items 
that were not clear to us. There were a number of others and we 
would be willing to provide those for the record.
    [The following was subsequently received from Mr. Pedigo:]

                               H.R. 2475
        The Veteran Home Equity Conversion Mortgage Act of 2007
          H.R. 2475 authorizes the Secretary to guarantee Home Equity 
        Conversion Mortgages (HECMs) for elderly veteran homeowners. VA 
        is opposed to this bill for the reasons described in the 
        testimony delivered, on June 21, 2007, before the Subcommittee 
        on Economic Opportunity, Committee on Veterans' Affairs, United 
        States House of Representatives. From a more technical 
        viewpoint, we note that the text of the bill contains 
        inconsistencies and ambiguities that would require additional 
        legislative direction. The following text provides a detailed 
        list of our technical comments.

        Section 1

          Please note that the title is misquoted as ``the Veteran Home 
        Equity Conversation Mortgage Act of 2007.'' Instead, the title 
        should read ``the Veteran Home Equity Conversion Mortgage Act 
        of 2007.''

        Section 2

          a. Loan Guarantee

            <bullet>  We are concerned with the use of the term 
        ``covered mortgagee,'' especially since there is no definition 
        provided. The use of the term makes the legislation sound more 
        relevant to an insurance program (like HUD's) than to a 
        guaranty program.
            <bullet>  The fact that ``the Secretary may guarantee any 
        home equity conversion mortgage . . .'' (emphasis added) lends 
        a permissive tone to the legislation, which is contrary to the 
        existing statutes for VA guaranteed loans. Our existing 
        statutes are mandatory in nature.

          b. Standards for Commitment

            <bullet>  Under the first sentence in this subsection, 
        Congress requires the Secretary to establish standards for 
        guaranteeing HECMs. However, due to the sentence structure, it 
        is unclear at what point Congress expects VA to establish such 
        standards (e.g., `before the date on which the mortgage is 
        executed' or prior to the Secretary `committing to 
        guarantee.'). We would appreciate a revision to this sentence.
            <bullet>  As written, the bill requires the VA Secretary to 
        determine that the HECM ``is likely to improve the financial 
        situation or otherwise meet the special needs of the elderly 
        veteran homeowner.'' We believe this language is too vague for 
        VA to conduct such assessments. Furthermore, VA is not in the 
        position to decide whether a HECM is an appropriate choice for 
        improving the veteran's financial situation. The language from 
        HUD's HECM statute seems more appropriate, as it requires a 
        determination that the mortgages ``have promise for improving 
        the financial situation'' of the borrower.
            <bullet>  We are unclear about what ``accepted'' means in 
        subparagraph (3), and we would prefer to use HUD's language, 
        which requires mortgages to ``have a potential for acceptance 
        in the mortgage market'' (emphasis added).

          c. Mortgage Eligibility

            <bullet>  Subsection (c)(1) outlines the types of allowable 
        properties that can secure a HECM. The language used in this 
        reference appears to conflict with the definitions of 
        ``mortgage'' and ``first mortgage'' in subsections (1)(2) and 
        (1)(3), respectively.
            <bullet>  Subsection (c)(2)(A) requires that the elderly 
        veteran homeowner discuss the use of a HECM with a loan 
        counselor. Similarly, subsections (c)(2)(B) and (c)(2)(C) 
        require that the elderly veteran homeowner receive certain 
        disclosures regarding a HECM. We believe the bill is vague 
        about whether VA would be required to procure outside fee 
        services to carry out certain counseling and disclosure 
        requirements; for example, in (c)(2)(B), who will be providing 
        the disclosure to the veteran? Furthermore, it is also unclear 
        whether the veteran or VA is responsible for paying for the 
        costs of such services.
            <bullet>  There is no provision for VA's non-liability for 
        the errors and omissions of third-party counselors.
            <bullet>  Subsection (c)(2)(A)(3) should read be reordered 
        to, ``prepayment . . . may be made without penalty at any time 
        during the period of the mortgage.''
            <bullet>  Subsection (c)(7) mentions foreclosure 
        proceedings. Is it Congress' intent for HECM default/
        foreclosure proceedings to be reconciled with Sec. 3732, or are 
        such proceedings to be notwithstanding Sec. 3732? Similarly, 
        this subsection mentions a number of items that are outlined in 
        other areas of our code. To avoid any statutory conflicts, a 
        careful and thorough analysis of chapter 37 is necessary.
            <bullet>  Subsection (c)(8) contains a typo and should read 
        ``according to one of the following.'' Also, we are unclear as 
        to the definition of ``tenure'' in (D) and (E).
            <bullet>  Subsection (c)(10) requires the Secretary to 
        ``ensure that the homeowner does not fund any unnecessary or 
        excessive costs for obtaining the mortgage, including any costs 
        of estate planning, financial advice or other related 
        services.'' As a housing program, VA is not in the position to 
        limit the costs of such advice to borrowers. Furthermore, as 
        drafted, it is unclear whether costs of estate planning and 
        financial advice would be considered acceptable costs to the 
        veteran (see subsection (c)(10) versus subsection (e)).

          d. Information Provided to the Homeowner

            <bullet>  As previously stated, we believe the bill is 
        vague about whether VA would be required to procure outside fee 
        services to carry out certain counseling and disclosure 
        requirements and whether the veteran or VA is responsible for 
        paying for the costs of such services.
            <bullet>  This subsection states ``the Secretary shall 
        provide or arrange, before executing on a home equity 
        conversion mortgage under this section. . . .'' Under VA's 
        existing programs, lenders execute the mortgages. Consequently, 
        we are unclear about Congress' intent regarding VA's 
        responsibilities for ``executing'' a HECM in subsection (e)(1).
            <bullet>  Subparagraph (e)(2) contains a typo and should 
        read, ``. . . all of the information specified in such 
        paragraphs.''

          e. Limitation of Amount of Benefit

            <bullet>  Given that FHA insures lenders against all 
        losses, whereas VA is only able to guaranty the lender against 
        a percentage of its potential loss, we do not see how a new VA 
        HECM program would be as attractive to the lending community as 
        the existing FHA program has proven to be.
            <bullet>  In the case where the covered mortgagee becomes 
        VA, we assume that Congress intends to provide the same 
        protection to the eligible veteran homeowner. If so, there 
        appears to be a technical inconsistency between our requirement 
        to continue making payments to the elderly veteran homeowner 
        and subsection (f), Limitation of amount of benefit, which 
        restricts the guarantee of a mortgage under this section to the 
        maximum guarantee amount under Section 3703 of this title.

          f. Additional Authority

            <bullet>  Under subsection (g)(1)(A), the bill prescribes 
        that VA provide the veteran with funds to which they are 
        entitled under a HECM if a lender/servicer defaults. Given that 
        HECMs are secured by Ginnie Mae, we assume that Ginnie Mae is 
        responsible for continuing to pay the veteran the necessary 
        payments and that VA would only be responsible for the 
        administration of such payments.
            <bullet>  Subsection (g)(1)(B) should read, ``provided 
        under subparagraph (A) to a homeowner.''
            <bullet>  Subparagraph (g)(1)(C) makes it appear as if VA 
        is supposed to cover the entire loss, like HUD does. As 
        previously discussed, we believe this presents an 
        inconsistency.
            <bullet>  Subparagraph (g)(2)(A) should be reordered to 
        read, ``disbursing funds from the Veterans Housing Benefit 
        program Fund to the elderly veteran homeowner or covered 
        mortgagee.''
            <bullet>  Subsection (g)(2)(C) gives the Secretary the 
        authority to ``require a subordinate mortgage from the 
        homeowner at any time in order to secure repayments of any 
        funds previously advanced or to be advanced to the homeowner.'' 
        We are unclear regarding the circumstances under which this 
        would occur.
            <bullet>  Under subsection (g)(2), the bill allows VA to 
        accept an assignment of the mortgage for reasons other than 
        homeowner default. We assume that Congress is providing this 
        authority to allow for VA to continue providing the borrower 
        with payments, similar to HUD's program, once the lender has 
        reached the maximum claim amount. As previously described, 
        there appears to be a technical inconsistency between our 
        requirement to continue making payments to the elderly veteran 
        homeowner and subsection (f), Limitation of amount of benefit, 
        which restricts the guarantee of a mortgage under this section 
        to the maximum guarantee amount under Section 3703 of this 
        title.
            <bullet>  We are unclear as to what subsection (g)(2)(D) 
        requires.
            <bullet>  Subsection (g)(2)(E) allows VA to impose 
        ``premium charges.'' We assume that Congress intended VA to 
        assess a funding fee versus an upfront and annual premium (as 
        charged by HUD). If Congress intended a funding fee, does 
        Congress plan to establish a new rate or apply one of our 
        existing rates?

          g. Authority to Guarantee Mortgages for Refinancing

            <bullet>  A loan fee is discussed here, but is it the same 
        as or additional to premium charges previously discussed? The 
        bill prescribes that VA will charge a loan fee ``as determined 
        by the Secretary'' under Section 3729. However, the Secretary 
        does not have the discretion to determine any other funding 
        fee.
            <bullet>  Is Congress' intent in (i)(3) to consider HECMs 
        functionally equivalent to IRRRLs or Cash-Out Refinances? The 
        entitlement amount differs for each, which would impact the 
        maximum principal loan amount on HECMs in such cases.

          h. Origination Fee

            <bullet>  We are unclear about what exactly Congress 
        intended in terms of this fee.
            <bullet>  We are unclear as to the definition of 
        ``correspondent mortgagee.''
            <bullet>  We are unclear whether ``approved by the 
        Secretary'' modifies the fees or the correspondent mortgagees.

          i. Fee Waiver

            <bullet>  Is it Congress' intent to limit the fee waiver to 
        those cases where ALL funds (versus some funds) provided to a 
        borrower through a HECM are used to fund the cost of a 
        qualified long-term care insurance contract?
            <bullet>  Given the bill's structure, it appears that 
        subsection (k)(2), financing mortgage obligations, only is 
        allowed for situations where the HECM is being obtained to fund 
        the cost of qualified long-term care. We believe the ability to 
        finance mortgage obligations should apply to ALL veterans using 
        a HECM.

          j. Definitions

            <bullet>  If ``elderly veteran homeowner'' is the defined 
        term, we believe Congress should use that term consistently or 
        include a preferred abbreviation in the definition.
            <bullet>  We believe that the use of ``real estate'' needs 
        to be more clearly defined since it can include many forms of 
        property.

        Some overarching considerations:

            <bullet>  Chapter 37 of title 38, United States Code, 
        includes provisions for entitlement, default, and property 
        management, among others, that would not mesh with the 
        provisions of this proposal. To avoid any statutory conflicts, 
        a more careful and thorough analysis of chapter 37 is 
        necessary.
            <bullet>  Any procurement needs, such as procuring 
        counseling services, to expressly and specifically come out of 
        the Housing Benefit Program Fund needs to be articulated in the 
        bill.
            <bullet>  The legislation needs more specific information 
        about HECM lien priority. Also, the difference between 
        obligations and mortgages is not sufficiently clear.
            <bullet>  Given the novelty of this program, it would be 
        helpful to have an expanded definitions section. In addition, 
        we recommend placing this subsection at the beginning of the 
        legislation.
            <bullet>  HUD's statute contains the following language: 
        ``The Secretary may enter into such contracts and agreements 
        with Federal, State, and local agencies, public and private 
        entities, and such other persons as the Secretary determines to 
        be necessary or desirable to carry out the purposes of this 
        section.'' We would like to have similar language in this bill 
        with the Department of Housing and Urban Development named so 
        that we can leverage their expertise in the development of such 
        a program.

    Ms. Herseth Sandlin. If you could. It would be helpful as 
we give further consideration to the program that is proposed 
in that bill. So that if indeed we choose to move forward we 
have additional perspective and your insight as to based on 
other programs that you administer, if we do choose to 
authorize it that we make it as good as possible based on past 
experience----
    Mr. Pedigo. Certainly.
    Ms. Herseth Sandlin. I don't think I have any further 
questions. Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chairwoman. The only thing I 
would say, I have the testimony from the ATA, the American 
Trucking Associations, again talking about the need for people 
in that field. And I think the statement that he made was a 
fair one. You know we have many people in the infantry now, 
this war is being fought by the infantry that are coming back 
and you know they are not going to be necessarily scientist. 
You know they are not necessarily going to be math teachers or 
whatever.
    So I know that there is a difficulty now in the law in 
trying to fast forward some payments, to some of those fields 
in the high-tech field. But could you all think about this 
problem and what VA feels about again maybe going along with 
that direction perhaps in a little different direction of 
meeting the needs of the average guy that was the sense of the 
2002 law itself. We have a completely different need. The story 
he told about this stepson. We have a lot of people that are in 
the field, they have got tremendous amount of responsibility 
that it is really important that we get them back as soon as we 
can, get them gainfully employed.
    I think also the statement he made about the fact that many 
of these individuals even at their best, because of the amount 
of money that they are receiving have problems. The fact that 
there is some time elapse, they don't have a lot of savings, 
that it is very difficult.
    But I really would like some comments in the future about 
updating the list even if we stay high tech, the world is a 
different place now than it was in 2002.
    And then, also, if you would have a feeling again in us 
looking at re-writing that language to make our sphere a larger 
deal, let us know. We got 30 percent that don't use the GI Bill 
and I suspect part of it is that. Just the fact that some of 
the things that they have an interest for would be along that 
line, but they really can't see a way out.
    So that is just kind of for what it is worth, Madam 
Chairwoman. The other thing, could we have an update briefing 
on ``The Expert Education System'' (TEES) program and a staff 
briefing on last year's education call center and what you 
might be doing in the future with these projects. Would that be 
something that we could ask you for, with your permission?
    Ms. Herseth Sandlin. Most certainly. I think that is a very 
good idea to get that information on a more regular basis with 
the briefings between members of our Committee staff and with 
all of you.
    Mr. Boozman. Thank you.
    Mr. Pedigo. Yes.
    Mr. Boozman. And again, thank you all for your service.
    Mr. Pedigo. If I could----
    Ms. Herseth Sandlin. Please.
    Mr. Pedigo [continuing]. If I could address that just very 
briefly. I agree with the direction the Committee is trying to 
go with accelerated pay. I have had discussions with the staff 
of the Subcommittee, hope to have a lot more as we define 
things.
    There is a lot, I believe that we have in common with our 
desires for accelerated pay much more than I believe that we 
have opposing views on this. So I believe that there is 
something that we can work out. We do believe strongly that we 
can expand the Accelerated Pay program in a manner that will 
serve a greater veteran population and in a manner that 
budgetary wise everybody can live with it.
    And if I could address the call center just very quickly 
and our performance, because this is something I am very proud 
of. We have had a lot of success improving our performance over 
this last year. We started this fiscal year, October 1st, 
processing original claims in about 46 days, we are at 24 days 
right now. And processing supplemental claims in 18 days and we 
are in 10 days right now.
    So we are very pleased. We are obviously happy to provide 
more details, but I did want to make sure that that was made 
available.
    Ms. Herseth Sandlin. Well we appreciate that update and we 
would like to see the additional details, but that is certainly 
a trend that any Subcommittee likes to hear as it relates to 
the progress being made and the processing of the claims.
    And Mr. Wilson, if you could also, I know you had testified 
even previously about the desire to open up to a greater number 
of programs and to a greater number of veterans the accelerated 
pay benefit. I think last time we did ask if we could see going 
back I believe to 2000 maybe, or 2001 the applicants and 
participants in the list of programs currently available so you 
can match that with some other areas that the Administration 
has identified for high-needs areas.
    [The following was subsequently received from Mr. Pedigo:]


----------------------------------------------------------------------------------------------------------------
                                  Accelerated Pay Over the Life of the Program
-----------------------------------------------------------------------------------------------------------------
                                 Claims *     # Payments      Denials     Total Payments       Average Payment
----------------------------------------------------------------------------------------------------------------
Dec-02                                 33              11          22             $33,728                $3,066
----------------------------------------------------------------------------------------------------------------
Mar-03                                170             110          60            $420,734                $3,825
----------------------------------------------------------------------------------------------------------------
Jun-03                                278             224          54          $1,002,518                $4,476
----------------------------------------------------------------------------------------------------------------
Sep-03                                319             277          42          $1,361,259                $4,914
----------------------------------------------------------------------------------------------------------------
Dec-03                                359             320          39          $1,706,292                $5,332
----------------------------------------------------------------------------------------------------------------
Mar-04                                262             245          17          $1,521,458                $6,210
----------------------------------------------------------------------------------------------------------------
Jun-04                                303             286          17          $1,782,844                $6,234
----------------------------------------------------------------------------------------------------------------
Sep-04                                307             268          39          $1,610,469                $6,009
----------------------------------------------------------------------------------------------------------------
Dec-04                                279             233          46          $1,290,063                $5,537
----------------------------------------------------------------------------------------------------------------
Mar-05                                275             249          26          $1,677,826                $6,738
----------------------------------------------------------------------------------------------------------------
Jan-00                                232             195          37          $1,239,901                $6,358
----------------------------------------------------------------------------------------------------------------
Sep-05                                241             209          32          $1,514,553                $7,247
----------------------------------------------------------------------------------------------------------------
Dec-05                                228             192          36          $1,443,920                $7,520
----------------------------------------------------------------------------------------------------------------
Mar-06                                207             180          28          $1,481,055                $8,228
----------------------------------------------------------------------------------------------------------------
Jun-06                                363             270          92          $1,659,400                $6,146
----------------------------------------------------------------------------------------------------------------
Sep-06                                324             246          78          $1,532,265                $6,229
----------------------------------------------------------------------------------------------------------------
Dec-06                                320             274          45          $1,489,352                $5,436
----------------------------------------------------------------------------------------------------------------
Mar-07                                308             257          51          $1,505,798                $5,859
----------------------------------------------------------------------------------------------------------------
    Total:                          4,808           4,046         761         $24,273,434              $105,364
----------------------------------------------------------------------------------------------------------------
* A ``claim'' doesn't represent one individual. It represents a single educational benefit claim. Therefore, an
  individual can file more than one claim.



------------------------------------------------------------------------
 Types of Training Programs for Accelerated Pay for the 4th Qtr. FY 2006
-------------------------------------------------------------------------
 
                                                 Participants       %
------------------------------------------------------------------------
09.0702 Digital Communication and Media/                   18    13.95%
 Multimedia
------------------------------------------------------------------------
11. Computer and Information Sciences and
 Support
    Services
------------------------------------------------------------------------
11.0101 Computer and Information Sciences,
 General
------------------------------------------------------------------------
11.0102 Artificial Intelligence and Robotics
------------------------------------------------------------------------
11.0103 Information Technology                             11     8.53%
------------------------------------------------------------------------
11.0199 Computer and Information Sciences                   6     4.64%
------------------------------------------------------------------------
11.02 Computer Programming
------------------------------------------------------------------------
11.0201 Computer Programming/Programmer                     8     6.20%
 General
------------------------------------------------------------------------
11.0202 Computer Programming Specific                       1     0.78%
 Applications
------------------------------------------------------------------------
11.0203 Computer
------------------------------------------------------------------------
11.08 Computer Software and Media Application
------------------------------------------------------------------------
11.0801 Web Page, Digital/Multimedia and                    1     0.78%
 Information Resources
         Design
------------------------------------------------------------------------
11.0802 Data Modeling/Warehousing and                       1     0.78%
 Database Administration
------------------------------------------------------------------------
11.0803 Computer Graphics
------------------------------------------------------------------------
11.0899 Computer Software and Media                         8     6.20%
 Applications, Other
------------------------------------------------------------------------
11.09 Computer System Networking and                       10     7.75%
       Telecommunications
------------------------------------------------------------------------
11.1002 Computer Systems Networking and                     3     2.33%
 Telecommunications
------------------------------------------------------------------------
11.0901 Computer Systems Networking and                    26    20.16%
 Telecommunications
------------------------------------------------------------------------
*14. Engineering                                           34    26.36%
------------------------------------------------------------------------
Instructional programs that prepare
 individuals to apply
  mathematical and scientific principles
------------------------------------------------------------------------
**15. Engineering Technologies/Technicians                  1     0.78%
------------------------------------------------------------------------
Instructional programs that prepare
 individuals to apply basic
  engineering principles
------------------------------------------------------------------------
                                                            1     0.78%
------------------------------------------------------------------------
26. Biological and Biomedical Sciences
------------------------------------------------------------------------
Instructional programs that focus on the
 biological sciences and the
  non-clinical biomedical science
------------------------------------------------------------------------
  TOTAL                                                   129
------------------------------------------------------------------------
* On average more Beneficiaries Enroll in Courses of Engineering when a
  participating in Accelerated Payment programs.
** 2nd is for Computer System Networking and Telecommunications 3rd is
  Radio, Television and Digital Communications.
This chart represents the types of programs as an average based on the
  4th quarter FY 2006. After reviewing other quarters during FY 2006, it
  appears that the percentage is consistent through the entire fiscal
  year.


    Ms. Herseth Sandlin. The reason I'm so inclined to move 
forward with the Commercial Driver's License program is just to 
see. I mean given what we know the experience and the skills of 
a number of individuals coming up from transportation companies 
in the National Guard and Reserve, and others in the infantry 
as Mr. Boozman mentioned. All the other very important helpful 
points that he just made to help us at least move forward and 
then kind of open the flood gates to what we might be able to 
do with the accelerated payment benefit program.
    So if you could get that list to us as quickly as possible 
and share that with staff, we would appreciate it. And we 
appreciate our working relationship with you and agree that we 
are much more on the same page in wanting to adapt this 
important program for our veterans than any opposition that may 
exist there.
    So thank you all again for your time, for your input and 
insights. We always appreciate it and we will look forward to 
following up.
    The hearing now stands adjourned.
    [Whereupon, at 5:01 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity
    As some of you may recall, this Subcommittee has held hearings on 
issues such as adaptive housing, education assistance and ensuring that 
our returning servicemembers and their families have an easy transition 
to civilian life. With an increasing number of disabled veterans 
returning home from Iraq and Afghanistan, there is an urgent need to 
review these important pieces of legislation.
    Today we have 13 bills before us that seek to: protect our Nation's 
veterans from financial burdens incurred while serving one's country; 
expand education programs while meeting the current needs of our 
economy; provide transition assistance to members of the National Guard 
and Reserve; strengthen reemployment rights for returning veterans; 
ensure the vitality of programs that assist veterans in making the best 
use of the Montgomery GI Bill education benefits; and establish an 
office to promote programs to assists our injured veterans to heal from 
their wounds sustained while in the U.S. Armed Forces.
    In addition, I have introduced legislation that will be discussed 
today that seeks to address some of the needs of our returning brave 
men and women in uniform.
    The first being H.R. 1315, which would provide specially adaptive 
housing assistance to disabled servicemembers residing temporarily in 
housing owned by a family member. Under current law, a temporary grant 
may be available to veterans who are/will be temporarily residing in a 
home owned by a family member. This assistance, allowable up to 
$14,000, may be used to adapt the family member's home to meet the 
veteran's special needs at that time.
    The second bill, H.R. 675 would increase the amount of assistance 
available to disabled veterans for specially adaptive housing grants. 
Increase the maximum amount from the current $50,000 to $60,000.
    I believe that these two bills will be critical components in 
assisting our disabled veterans and servicemembers, and expand the 
resources available to give them a level of independent living they may 
not normally enjoy.
    I look forward to working with Ranking Member Boozman and Members 
of this Subcommittee to continue to improve the quality of care and 
services available to our veterans.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman,
    Ranking Republican Member, Subcommittee on Economic Opportunity
    Thank you Madam Chairwoman and good afternoon to everyone, 
especially those who have joined us to provide their views on the bills 
before the Subcommittee.
    We have lots to do this afternoon, so I will be very brief. The 
bills before us represent many good ideas and intentions and I look 
forward to hearing from our witnesses about their positions. I am 
concerned however, that some initiatives may have unintended 
consequences that are less than optimal.
    I would also ask a favor of our witnesses. Please limit your 
remarks to your comments on the bills rather than each of you 
explaining each bill to us. That will give us more time to grill you 
with highly insightful and probing questions.
    Madam Chairwoman, I look forward to a good markup next week to 
report some solid legislation to the Full Committee. I yield back.

                                 <F-dash>
              Prepared Statement of Hon. Timothy J. Walz,
        a Representative in Congress from the State of Minnesota
    Madam Chairwoman and members of the subcommittee, I want to express 
my strong support for H.R. 1632, the Improving Veterans' Reemployment 
Act. Congressman Dave Reichert and I introduced this legislation to 
enact a small, technical fix that will improve the way the federal 
government deals with National Guard and Reserve reemployment 
complaints. This legislation is an excellent example of the good work 
the Congress can do on behalf of our nation's veterans.
    My colleague Congressman Reichert realized the crucial role of the 
National Guard and Reserves early on in the Iraq War. He also 
understood that long deployments for the Guard and Reserves meant 
servicemembers would be leaving their civilian jobs for months and 
years at a time. Congressman Reichert asked the GAO to study this issue 
in 2005, directing them to report on difficulties Guard and Reserve 
servicemembers face when returning to their civilian jobs.
    Among numerous results, the study found a simple problem in the way 
the Departments of Labor and Defense deal with complaints Guard and 
Reserve servicemembers register when they return home and reenter the 
civilian workforce. These servicemembers can file complaints dealing 
with the reemployment process with either the Department of Defense or 
the Department of Labor. However, these two departments are not fully 
sharing the complaint data as they work to improve the reemployment 
process and report to Congress. Congressman Reichert and I came up with 
a legislative fix to this problem. Our bill simply acts on GAO's 
recommendations by requiring the federal agencies and departments that 
are involved with veterans' reemployment complaints to fully share 
their data. The bill also requires that Congress receive all of this 
data in an aggregate report. Congressman Reichert and I offer a simple 
fix to a small problem that has a negative effect on thousands of 
veterans returning home to their civilian jobs.
    As a retired Command Sergeant Major in the Army National Guard, I 
have an intimate understanding of the veterans' reemployment issue. I 
deployed in support of Operation Enduring Freedom from 2003 to 2004 and 
was fortunate to have my job as a high school teacher waiting for me 
when I returned home. Unfortunately, the process was not as simple for 
every member of my unit and I have heard plenty of horror stories of 
both Guard members and Reservists who come home to a radically 
different job situation. Local businesses back home in Minnesota have 
done a tremendous job supporting the Guard and Reserves and bearing the 
financial burden of long deployments, but servicemembers can still face 
problems when they return. Our bill goes a long way to improving the 
way the federal government deals with reemployment problems. While 
constituents I served with in the Guard and now represent in Congress 
may voice their problems and complaints to any number of federal 
agencies, I need to know that the Congress will get the full story on 
reemployment problems. Our bill does just that: ensuring that all the 
data is compiled so that federal agencies and the Congress can better 
understand reemployment problems and create effective solutions. I urge 
the Subcommittee to support our legislation for the sake of thousands 
of Guard and Reserve servicemembers who have served this country 
exceptionally and who need our help now.

                                 <F-dash>
            Prepared Statement of Hon. Albert Russell Wynn,
        a Representative in Congress from the State of Maryland
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, thank you for the opportunity to testify before you 
today on the bill I have offered to extend the protections offered 
under the Servicemembers Civil Relief Act (50 U.S.C. App. 533(c)). I am 
pleased to join this Subcommittee in discussing the economic challenges 
that many U.S. military veterans face after honorably serving our 
Nation.
    My bill, H.R. 1750, would extend the protections to mortgaged 
property owned by a servicemember or qualified Reserve or Guard member 
to one year following active duty, extending the current protection 
from 90 days. H.R. 1750 attempts to address the very real economic and 
life hardships that active duty servicemen and--women, and their 
families frequently face, and acts to protect a family's most treasured 
and needed possession--their home.
    H.R. 1750 is consistent with all requirements and limitations of 
the Servicemembers Civil Relief Act. Originally passed by Congress in 
1940, and amended in the 108th Congress, the Servicemembers Civil 
Relief Act is an important safeguard for our Nation's veterans and 
active duty servicemembers. It generally protects veterans and 
servicemembers with honorable service from eviction for nonpayment of 
rent, foreclosure on mortgaged properties, and provides a cap on 
interest rates for those on active duty.
    H.R. 1750 extends protections granted to active duty servicemembers 
and their immediate families to veterans who have served our Nation 
honorably, by increasing the period in which they are protected from 
immediate foreclosure on a mortgage from 90 days to one year. H.R. 1750 
gives servicemembers, Guard and Reserve members returning from active 
duty time to readjust to civilian life, while protecting their most 
valuable and necessary asset for rebuilding a normal life with their 
family.
Mental Illness, PTSD, and TBI
    This Subcommittee knows very well the challenges that returning 
veterans face. Veterans are at higher risk of mental illness and 
homelessness than the general population. Many combat injuries incurred 
as a result of active duty service, both physical and mental, can 
seriously obstruct servicemen and servicewomen from finding and holding 
down a job.
    As Committee Members know, the War in Iraq and Afghanistan has been 
especially hard on those who have served. More than one million troops 
have served in Iraq or Afghanistan since 2001. Due to the operational 
tempo and intense levels of combat that our troops face in this 
conflict, more and more returning servicemembers are evincing signs of 
serious combat stress and related mental health conditions.
    Three-quarters of the troops in Iraq have faced life-threatening 
situations and nearly half have seen dead or severely injured American 
troops. Repeated and lengthened deployments are dramatically affecting 
troops and their families. A recent study found that those who have 
served multiple tours are 50 percent more likely to suffer from acute 
combat stress.
    More than a third of returning servicemembers have symptoms of 
psychological or neurological injuries such as traumatic brain injuries 
(TBI) and Post-Traumatic Stress Disorder (PTSD). Onset of both TBI and 
PTSD may be delayed, and both can take significant time to diagnose. 
And they can both be suffered without receiving so much as a scratch in 
combat operations.
    The Defense Department Task Force on Mental Health reported in 
early June that almost 40 percent of the troops have experienced some 
type of psychological problem. Between 20 and 25 percent of 
servicemembers returning from Iraq and Afghanistan experience serious 
mental health problems.
    Many believe that mental health conditions such as Post-Traumatic 
Stress Disorder or Traumatic Brain Injury, since they are not visible 
to the naked eye, are imaginary, or a weakness in character. I do not, 
and I am grateful to the Veterans' Committee for acting to address this 
important issue.
    But in the interim, veterans come home, are unable to fully mesh 
back into normal life, and lose their job, lose their home, and end up 
on the street. I have received considerable anecdotal evidence of the 
family disruption that this causes. Extending protection for veterans 
would not only save their homes, but also relieve the pressure on 
families already experiencing great stress.
Economic Challenges and Homelessness among Veterans
    Many servicemembers on active duty, especially those in the Guard 
and Reserves, face significantly reduced income when deployed. Although 
the Servicemembers Civil Relief Act protects servicemembers during and 
immediately following active-duty service, many servicemembers and 
their families incur significant debt that is difficult to pay off. 
Combined with common problems in readjusting to civilian life, and 
mental and physical challenges that many veterans face, these economic 
challenges can lead to late or missed mortgage payments, eventually 
triggering foreclosure. 700,000 children in America have at least one 
parent deployed on active duty today--H.R. 1750 would help provide them 
with additional stability over the year following active service
    Subcommittee Members know the figures better than I do, but they 
bear repeating. The unemployment rate among veterans is three times the 
national average. According to a recent article in the Washington Post, 
the total number of homeless veterans has gone down from about 250,000 
10 years ago to about 194,000 this year. We need to help our veterans 
make the transition back to productive civilian life, help our veterans 
find and maintain gainful employment, and receive the healthcare they 
need and deserve. I appreciate all that the Subcommittee has done, and 
will do, to help our veterans face the challenges of that transition.
H.R. 1750 Protects Veterans in Transition
    H.R. 1750 maintains requirements for honorable service under 
existing law. This bill would maintain requirements that the mortgage 
have been entered into prior to the period of military service, and 
would not grant absolute protection, but rather

require a court hearing (as under existing law) prior to mortgage 
foreclosures. This court hearing would determine if the servicemember 
or veteran's inability to pay promptly was materially affected by 
military service, and allow the count to stay foreclosure, adjust the 
amount of the financial obligation to protect all parties, or to allow 
the foreclosure of the veteran-owned property.
    What H.R. 1750 requires is that all U.S. veterans, for a period of 
one year after their active duty service, would receive a court hearing 
prior to foreclosure or sale of their home. What it does not do is 
protect all veterans from foreclosure, or allow irresponsible financial 
management by servicemembers to serve as a ``get-out-of-jail free 
card'' for mortage foreclosures on their home. It requires that all 
actions taken by the court take into consideration the servicemember or 
veteran's honorable service to our Nation, and consider whether their 
ability to pay has been materially affected by military service.
    In the current conflict in Iraq and Afghanistan, with long 
deployments, multiple tours, and all the pressures that puts on 
servicemembers and their families, it seems reasonable to extend the 
protection offered them under existing law. It is a practical and a 
moral response to honor the service of the men and women in our 
Nation's military, and I believe that protecting the homes of those who 
have served is a just and fair proposal.
    I look forward to working with the Subcommittee, and the full 
Committee, to protect our Nation's veterans, and I again thank the 
Chairwoman for her gracious invitation to offer testimony here today.

                                 <F-dash>
              Prepared Statement of Hon. Robert A. Brady,
      a Representative in Congress from the State of Pennsylvania
    Since 1990, reservists have been involuntarily activated by the 
federal government six times, an average of once every 2\1/2\ years. 
Our nation has called on its armed forces to place themselves at risk 
in far away places, in furtherance of our national interests. In the 
tradition of the American citizen soldier, many of our neighbors and 
loved ones have answered the call and are serving with distinction in 
Afghanistan, Iraq and other theaters. The post-September 11 
mobilization has been the largest since the Gulf War.
    According to a Rand study by the Defense Department, 28 percent of 
activated reservists lost income during their last deployment. These 
losses occur due to differences between the reservists' military and 
civilian pay, expenses incurred by reservists because of mobilization, 
and the decline in business experienced by self-employed reservists 
during and after release from active duty.
    One survey sponsored by the Department of Defense (DoD) indicated 
that as many as two-thirds of the reservists activated during Operation 
Desert Shield/Storm suffered economic loss as a result of their 
deployment. Another DoD sponsored survey indicated that the potential 
for income loss during activation was a major concern for both officers 
and enlisted personnel in the Reserves and National Guard.
    Recognizing that fact, the House Veterans' Affairs Committee has 
undertaken a bi-partisan effort to strengthen servicemembers' rights. I 
am in full support of these efforts, which will go a long way to 
protecting the rights of active duty and mobilized reserve and guard 
personnel. But even more can be done. That is why I am introducing the 
H.R. 513 ``National Heroes Credit Protection Act.''
    This measure will require that credit reporting agencies add 
notations to the credit files of active duty military personnel, 
including reserves and guards forces, indicating that late and slow 
payments to existing accounts occurred during, and because of their 
mobilization. In the future, creditors would be prohibited from denying 
or downgrading credit to personnel because of a notated file.
    No military personnel should ever suffer financial hardship for 
answering the call.

                                 <F-dash>
                Prepared Statement of Hon. Steve Israel,
        a Representative in Congress from the State of New York
    Madame Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, thank you for the opportunity to testify before you 
today.
    I have always believed in a robust military with the strength to 
handle threats to our country's security. We need our troops to be 
well-supplied and well-trained. We need soldiers who can focus on the 
tasks at hand. Right now, our troops have to worry about roadside 
bombs, snipers, IEDs, and countless other dangers of combat. The 
absolute last thing they should be worrying about while in harm's way 
is whether or not their families are being harassed by creditors and 
consumer agencies at home.
    I recently met with a retired Long Island Naval Reservist who 
suffered from re-

possession threats, burdensome credit card debt and sky high interest 
rates during his deployment. Thinking he had taken all the necessary 
steps to keep his families' financial history in order, Naval reservist 
Karl Botkin left to serve as a naval reserve officer in Kuwait from 
July 2005 to April 2006. But while he was deployed, his wife was at 
home being constantly harassed by creditors. She took it upon herself 
to call her automobile company to find out about reduced interest rates 
for deployed soldiers, but was told that there is no such law in place 
and ``if you don't pay we will come and get your car.''
    Reservist Botkin's wife also tried to call her credit card company 
but ultimately the debt on their credit cards grew and the creditor 
following standard procedure increased their interest rates and 
penalized them. Although, the money was later returned, it still caused 
distress to the family.
    Karl and his family are not alone. This happens time and time 
again. Many times the creditors have no idea these protections are in 
place. On March 28, 2005, The New York Times reported that creditors 
and servicemembers were often unaware of the protections.
    The New York Times also wrote about Sgt. John J. Savage III, who 
was an Army reservist on his way to Iraq when he got a call from his 
wife. They had been advised that their home was being foreclosed, even 
though the Servicemembers Civil Relief Act limits the ability of 
mortgage companies and other lenders to foreclose against active duty 
servicemembers. The problem is that so many lenders either do not know 
or do not fully understand the law.
    Luckily, the foreclosure against Sergeant Savage and his family did 
not go through but it damaged his credit history. I would also point 
out that the same New York Times article reported that a creditor 
trying to collect an owed debt sued a soldier's wife while her husband 
was serving in Baghdad.
    The families of deployed soldiers should not have to deal with 
being harassed by credit card companies while worrying about their 
loved ones in harm's way. If we are willing to send troops overseas, 
the least we can do is secure their financial wellbeing upon return 
from battle.
    But among the rushed preparations and farewells, these reservists 
might not have the time to report to credit bureaus on their change to 
active status in a combat zone. They may not have time to request a 
reduction of interest rates in writing, or provide a copy of their 
orders to prove it. Moreover, they may not have time to request a 
military termination clause in apartment and car leases, or learn how 
to precisely navigate countless other loopholes, which cause only 
financial and logistical headaches and nightmares for the deployed 
soldier and their families.
    Shouldn't the government which is deploying the soldier make this 
transition easier for them and protect them?
    If enacted into law, my bill H.R. 1598 the Servicemembers Credit 
Protection Act would strengthen the existing Servicemembers Civil 
Relief Act. It would safeguard credit ratings of soldiers deployed to 
war zones and facilitate awareness of their protected rights to credit 
bureaus, consumer, and collection agencies. The Department of Defense 
(DoD) would be required to notify the national credit bureaus within 30 
days of deployment of servicemembers. The DoD would also notify those 
credit bureaus when the soldier returns home. The act would increase 
penalties for any organization that violates the established rights of 
the servicemember who is fighting to protect our country.
    It is important to note that this bill does not exempt members of 
the Armed Services from paying their bills. It does not stop 
information from being obtained from or placed on their credit reports. 
It simply ensures that every man and woman who is fighting for us 
overseas does not have to worry about their financial rights being 
violated back home.
    We have a responsibility to fight for their families while they are 
overseas fighting for us. Instead we dishonor our troops by allowing 
their families to be hounded by collection agencies, or having their 
credit rating affected by the absence of their hero.
    Supporting our troops begins at home. And it is stories like Karl's 
that inspired me to write this legislation to protect our troops from 
financial harassment and foreclosure.
    It begins with responsible spending, accountability within 
leadership, and protecting the families and assets of the brave men and 
women who are willing to sacrifice everything for our country.
    I hope this subcommittee will look favorably on this legislation 
and I am grateful for the consideration. I hope my bill would help show 
that our government will go beyond symbols and rhetoric and distribute 
tangible, practical relief and assistance that honors those who fight 
for us.
    Thank you for your time and consideration.
               NEWSPAPER ARTICLE SUBMITTED FOR THE RECORD
                 Bills in the Napsack: A Law Gets Lost;
               Creditors Press Troops Despite Relief Act
                The New York Times, Late Edition--Final
              Monday, March 28, 2005, Section A; Column 3
                         By Diana B. Henriques
    Sgt. John J. Savage III, an Army reservist, was about to climb onto 
a troop transport plane for a flight to Iraq from Fayetteville, N.C., 
when his wife called with alarming news: ``They're foreclosing on our 
house.''
    Sergeant Savage recalled, ``There was not a thing I could do; I had 
to jump on the plane and boil for 22 hours.''
    He had reason to be angry. A longstanding federal law strictly 
limits the ability of his mortgage company and other lenders to 
foreclose against active-duty servicemembers.
    But Sergeant Savage's experience was not unusual. Though statistics 
are scarce, court records and interviews with military and civilian 
lawyers suggest that Americans heading off to war are sometimes facing 
distracting and demoralizing demands from financial companies trying to 
collect on obligations that, by law, they cannot enforce.
    Some cases involve nationally prominent companies like Wells Fargo 
and Citigroup, though both say they are committed to strict compliance 
with the law.
    The problem, most military law specialists say, is that too many 
lenders, debt collectors, landlords, lawyers and judges are unaware of 
the federal statute or do not fully understand it.
    The law, the Servicemembers Civil Relief Act, protects all active-
duty military families from foreclosures, evictions and other financial 
consequences of military service. The Supreme Court has ruled that its 
provisions must ``be liberally construed to protect those who have been 
obliged to drop their own affairs to take up the burdens of the 
nation.''
    Yet the relief act has not seemed to work in recent cases like 
these:
    At Fort Hood, Tex., a soldier's wife was sued by a creditor trying 
to collect a debt owed by her and her husband, who was serving in 
Baghdad at the time. A local judge ruled against her, saying she had 
defaulted, even though specialists say the relief act forbids default 
judgments against soldiers serving overseas and protects their spouses 
as well.
    At Camp Pendleton, Calif., more than a dozen marines returned from 
Iraq to find that their cars and other possessions had been improperly 
sold to cover unpaid storage and towing fees. The law forbids such 
seizures without a court order.
    In northern Ohio, Wells Fargo served a young Army couple with 
foreclosure papers despite the wife's repeated efforts to negotiate new 
repayment terms with the bank. Wells Fargo said later that it had been 
unaware of the couple's military status. The foreclosure was dropped 
after a military lawyer intervened.
Little Known Legislation
    The relief act provides a broad spectrum of protections to 
servicemembers, their spouses and their dependents. The interest rate 
on debts incurred before enlistment, for example, must be capped at 6 
percent if military duty has reduced a servicemember's family income.
    The law also protects servicemembers from repossession or 
foreclosure without a court order. It allows them to terminate any real 
estate lease when their military orders require them to do so. And it 
forbids judges from holding servicemembers in default on any legal 
matter unless the court has first appointed a lawyer to protect their 
interests.
    The law is an updated version of the Soldiers' and Sailors' Civil 
Relief Act, which was adopted on the eve of World War II and remained 
largely unchanged through the Persian Gulf War 1991. But in July 2001, 
a federal court ruled that servicemembers could sue violators of the 
relief act for damages. And the terrorist attacks on Sept. 11 prompted 
Congress to take up a long-deferred Pentagon proposal to update the old 
act. The revised statute, clearer and more protective than the old one, 
was signed into law in December 2003.
    But the news was apparently slow in reaching those who would have 
to interpret and enforce the law.
    ``There are 50,000 judges in this country and God knows how many 
lawyers,'' said Alexander P. White, a county court judge in Chicago and 
the chairman of one of the American Bar Association's military law 
Committees. ``Are people falling down on the job--the judges, the bar, 
the military? Probably.'' And broad understanding of the law ``is not 
going to happen overnight.''
    Military lawyers, credit industry organizations and some state 
courts and bar associations have also tried to spread the word about 
the new law. But these efforts are not enough, said Col. John S. Odom 
Jr., retired, of Shreveport, La., who is a specialist on the act. 
``What we need is a way to reach Joe Bagadoughnuts in Wherever, 
Louisiana,'' he said. ``Because that's where these cases are turning 
up.''
    One reason they are surfacing in unlikely places is the Pentagon's 
increased reliance on Reserve and National Guard units that do not hail 
from traditional military towns, said Lt. Col. Barry Bernstein, the 
judge advocate general for the South Carolina National Guard. When 
these units are called up, he said, their members find themselves 
facing creditors and courts that may never have dealt with the relief 
act.
    As a result, some servicemembers heading off to war have confronted 
exactly the kinds of problems the law was supposed to prevent. The 
Coast Guard alone handled more than 300 complaints last year; military 
law specialists say the numbers are probably higher in the branches 
sending troops abroad.
Financial Difficulties
    Sergeant Savage's lender eventually dropped its foreclosure against 
him after receiving repeated warnings from military lawyers at Fort 
Bragg, N.C. But damage was done. The foreclosure dispute remained on 
his credit history, hurting his ability to revive his struggling 
wireless Internet connection business when he returned home to 
Asheboro, N.C., he said. By then he had retired on full disability 
after being seriously injured while working on a sabotaged electrical 
system at the former Baghdad Convention Center.
    Sergeant Savage has not let the matter end. Represented by Colonel 
Odom, he has filed a lawsuit in federal court in Greensboro, N.C. He 
says the EverHome Mortgage Company, a unit of the EverBank Financial 
Corporation in Jacksonville, Fla., violated the relief act by failing 
to cap his mortgage at 6 percent, wrongfully initiating foreclosure 
and, after dropping the foreclosure, failing to remove information 
about it from his credit history.
    The mortgage company denied that it violated the act or treated 
Sergeant Savage unfairly. His case ``has unique and extenuating 
circumstances'' that will be raised when the dispute comes to trial, 
Michael C. Koster, EverHome's president, said in a written statement.
    ``We are confident that court documents will reveal that EverBank 
treated Mr. Savage equitably and worked diligently to resolve this 
matter,'' Mr. Koster said.
Extent of Coverage
    When Sgt. Michael Gaskins of Fort Hood, Tex., was sent to Iraq last 
April, his wife, Melissa, was left to cope with a dispute over a 
delinquent loan from the Tallahassee Memorial Hospital credit union; 
the couple took out the loan just before Sergeant Gaskins enlisted in 
November 2001. When the credit union took the couple to court in Texas 
last year, a military lawyer at Fort Hood alerted the local judge that 
the new relief act required that the case be deferred because Sergeant 
Gaskins was abroad.
    But on Feb. 18, a county court judge in Gatesville, Tex., ruled 
that Mrs. Gaskins had lost the case by default. She was ordered to pay 
the credit union more than $6,000 and turn over the family truck, which 
secured the loan. Colonel Odom, who is also representing the couple, is 
trying to have the default judgment overturned, in part on the ground 
that the relief act protects spouses as well as servicemembers.
    The credit union in Tallahassee, Fla., disputes that. ``It's our 
position the act does not protect her,'' said Palmer Williams, a lawyer 
for the organization. Judge Susan R. Stephens, the county judge who 
signed the default judgment, said she did not think that Mrs. Gaskins 
had ever invoked the relief act but said she would review the matter 
when it came before her. The relief act was also supposed to prevent 
the kind of situation that the marines returning to Camp Pendleton 
faced when they discovered that their cars and other possessions had 
been sold to cover towing and storage fees.
    ``The Act says you need a court order to do that, and you can't get 
a court order without notice to the servicemember,'' said Maj. Michael 
R. Renz, director of the joint legal assistance office there. ``I've 
got six attorneys here, and each one of us has handled at least two or 
three of these cases within the last eight months.''
`I'm Not Sleeping'
    Stephen Lynch, a civilian lawyer for the Coast Guard in Cleveland, 
said he had stepped in repeatedly over the past year to help 
servicemembers invoke their rights under the Act.
    One of them is a young soldier sent to east Asia, leaving a wife 
and two children at home in northern Ohio. His periods of unemployment 
and the death of a newborn daughter last July left the young family 
struggling financially. Their situation was aggravated by delays in the 
processing of his first military paychecks, said Mr. Lynch, who asked 
that the couple's name not be used because their debt problems could 
hurt the soldier's career.
    The soldier's wife said she had tried for months to renegotiate 
their mortgage with Wells Fargo Home Mortgage. But on March 8, just 
three weeks after paying the bank $3,000 that the U.S.O. had raised on 
her behalf, she was served with foreclosure papers.
    ``I'm having anxiety attacks,'' the wife said in an interview that 
night. ``I'm not sleeping.'' She said she was especially worried about 
how much to tell her husband. ``The other military wives I've spoken to 
all say, `Don't let them know you're upset; don't let them hear you 
cry.' ''
    Kevin Waetke, a spokesman for Wells Fargo, said the foreclosure 
action was dropped as soon as Mr. Lynch contacted the bank's lawyers. 
The bank had not known the couple was eligible for relief, he said.
Different Experiences
    A Coast Guardsman, Kevin Cornell, was baffled by his experience 
with Citigroup's credit card unit. When he enlisted, he had a Citibank 
card and another from Sears, whose credit card operations Citibank 
acquired in late 2003. When he applied last fall to have the interest 
rates on both cards capped at 6 percent, Citibank did even better: it 
cut the rate on his pre-enlistment balance to zero.
    But the Sears card was another story; a different Citibank employee 
refused to make the interest rate cut on that card retroactive to his 
date of enlistment, as the new relief act requires. Again, Mr. Lynch 
intervened. But he said he wondered how many other servicemembers had 
been misinformed.
    Janis Tarter, a spokeswoman for the bank, said the company's policy 
was to go beyond the requirements of the relief Act on all its credit 
cards. ``We regret the difficulty that our customer encountered,'' Ms. 
Tarter said. ``It is not representative of the level of service we work 
to provide.''
Burden of Enforcement
    Some problems that military personnel are confronting suggest that 
the new law may need more work by Congress. For example, although 
mandatory arbitration clauses are becoming increasingly common in 
credit agreements, arbitration is not even mentioned in the relief act.
    But the biggest problem, both bankers and military lawyers say, is 
that the enforcement of the Act rests initially on the shoulders of the 
servicemembers themselves. They must notify their creditors or 
landlords of their military status to invoke their rights under the 
act. It is one more chore for a soldier getting ready for overseas 
duty, and it often does not get done properly.
    And if a landlord or creditor, out of ignorance or intransigence, 
refuses to comply with the Act, the servicemember may not have the time 
or money to fight back, said Capt. Kevin P. Flood, a retired Navy 
lawyer.
    ``Sure, if you take them to court and win, you can even collect 
damages,'' Captain Flood said. ``But most of our people are not in that 
position. They are just regular Joes, and they don't have the money to 
hire a lawyer.''

                                 <F-dash>
             Prepared Statement of Hon. Sheila Jackson-Lee,
          a Representative in Congress from the State of Texas
    Thank you, Madam Chairwoman Herseth Sandlin for convening this 
historic hearing. There are few if any higher obligations of the 
Congress, the President, and the American people than keeping faith 
with the men and women who have worn the uniform in service to our 
country.
    I applaud the work of the Subcommittee on Economic Opportunity 
because it is charged with legislative, oversight and investigative 
jurisdiction over education of veterans, employment and training of 
veterans, vocational rehabilitation, veterans' housing programs, and 
readjustment of servicemembers to civilian life. That is the purpose of 
this hearing is to consider a number of legislative proposals to 
facilitate the readjustment of veterans to civilian life.
    It is for that reason that I am delighted to be here to discuss 
H.R. 1240, the ``Vision Impairment Specialist Training Act,'' or VISTA 
Act of 2007. The purpose of my legislation is to help our Nation's 
blind and low-vision veterans by establishing a scholarship program for 
students seeking training in blind rehabilitation.
    I am proud that the Chairman of the Veterans' Affairs Committee, 
Mr. Filner, is an original co-sponsor of this legislation, as is Mr. 
Michaud, the Chair of this Committee's Subcommittee on Health; and the 
cochairs of the Congressional Vision Caucus, my colleague Mr. Gene 
Green of Texas and Ms. Ros-Lehtinen of Florida. I am proud to report 
also that this legislation is strongly supported by the Blind Veterans 
of America, an organization chartered by Congress in 1958, and which 
has been for nearly 50 the only veterans service organization 
exclusively dedicated to serving America's blind and visually impaired 
veterans.
    Madam Chairwoman, there are approximately 160,000 legally blind 
veterans in the United States, but only 35,000 are currently enrolled 
in Veterans Health Administration services.
    In addition, it is estimated that there are over one million low-
vision veterans in the United States, and incidences of blindness among 
the total veteran population of 26 million are expected to increase by 
about 40% over the next few years. This is because the most prevalent 
causes of legal blindness and low vision are age-related, and the 
average age of the veteran population is increasing; the current 
average age is about 80 years old.
    Members of the Armed Forces are important to our Nation and we show 
them our appreciation by taking care of them even after they have 
completed their service. But the fact is that there are not enough 
blind rehabilitation specialists to serve all legally blind and low-
vision veterans in United States.
    Blind rehabilitation training helps give these veterans awareness 
of and functioning in their surroundings and enables them to retain 
their independence and dignity. Veterans without these services may 
find it difficult to be self-sufficient, relying on others to perform 
certain skills or even simple tasks on their behalf.
    Madam Chairwoman, Public Law 104-262, the Eligibility Reform Act 
1996, requires the Department of Veterans Affairs to maintain its 
capacity to provide specialized rehabilitative services to disabled 
veterans, but it cannot do so when there are not enough specialists to 
address these needs.
    Last December, the Veterans Programs Extension Act was passed, 
which included a provision by Congressman Michael Michaud to increase 
the number of Blind Rehabilitation Outpatient Specialists serving our 
Nation's veterans. However, there are currently not enough counselors 
certified in blind rehabilitation to provide for the growing number of 
blind or low-vision veterans, let alone the rest of our Nation's 
elderly population.
    My legislation, the VISTA Act, helps to remedy this situation by 
directing the Secretary of Veterans Affairs to establish a scholarship 
program for students seeking a degree or certificate in blind 
rehabilitation (Vision Impairment and/or Orientation and Mobility). The 
availability of these scholarship opportunities will provide an 
incentive to students considering entry into the field.
    Additionally, in exchange for the scholarship award, students are 
required to work for three years in a healthcare facility of the 
Department of Veterans Affairs, to ensure that our veterans are well 
cared for.
    If I might, let me discuss the legislation in more detail.
    H.R. 1240 mandates that the Secretary of Veterans Affairs shall 
provide financial assistance to students enrolled in a program of study 
leading to a degree or certificate in Visual Impairment and/or 
Orientation and Mobility at an accredited educational institution in a 
U.S. State or territory, provided that they agree with applicable 
requirements.
    As I stated earlier, the purpose of the scholarship program is to 
increase the supply of qualified blind rehabilitation specialists for 
the Department of Veterans Affairs and the nation.
    The legislation requires that the Secretary of Veterans Affairs 
shall widely publicize this scholarship program to colleges and 
universities across the nation, especially institutions with large 
numbers of Hispanic students and HBCUs. This is a particularly salutary 
provision because African Americans, Hispanics, and other minorities 
are underrepresented in the field of vision rehabilitation.
    To apply and participate in the scholarship program, an applicant 
shall submit to the Secretary, or his designee, an application and 
agree to serve a 3 year period of obligated service in the Department 
of Veterans Affairs. The legislation requires that the Secretary shall 
include among the application and agreement materials a fair summary of 
the rights and liabilities of the applicant if accepted into the 
program.
    When the Secretary approves of the applicant's acceptance, the 
applicant shall be promptly notified and accepted into the program.
    The amount of financial assistance provided for an applicant shall 
be the amount determined by the Secretary as being necessary to pay the 
tuition and fees of the applicant. If the applicant is enrolled in a 
dual degree or certification program, the amount awarded shall not 
exceed the amounts necessary for the minimum number of credit hours to 
achieve such dual certification or degree.
    Financial assistance provided to an applicant by this scholarship 
program may supplement other educational assistance, as long as the 
total award does not exceed the tuition and fees required for an 
academic year.
    The maximum award for any full-time student per academic year may 
not exceed $15,000. The maximum award for any part-time student should 
be determined in proportion to the amount that would be the case if the 
student were full time. For any student, the total amount of assistance 
may not exceed $45,000.
    The maximum duration for financial assistance under this program is 
six years.
    The agreement for participation in this scholarship program shall 
be signed by both the Secretary and the participant. The Secretary 
shall agree to provide the participant with the authorized financial 
assistance and the participant shall agree to:

    <bullet>  accept the assistance
    <bullet>  maintain enrollment and attendance in the appropriate 
program of study
    <bullet>  maintain an acceptable level of academic standing
    <bullet>  serve as a full-time employee in the Department of 
Veterans Affairs for three years within the first six years after 
completing the program and receiving the degree or certificate 
specified

    If the applicant fails to satisfy the requirements of the 
agreement, the applicant must repay the amount equal to the unearned 
portion of assistance, except in circumstances authorized by the 
Secretary. The Secretary shall establish procedures for determining the 
amount of the repayment required, as well as the circumstances under 
which an exception to the required repayment may be granted.
    The Secretary shall prescribe regulations for the waiver or 
suspension of an applicant's obligation for service or payment whenever 
the applicant's noncompliance is due to circumstances beyond his or her 
control or it is in the best interest of the United States.
    Madam Chairwoman, I should point out that an obligation to repay 
the Secretary under this section is a debt owed the United States. 
Thus, a discharge in bankruptcy does not discharge a person from a debt 
under this legislation if the discharge order is entered less than five 
years after the date of the termination of the agreement or contract.
    Madam Chairwoman, every morning when I arrive at my office, I am 
reminded of how fortunate I am to live in a nation as great as the 
United States. Outside of my office there is a poster-board with the 
names and faces of those heroes from Houston, Texas who have lost their 
lives wearing the uniform of our country. We live in a nation where so 
many brave young men and women volunteer to the ultimate sacrifice so 
that their countrymen can enjoy the blessings of liberty. Now is the 
time to remind our heroes know they have not been, and will never be, 
forgotten. They deserve honor, they deserve dignity, and they deserve 
the best care. After all, this is the least we can do for those who 
have done so much for all of us.
    I thank the Committee for allowing me this time to discuss H.R. 
1240. I appreciate the support of the members who have cosponsored the 
bill and invite all other members to join as well. I would be pleased 
to answer any questions you may have.
     Testimony Before the Committee on Veterans' Affairs, House of 
   Representatives, United States Government Accountability Office, 
                        Thursday, July 22, 2004
         VA HEALTHCARE: MORE OUTPATIENT REHABILITATION SERVICES
            FOR BLIND VETERANS COULD BETTER MEET THEIR NEEDS
        Statement of Cynthia A. Bascetta, Director, Healthcare--
                  Veterans' Health and Benefits Issues

GAO Highlights: Highlights of GAO-04-996T, a report to the Committee on 
        Veterans' Affairs, House of Representatives:
Why GAO Did This Study:
    In fiscal year 2003, VA estimated that about 157,000 veterans were 
legally blind, with more than 60 percent age 75 or older. About 44,000 
legally blind veterans were enrolled in VA healthcare. VA estimated 
that through 2022, the number of legally blind veterans would remain 
stable. (See fig. 1.)
What GAO Recommends:
    GAO recommends that the Secretary of Veterans Affairs direct the 
Under Secretary for Health to issue, as soon as possible in fiscal year 
2005, a uniform standard of care policy that ensures that a broad range 
of inpatient and outpatient blind rehabilitation services are more 
widely available to legally blind veterans. In commenting on a draft of 
this testimony, VA concurred with our recommendation.
What GAO Found:
    VA provides three types of blind rehabilitation outpatient training 
services. These services, which are available at a small number of VA 
locations, range from short-term programs provided in VA facilities to 
services provided in the veteran's own home. They are Visual Impairment 
Services Outpatient Rehabilitation, Visual Impairment Center to 
Optimize Remaining Sight, and Blind Rehabilitation Outpatient 
Specialists.

    Figure 1--Estimated Age Distribution of Legally Blind Veterans,
                   Fiscal Years 2003, 2012, and 2022
[GRAPHIC] [TIFF OMITTED] 37468A.001


    Source: Atlanta VA Rehabilitation Research and Development Center.

Locations of VA Outpatient Blind Rehabilitation Services, May 2004
    [See Figure 3.]
    VA reported to GAO that some legally blind veterans could benefit 
from increased access to outpatient blind rehabilitation services. When 
VA reviewed all of the veterans who, as of March 31, 2004, were on the 
waiting list for admission to the five BRCs GAO visited, VA officials 
reported that 315 out of 1,501 of them, or 21 percent, could 
potentially be better served through access to outpatient blind 
rehabilitation services, if such services were available.
    GAO also identified two factors that may affect the expansion of 
VA's outpatient blind rehabilitation services. The first involves VA's 
longstanding position that training for legally blind veterans is best 
provided in a comprehensive inpatient setting. The second reported 
factor is VA's method of allocating funds for medical care. VA is 
currently working to develop an allocation amount that would better 
reflect the cost of providing blind rehabilitation services on an 
outpatient basis.

    Mr. Chairman and Members of the Committee:
    I am pleased to be here today to discuss the healthcare 
rehabilitation services the Department of Veterans Affairs (VA) 
provides to legally blind veterans. In fiscal year 2003, VA estimated 
that about 157,000 veterans were legally blind,\1\ and about 44,000 of 
these veterans were enrolled in VA healthcare. Since the forties, the 
demographics of VA's blind veteran population have changed from young 
veterans totally blind as a result of traumatic injury to primarily 
older veterans whose legal blindness is caused by age-related eye 
diseases.
---------------------------------------------------------------------------
    \1\ VA defines ``legal blindness'' as when the patient's best-
corrected central visual acuity, with ordinary glasses or contact 
lenses, is 20/200 or less in the better eye (measured by the Snellen 
Visual Acuity Chart), or when the field of useful vision is 20 degrees 
or less in the better eye. For example, a legally blind person can read 
only the big ``E'' on the eye chart or sees as if looking through a 
paper towel tube.
---------------------------------------------------------------------------
    You expressed concern that VA has not updated its delivery of care 
options for blind rehabilitation programs by offering, in addition to 
inpatient services, a range of outpatient services closer to where 
veterans live.\2\ To determine how VA serves the needs of legally blind 
veterans and what role outpatient training services could play, we 
reviewed (1) the availability of VA outpatient blind rehabilitation 
services, (2) whether legally blind veterans benefit from VA and non-VA 
outpatient services, and (3) what factors affect VA's ability to 
increase veterans' access to blind rehabilitation outpatient services.
---------------------------------------------------------------------------
    \2\ This work was requested by the Chairman, Subcommittee on 
Health, Committee on Veterans' Affairs, House of Representatives and 
the Ranking Minority Member, Committee on Veterans' Affairs, United 
States Senate.
---------------------------------------------------------------------------
    To address these issues, we met with officials from VA's 
Rehabilitative Strategic Healthcare Group, including the Blind 
Rehabilitation Service Program Office (program office). We also met 
with VA's directors for ophthalmology and optometry. We reviewed 
applicable policies and procedures regarding VA's blind rehabilitation 
services, its strategic plan for blind rehabilitation, and its planning 
documents for special disability populations. To determine what blind 
rehabilitation services were available to veterans, we visited five 
medical centers offering blind rehabilitation services and met with 
Blind Rehabilitation Center (BRC) officials as well as case managers 
and rehabilitation specialists who work with legally blind veterans.\3\ 
We asked BRC officials and case managers to evaluate veterans on the 
waiting lists for admission to these BRCs as of March 31, 2004, to 
identify those who could potentially be better served through access to 
outpatient blind rehabilitation services, if such services were 
available. We also interviewed case managers who were located at 
medical centers without a BRC and representatives of the Blinded 
Veterans Association to gain their perspectives on the types of care 
that would benefit legally blind veterans. In addition, we met with 
officials from state and private nonprofit agencies in Arizona, 
Illinois, and Washington to learn about the blind rehabilitation 
programs they offer older citizens.\4\ Our review was conducted from 
September 2003 through July 2004 in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \3\ We visited the BRCs located in Tucson, Arizona; West Palm 
Beach, Florida; Augusta, Georgia; Hines, Illinois; and American Lake, 
Washington. These BRCs were selected based on differences in geographic 
location and the number of beds available at the BRC.
    \4\ We selected these states because they were in the same 
geographic location as three of the BRCs we visited.
---------------------------------------------------------------------------
    In summary, VA provides three types of blind rehabilitation 
outpatient training services, but they are available only in a few VA 
locations. These services range from short-term programs provided in VA 
facilities to services provided in the veteran's own home. VA also 
believes that some legally blind veterans could benefit from increased 
access to outpatient blind rehabilitation services. In fact, VA 
officials reported to us that 21 percent of veterans on the waiting 
lists for admission to the five BRCs we visited could potentially be 
better served through access to outpatient blind rehabilitation 
services, if such services were available. Finally, two factors affect 
the expansion of VA's outpatient blind rehabilitation services. The 
first involves VA's longstanding position that training for legally 
blind veterans should be provided in a comprehensive inpatient setting. 
This delivery model has not kept pace with VA's overall healthcare 
strategy that reduces its reliance on inpatient care and emphasizes 
more outpatient care. The second reported factor affecting the use of 
outpatient blind rehabilitation services is its method of allocating 
funds for medical care. VA's Visual Impairment Advisory Board (VIAB) 
believes that the funds allocated for basic outpatient care for legally 
blind veterans do not cover the cost of providing blind rehabilitation 
outpatient services. The VIAB is currently working with VA's Office of 
Finance and Allocation Resource Center \5\ to develop an allocation 
amount that would better reflect the cost of providing blind 
rehabilitation services on an outpatient basis, which could provide an 
incentive to expand this care. We are recommending that VA take action 
to ensure that a broad range of inpatient and outpatient blind 
rehabilitation services is more widely available to legally blind 
veterans.
---------------------------------------------------------------------------
    \5\ The Allocation Resource Center is responsible for developing, 
implementing, and maintaining management information systems that 
provide data for the Veterans Health Administration's budget process.
---------------------------------------------------------------------------
Background
    In 1944, President Franklin D. Roosevelt made a commitment that no 
servicemen blinded in combat in World War II would be returned to their 
homes without adequate training to meet the problems imposed by their 
blindness, according to VA. From 1944 to 1947, the Army and Navy 
provided this rehabilitation training. In 1947, responsibility for this 
training was transferred to VA, and in 1948, VA opened its first BRC to 
provide comprehensive inpatient care to legally blind veterans.
    In 1956, blind rehabilitation services were expanded to include 
veterans whose legal blindness was not service-connected. Because of 
this expansion, the demographics of VA's blind veteran population 
shifted toward predominately older veterans whose legal blindness was 
caused by age-related eye diseases. Expanded eligibility also caused an 
increase in demand for services. VA responded to this demand by opening 
9 additional BRCs in the United States and Puerto Rico for a total of 
10 facilities with 241 authorized beds. (See table 1.) As of May 5, 
2004, VA reported that there were 2,127 legally blind veterans waiting 
for admission to BRCs.\6\
---------------------------------------------------------------------------
    \6\ See U.S. General Accounting Office, VA Needs to Improve 
Accuracy of Reported Wait Times for Blind Rehabilitation Services, GAO-
04-949 (Washington, D.C.: July 22, 2004).


 Table 1--Location of VA's Blind Rehabilitation Centers, the Year Each Was Opened, and the Number of Authorized
                                        and Staffed Beds, as of May 2004
----------------------------------------------------------------------------------------------------------------
                                                                                          Beds\a\
                      Location                            Year Opened    ---------------------------------------
                                                                              Authorized            Staffed
----------------------------------------------------------------------------------------------------------------
American Lake, Washington                                          1971                  15                  12
----------------------------------------------------------------------------------------------------------------
August, Georgia                                                    1996                  15                  15
----------------------------------------------------------------------------------------------------------------
Birmingham, Alabama                                                1982                  32                  32
----------------------------------------------------------------------------------------------------------------
Hines, Illinois                                                    1948                  34                  34
----------------------------------------------------------------------------------------------------------------
Palo Alto, California                                              1967                  32                  27
----------------------------------------------------------------------------------------------------------------
San Juan, Puerto Rico                                              1986                  12                  11
----------------------------------------------------------------------------------------------------------------
Tucson, Arizona                                                    1994                  34                  27
----------------------------------------------------------------------------------------------------------------
Waco, Texas                                                        1974                  15                  15
----------------------------------------------------------------------------------------------------------------
West Haven, Connecticut                                            1969                  34                  27
----------------------------------------------------------------------------------------------------------------
West Palm Beach, Florida                                           2000                  18                  18
----------------------------------------------------------------------------------------------------------------
    Total                                                                               241                 218
----------------------------------------------------------------------------------------------------------------
Source: VA.
\a\ Authorized beds are the total bed capacity of the BRC. Staffed beds are the beds available for admission of
  patients. According to VA's Capacity Report for 2003, the number of staffed beds may be less than authorized
  beds because the local medical center may have eliminated staff positions, imposed a hiring freeze, or
  experienced difficulties in recruiting qualified personnel.


    In fiscal year 2003, VA estimated that about 157,000 veterans were 
legally blind,\7\ with more than 60 percent age 75 or older. About 
44,000 legally blind veterans were enrolled in VA healthcare. VA 
estimated that through 2022, the number of legally blind veterans would 
remain stable. (See fig. 1.)
---------------------------------------------------------------------------
    \7\ All legally blind veterans are given priority 4 status and 
currently are eligible to enroll in VA healthcare.
---------------------------------------------------------------------------
    The National Institutes of Health (NIH) considers the increase in 
age-related eye diseases to be an emerging major public health problem. 
According to NIH, the four leading diseases that cause age-related 
legal blindness are cataract, glaucoma, macular degeneration, and 
diabetic retinopathy, each affecting vision differently. (See fig. 2 
for illustrations of how each disease affects vision.) Cataract is a 
clouding

    Figure 2--Vision and Vision Loss Due to Age-Related Eye Diseases
[GRAPHIC] [TIFF OMITTED] 37468A.002


    Source: National Eye Institute, U.S. National Institutes of Health.

of the eye's normally clear lens. Most cataracts appear with advancing 
age, and by age 80, more than half of all Americans develop them. 
Glaucoma causes gradual damage to the optic nerve--the nerve to the 
eye--that results in decreasing peripheral vision. It is estimated that 
as many as 4 million Americans have glaucoma. Macular degeneration 
results in the loss of central visual clarity and contrast sensitivity. 
It is the most common cause of legal blindness in older Americans and 
rarely affects those under the age of 60. Diabetic retinopathy is a 
common complication of diabetes impairing vision over time. It results 
in the loss of visual clarity, peripheral vision, and color and 
contrast sensitivity. It also increases the eye's sensitivity to glare. 
Nearly half of all diabetics will develop some degree of diabetic 
retinopathy, and the risk increases with veterans' age and the length 
of time they have had diabetes.
    To assist legally blind veterans, VA established Visual Impairment 
Services Team (VIST) coordinators who act as case managers and are 
responsible for coordinating all medical services for these veterans, 
including obtaining medical examinations and arranging for blind 
rehabilitation services. There are about 170 VIST coordinators, who are 
located at VA medical centers that have at least 100 enrolled legally 
blind veterans. VIST coordinators are also responsible for certain 
administrative services such as reviewing the veteran's compensation 
and pension benefits. Almost all of VA's blind rehabilitation services 
for veterans are provided through comprehensive inpatient care at BRCs, 
where veterans are trained to use their remaining vision \8\ and other 
senses, as well as adaptive devices such as canes, to help compensate 
for impaired vision. VA offers both basic and computer training. (See 
table 2 for examples of the types of skills taught during basic and 
computer training.)
---------------------------------------------------------------------------
    \8\ About 85 percent of those who are legally blind have some 
usable vision.


  Table 2--Examples of Training Courses Offered at Blind Rehabilitation
                                 Centers
------------------------------------------------------------------------
                                              Examples of skills taught
------------------------------------------------------------------------
Visual skills                                 <bullet> Maximizing
                                              remaining vision through
                                              the use of alternative
                                              scanning or viewing
                                              techniques
                                              <bullet> Using
                                              magnification devices or
                                              close circuit televisions
                                              to read or write
------------------------------------------------------------------------
Orientation and mobility                      <bullet> Moving around the
                                              home
                                              <bullet> Traveling through
                                              different environments
                                              <bullet> Using adaptive
                                              devices, such as
                                              telescopic devices for
                                              reading street signs
------------------------------------------------------------------------
Living skills                                 <bullet> Cooking and
                                              eating
                                              <bullet> Doing laundry or
                                              changing light bulbs
                                              <bullet> Typing or
                                              keyboarding
------------------------------------------------------------------------
Manual skills                                 <bullet> Using hand and
                                              power tools
                                              <bullet> Problem solving
                                              and organization of work
------------------------------------------------------------------------
Leisure skills                                <bullet> Going to sporting
                                              events
                                              <bullet> Playing golf or
                                              fishing
                                              <bullet> Developing a
                                              hobby, such as woodworking
------------------------------------------------------------------------
Adjustment counseling                         <bullet> Using counseling,
                                              therapy, and social
                                              interaction with others
                                              who have similar visual
                                              impairments to learn to
                                              adjust to blindness
------------------------------------------------------------------------


------------------------------------------------------------------------
                                              Examples of skills taught
------------------------------------------------------------------------
Computer skills                               <bullet> Operating a
                                              computer
                                              <bullet> Searching the
                                              Internet
                                              <bullet> Sending,
                                              receiving, and reading e-
                                              mail
------------------------------------------------------------------------
Source: VA Blind Rehabilitation Service.


    In fiscal years 2002 and 2003, VA spent over $56 million each year 
for inpatient training at BRCs. During this same time period, VA spent 
less than $5 million each year to provide outpatient rehabilitation 
training for legally blind veterans.
Blind Rehabilitation Outpatient Services Are Available in Few VA 
        Locations
    VA offers three types of blind rehabilitation outpatient services 
to legally blind veterans,\9\ but these services are available in few 
VA locations. The three types of services include Visual Impairment 
Services Outpatient Rehabilitation (VISOR), Visual Impairment Center to 
Optimize Remaining Sight (VICTORS), and Blind Rehabilitation Outpatient 
Specialists (BROS). The services range from short-term outpatient 
programs provided in VA facilities to home-based services. Figure 3 
identifies the locations throughout the United States and Puerto Rico 
where these services are offered.\10\
---------------------------------------------------------------------------
    \9\ Some VA low vision eye clinics also provide limited outpatient 
rehabilitation training to legally blind veterans whose remaining 
vision can be enhanced through the use of magnification devices. 
However, while VA has overall workload data for its eye clinics, it 
cannot disaggregate the data to identify how much low vision training 
is provided to legally blind veterans.
    \10\ All of VA's outpatient programs also treat low vision veterans 
in addition to those veterans who are legally blind. VA defines low 
vision as when the patient has significant uncorrectable visual 
impairments of 20/70 up to, but not including, 20/200.
---------------------------------------------------------------------------
               Figure 3--Locations of VA Outpatient Blind
                   Rehabilitation Services, May 2004
[GRAPHIC] [TIFF OMITTED] 37468A.003


VISOR
    VISOR is a 10-day outpatient program located at the VA medical 
center in Lebanon, Pennsylvania, that offers training in the use of low 
vision equipment, basic orientation and mobility, and living skills. 
Serving veterans in the surrounding 13-county area, it is primarily for 
veterans who can independently perform activities of daily living and 
who require only limited training in visual skills and orientation and 
mobility, such as traveling within and outside their homes. According 
to a VISOR official, the program is meant to provide training to 
veterans while they wait for admission to a BRC or to veterans who do 
not want to attend a BRC. Veterans who participate in this program are 
housed in hoptel beds \11\ within the medical facility. In fiscal year 
2003, 54 veterans attended the VISOR program; about 20 to 30 percent of 
these veterans were legally blind. According to a VISOR official, there 
is no waiting list for this program and the local medical center 
provides the necessary funding for it.
---------------------------------------------------------------------------
    \11\ A hoptel is temporary lodging where no medical care is 
provided.
---------------------------------------------------------------------------
VICTORS Services
    VICTORS is a 3- to 7-day outpatient program for veterans in good 
health whose vision loss affects their ability to perform activities of 
daily living, such as personal grooming and reading mail. The program 
provides the veterans with a specialized low vision eye examination, 
prescriptions for and training in the use of low vision equipment, and 
counseling. There are three VICTORS programs located in VA medical 
centers in Kansas City, Missouri; Chicago, Illinois; and Northport, New 
York. Veterans are housed in hoptel beds within the medical facility or 
in nearby hotels. In fiscal year 2003, VICTORS served over 900 
veterans; about 25 to 30 percent of these veterans were legally blind. 
According to VICTORS officials, the wait time for admission to VICTORS 
varied from about 55 to about 170 days. The medical center where the 
program is located funds the services.
BROS Services
    BROS are blind rehabilitation outpatient instructors who provide a 
variety of short-term services to veterans in their homes and at VA 
facilities. BROS train veterans prior to and following their 
participation in BRC programs, as well as veterans who cannot or do not 
choose to attend a BRC. BROS training addresses veterans' immediate 
needs, especially those involving safety issues such as reading 
prescriptions or simple cooking. There are 23 BROS throughout VA's 
healthcare system, with 7 located in the VA network that covers Florida 
and Puerto Rico. In fiscal year 2003, BROS trained about 2,700 
veterans, almost all of whom were legally blind. Wait time for BROS 
services varied from about 14 to 28 days according to the BROS we 
interviewed. BROS are funded by the medical centers where they are 
located.\12\
---------------------------------------------------------------------------
    \12\ In connection with VA's fiscal year appropriations for 1995, 
the Senate Committee on Appropriations had recommended including $5 
million for blind rehabilitation services to alleviate the lengthy 
waiting lists for such services. The conference Committee agreed. See 
S. Rep. No. 103-311 (1994), H. Conf. Rep. No. 103-715 (1994). In 
addition to the BROS, these funds were also used to establish a BRC in 
Augusta, Georgia, and additional staff positions for VIST coordinators 
and computer specialists.
---------------------------------------------------------------------------
Outpatient Services Provide Opportunities to Benefit Veterans
    VA officials who provide services to legally blind veterans told us 
that some veterans could benefit from increased access to outpatient 
blind rehabilitation services. We obtained this information by asking 
VA to review all of the veterans who, as of March 31, 2004, were on the 
waiting lists for admission to the five BRCs we visited and to 
determine whether outpatient services could meet their needs. VA 
officials reported that 315 out of 1,501 of these veterans, or 21 
percent, could potentially be better served through access to 
outpatient blind rehabilitation services, if such services were 
available. The types of veterans VA believes could potentially benefit 
from outpatient services include those who are very elderly or lack the 
physical stamina to participate in a comprehensive 28- to 42-day BRC 
program and those who have medical needs that cannot be provided by the 
BRC. For example, some BRCs are unable to accept patients requiring 
kidney dialysis. In addition, some veterans do not want to leave their 
families for long periods of time \13\ and some legally blind veterans 
are primary caretakers for their spouses and are unable to leave their 
homes. VA officials also told us that veterans in good health who can 
independently perform activities of daily living and require only 
limited or specialized training could also be served effectively on an 
outpatient basis.
---------------------------------------------------------------------------
    \13\ A 2003 study of 150 veterans located in the southeastern 
United States who were recommended for BRC training by their VIST 
coordinators but who did not attend, found that 59 percent cited a 
reluctance to leave home for an extended period as an important reason 
for nonparticipation. Williams, M., Help-Seeking Behavior as a 
Predictor of Participation in Department of Veterans Affairs-Sponsored 
Visual Impairment Rehabilitation. A Dissertation (Decatur, GA; 2003).
---------------------------------------------------------------------------
    A VA study concluded that there is a need for increased outpatient 
services for legally blind veterans. In 1999, VA convened a Blind 
Rehabilitation Gold Ribbon Panel to study concerns about the growing 
number of legally blind veterans. The panel examined how VA 
historically provided blind rehabilitation services and recommended 
that VA transition from its primarily inpatient model of care to one 
that included both inpatient and outpatient services. In 2000, VA 
established the VIAB to implement the panel's recommendations. The VIAB 
drafted guidance for a uniform standard of care policy for visually 
impaired veterans throughout VA's healthcare system. This guidance 
outlined a continuum of care to provide a range of services from basic 
low vision to comprehensive inpatient rehabilitation training, 
including use of more outpatient services from both VA and non-VA 
sources. In January 2004, a final draft of the uniform standard of care 
policy was forwarded to VA's Health Systems Committee for approval. The 
Committee believed additional information was needed for its approval 
and requested additional analysis that compared currently available 
blind rehabilitation services with anticipated needs. VA plans to 
complete this analysis in the first quarter of fiscal year 2005 and 
then resubmit the uniform standard of care policy and the additional 
analysis to the Health Systems Committee. VA officials were unable to 
provide a timeframe for the Health Systems Committee's approval.
    Some VIST coordinators have already provided outpatient services to 
legally blind veterans by referring them to state and private blind 
rehabilitation services. For example, in Florida a VIST coordinator 
referred veterans to the Lighthouse for the Blind for computer training 
at its outpatient facility if they did not live near and did not want 
to travel to the BRC. A VIST coordinator in Oklahoma arranged 
contractor-provided computer training in the veteran's home for 
veterans with a 20 percent or more service-connected disability. The 
coordinator issued the computer equipment to a local contractor; the 
contractor then set up the equipment in the veteran's home and provided 
the training. Another VIST coordinator in North Carolina referred all 
legally blind veterans to state service agencies, including veterans 
waiting for admission to a BRC. Each county in that state had a social 
worker for the blind that referred its citizens to independent living 
programs for in-home training in orientation and mobility and living 
skills. The state provided this training at no charge to the veteran 
and VA paid for the equipment.
    Recently, VA has begun to shift computer training from inpatient 
settings at BRCs to private sector outpatient settings. VA's goal was 
to remove from the BRC waiting list by July 30, 2004, those veterans 
seeking admission to a BRC only for computer training. In spring 2004, 
VA issued instructions stating that the prosthetic budget of each 
medical center, which already paid for computer equipment for legally 
blind veterans, would now pay for computer training.\14\ Additionally, 
the Blind Rehabilitation Service Program Office asked BRCs to identify 
all the veterans waiting for admission for computer training and refer 
them back to their VIST coordinator for local computer training. If BRC 
and VIST coordinator staff determined that local computer training was 
not available or appropriate for a veteran, they were to provide an 
explanation to the program office. On May 5, 2004, 674 veterans were 
waiting for admission to a BRC for computer training. As of July 1, 
2004, 520 veterans were removed from the BRC waiting list because 
arrangements were made for them to receive computer training from non-
VA sources or they no longer wanted the training.
---------------------------------------------------------------------------
    \14\ According to VA officials, the funds allocated for prosthetics 
maybe used only for prosthetic care--e.g. purchase of prosthetic items 
and veteran training in the use of these items.
---------------------------------------------------------------------------
    Factors that Affect Expansion of Blind Rehabilitation Outpatient 
Services: There are two factors that affect VA's expansion of 
outpatient services systemwide. One factor is the agency's longstanding 
belief that rehabilitation training for legally blind veterans can be 
best provided in a comprehensive inpatient setting. The second reported 
factor is VA's method of allocating funds for blind rehabilitation 
outpatient services, which provides local medical center management 
discretion to provide funds for them.
    Some VA officials told us that one factor affecting veterans' 
access to outpatient care has been the agency's traditional focus on 
providing comprehensive inpatient training at BRCs. VA has historically 
considered the BRCs to be an exemplary model of care, and since 1948 
BRCs have been the primary source of care for legally blind veterans. 
However, this delivery model has not kept pace with VA's overall 
healthcare strategy that reduces reliance on inpatient care and 
emphasizes outpatient care. VA's continued reliance on inpatient blind 
rehabilitation care is evident in its recent decision to build two 
additional BRCs in Long Beach, California, and Biloxi, Mississippi.\15\ 
We have, however, observed some recent changes that may affect this 
reliance on inpatient services. For example, VA has new leadership in 
its blind rehabilitation program that has expressed an interest in 
providing a broad range of inpatient and outpatient services to meet 
the training needs of legally blind veterans. Further, as previously 
discussed, the VIAB's draft continuum of care policy recommends a full 
range of blind rehabilitation services, emphasizing more outpatient 
care, including VICTORS, VISOR, and BROS.
---------------------------------------------------------------------------
    \15\ See Department of Veterans Affairs Capital Asset Realignment 
for Enhanced Services (CARES): Secretary of Veterans Affairs CARES 
Decisions. (Washington D.C; May 2004).
---------------------------------------------------------------------------
    VA blind rehabilitation officials also told us that they believe 
changes to VA's resource allocation method could provide an incentive 
to expand blind rehabilitation services on an outpatient basis. The 
VIAB believes that the funds allocated for basic outpatient care for 
legally blind veterans do not cover the cost of providing blind 
rehabilitation services. Veterans Integrated Service Networks 
(networks) \16\ are allocated funds to provide basic outpatient care 
for veterans, which they then allocate to the medical centers in their 
regions. Both the networks and the medical centers have the discretion 
to prioritize the use of these funds for blind rehabilitation services 
or any other medical care. Some networks and medical centers have made 
outpatient blind rehabilitation training a priority and use these funds 
to provide outpatient services. For example, the network that covers 
Florida and Puerto Rico has used its allocations to fund seven BROS 
that are located throughout the region to provide outpatient blind 
rehabilitation services to legally blind veterans in their own homes or 
at VA facilities. Currently, the VIAB is working with VA's Office of 
Finance and Allocation Resource Center to develop an allocation amount 
that would better reflect the cost of providing blind rehabilitation 
services on an outpatient basis, which could in turn, provide an 
incentive for networks and medical centers to expand outpatient 
rehabilitation services for legally blind veterans.
---------------------------------------------------------------------------
    \16\ VA has organized its medical facilities into 21 regional 
healthcare networks.
---------------------------------------------------------------------------
Conclusions
    Many legally blind veterans have some vision, which frequently can 
be enhanced with optical low vision devices and training that includes 
learning to perform everyday activities such as cooking, reading 
prescription bottles, doing laundry, and paying bills. Since the 
forties, VA's preferred method of providing training to these veterans 
has been through inpatient services offered by BRCs. Because of its 
predisposition toward inpatient care, VA has developed little capacity 
to provide this care on an outpatient basis uniformly throughout the 
country. For the last 10 years, VA has been transitioning its overall 
healthcare system from a delivery model based primarily on inpatient 
care to one incorporating more outpatient care. Outpatient services for 
legally blind veterans, however, have lagged behind this trend. 
Recently, VA drafted a uniform standard of care policy that recommends 
a full range of blind rehabilitation services, emphasizing more 
outpatient care, including more services provided by VISOR, VICTORS, 
and BROS type programs. Making inpatient and outpatient blind 
rehabilitation training services available to meet the needs of legally 
blind veterans will help ensure that these veterans are provided with 
options to receive the right type of care, at the right time, in the 
right place.
Recommendations
    We are recommending that the Secretary of Veterans Affairs direct 
the Under Secretary for Health to issue, as soon as possible in fiscal 
year 2005, a uniform standard of care policy that ensures that a broad 
range of inpatient and outpatient blind rehabilitation services are 
more widely available to legally blind veterans. Agency Comments:
    We provided a draft of this testimony to VA for comment. In oral 
comments, an official in VA's Office of the Deputy Under Secretary for 
Health informed us that VA concurred with our recommendation.
    Mr. Chairman, this concludes my prepared remarks. I will be glad to 
answer any questions you or other Members of the Committee may have.
Contact and Acknowledgments
    For further information regarding this testimony, please contact 
Cynthia A. Bascetta at (202) 512-7101. Michael T. Blair, Jr., Cherie 
Starck, Cynthia Forbes, and Janet Overton also contributed to this 
statement.

                                 <F-dash>
                Prepared Statement of Hon. Peter Welch,
         a Representative in Congress from the State of Vermont
    Thank you Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
members of the Subcommittee for the opportunity to testify on behalf of 
H.R. 2259, legislation that would permit members of the National Guard 
and Reservists to participate in the successful Benefits Delivery at 
Discharge (BDD) program, which is currently available only to Active 
Duty soldiers.
    I recently had the opportunity to visit Iraq and Afghanistan. That 
trip gave me an even greater appreciation for the significant 
sacrifices our soldiers, including the members of our National Guard, 
must make and must cope with for the rest of their lives.
    It isn't just the soldier who makes the sacrifice, their families 
do as well: their parents, their spouses, their children, girlfriends 
and boyfriends, and their siblings. They give up so much in defense of 
our country.
    It is our job, as Members of Congress, to make sure that our Nation 
lives up to its commitment to our veterans. It is a simple pact we have 
made with our troops--and one we are obligated to fulfill: after they 
have sacrificed to serve our country on the battlefield, we must do all 
we can to serve them here at home. The cost of any war must include 
caring for the warrior.
    Like all Americans, I was stunned by the recent exposure of 
substandard outpatient care at the Walter Reed Army Medical Center. It 
was unimaginable to me that our Nation could treat our veterans with 
such neglect. My legislation takes an important step toward ensuring 
all of our brave veterans are treated better.
    A regularly discharged veteran, who has some level of disability, 
will typically have to wait 6 months before receiving his or her 
disability check from the VA. This is wrong. During this time period, 
veterans, particularly those in a state of mental distress, are most at 
risk for serious problems, including suicide, substance abuse, divorce, 
unemployment or even homelessness.
    To alleviate this problem, soldiers can access a program called 
``Benefits Delivery at Discharge'' (BDD). This successful program 
allows soldiers to process their disability claims up to six months 
prior to discharge, so they can begin receiving benefits as soon as 
they leave the military. VA representatives begin to process the 
disability claims from military personnel prior to their separation/
retirement from active duty, by developing claims and conducting 
physical rating examinations. By getting a head start on the claims 
process, VA representatives may be able to review proposed disability 
rating decisions with participants prior to their separation/retirement 
from service. By comparison, VA's national average processing time is 
about 6 months for claims requiring a disability rating conducted 
outside the BDD process.
    While Reservists and Guardsmen comprise up to 40% of the combat 
forces in Iraq and Afghanistan, this efficient and successful program 
is not readily available to these men and women fighting on our 
frontlines. My state of Vermont has sent about 3,995 soldiers to Iraq 
and Afghanistan since September of 2001. Of that number, 1,976, nearly 
half, are from the Guard and Reserves.
    As this country has asked first class service from our Guard and 
Reservists, we must be sure they are not thanked with second class 
benefits.
    In addition, the veterans benefits claim denial rate is twice as 
high for Reserve and Guard veterans than it is for active duty 
soldiers. A recent document entitled ``Compensation and Benefit 
Activity among veterans deployed to the GWOT'' obtained by the George 
Washington University under the Freedom of Information Act (FOIA) 
details that the Active Duty benefits claims denial rate is 7.6 percent 
compared with National Guard and Reserve denial rate of 17.8 percent.
    Harvard University Professor Linda Bilmes, who has been studying 
the Administration's ability to handle the influx of returning veterans 
and has recently testified before a number of Congressional Committees, 
proposes that one possible explanation for the fact that the Veterans 
benefits claim denial rate is twice as high for Reserve and Guard 
veterans is their lack of access to the BDD program.
    My legislation lifts the impediment on Reserve and Guard veterans 
and allows them to access BDD. Specifically, the bill requires the 
Secretary of Defense and the Secretary of the VA to work together to 
develop a plan that facilitates the use of the BDD program by Reserve 
and Guard veterans. The plan must be submitted to Congress within 6 
months of enactment and must include a description of efforts to ensure 
that services under BDD are provided to the maximum extent possible. 
All veterans, including veterans from all seven reserve components 
(Army National Guard of the United States, Army Reserve, Navy Reserve, 
Marine Corps Reserve, Air National Guard of the United States, Air 
Force Reserve, Coast Guard Reserve), would be able to begin receiving 
benefits as soon as they are eligible upon leaving the military.
    In addition, expanding access to the BDD program further encourages 
the Department of Defense to work with the VA, which is crucial as this 
Congress continues to explore innovative ways to provide a seamless 
transition for our veterans as they move from the DoD to the VA medical 
systems.
    The National Guard has played a vital role in the defense and 
security of the United States under the federal component of its 
mission. They have become integral forces in the Global War On 
Terrorism (GWOT) and Operation Iraqi Freedom (OIF). As I stated 
earlier, the Guard and Reserves comprise up to 40% of the total U.S. 
forces in Iraq and Afghanistan.
    Also due to the war in Iraq and Afghanistan, the Guard and Reserve 
have also shouldered an enormous burden in equipment shortages. A USA 
TODAY report from last Friday found that National Guard units in 31 
States say four years of war in Iraq and Afghanistan have left them 
with 60% or less of their vehicles, aircraft, radios, weapons and other 
equipment they are authorized to have for home-front uses. 49% of the 
Vermont National Guard's equipment, mostly Humvees and M35 trucks, are 
being used overseas. This lack of equipment could affect the Vermont 
Guard's ability to respond to a natural disaster, such as flooding 
which is a big problem for my state. And this is a problem that affects 
more than just my home state. As we saw just last month, horrible 
tornados that ripped through Kansas prompted pleas from the Governor to 
replenish the missing equipment and well-trained personnel.
    Madam Chairwoman, the human cost of the wars in Iraq and 
Afghanistan has been high. More than 1\1/2\ million soldiers have been 
deployed since 2001, more than 3,000 soldiers have died and more than 
50,000 have sustained non-fatal injuries. My state of Vermont has borne 
a disproportionate share of this burden, losing more soldiers per 
capita than any other state. As I have traveled around my state, I have 
talked extensively with our soldiers, our veterans and their families. 
No matter how you feel about this war, we must care for those called on 
to serve.
    For every soldier killed in Iraq and Afghanistan, 16 are wounded, 
the highest wounded-to-fatality ratio for any war in our nation's 
history.
    We can thank the great advances in battlefield medicine for the 
thousands of lives saved, but we must now be prepared to care for 
recovering veterans. This legislation would do just that.
    Again and again throughout our nation's history, we have asked the 
members of the Armed Forces to step forward and serve their country, 
and again and again they have responded with valor. To each of them we, 
as a nation, owe an enormous debt of gratitude. We would not be here 
today, enjoying the freedoms that we now enjoy, if not for their 
courage and sacrifice. I thank them all, on behalf of our great nation, 
for answering the call to duty.
    I thank the Subcommittee for your consideration of this important 
legislation.

                                 <F-dash>

                   State of Vermont, Office of the Adjutant General
                                     Colchester, Vermont 05446-3099
                                                      June 19, 2007
The Honorable Stephanie Herseth Sandlin, Chairwoman
Subcommittee on Economic Opportunity Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, D.C. 20515

Dear Chairwoman Herseth Sandlin:

    I am responding to a specific request for information from 
Representative Peter Welch regarding the need for equal accessibility 
to the Benefits Delivery at Discharge (BDD) program for members of the 
National Guard and Reserves. This topic will be the subject of a 
legislative hearing on Thursday, June 21, 2007.
    As the Adjutant General for the State of Vermont, I strongly 
support initiatives that help provide better services and benefits for 
all members of the Reserve Component (RC) as they transition from the 
Department of Defense (DoD) to the Department of Veterans Affairs (VA) 
medical systems. Considering that members of the RC are exposed to the 
same missions and associated risks while fighting for their country, it 
is only fair that these same veterans should be treated equally with 
access to benefits when compared to their active duty counterparts. 
While we in Vermont have been successful in working with the local VA 
to help returning members of the RC access VA benefits quickly, this 
efficient and successful BDD program is not universally available to 
all Guard and Reserve members around the country on a timely basis. The 
lack of accessibility can result in significant hardship while some 
members wait up to six months to receive a benefit that is readily 
available to the members of the active duty.
    Any changes that can be made to remove impediments imposed on RC 
members and provide equal access to the BDD program would help mitigate 
some significant stress on our affected veterans. Our country continues 
to ask a great deal from our Reservists and making the BDD readily 
available will assist in facilitating a more seamless transition back 
to civilian life.
    Many thanks to the Subcommittee on Economic Opportunity for taking 
a strong interest in ensuring equal benefits and equal accessibility to 
benefits for all of our returning warriors and for helping to 
facilitate a seamless transition when they return home.

            Sincerely,
                                                   Michael D. Dubie
                                Major General, The Adjutant General
                               House Committee on Veterans' Affairs

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud,
          a Representative in Congress from the State of Maine
    Good morning Chairwoman Herseth-Sandlin, Ranking Member Boozman. 
Thank you for allowing me to testify before the Economic Opportunity 
subcommittee on H.R. 2475, the Veteran Home Equity Conversation 
Mortgage Act of 2007.
    I introduced H.R. 2475 with Congresswomen Brown-Waite of Florida to 
provide another tool to our aging veterans to help them live out their 
lives in comfort and security. Our legislation would allow the VA to 
offer home equity conversion mortgages to eligible elderly veteran 
homeowners, age 62 or older.
    A home equity conversion mortgage enables older homeowners to 
convert the equity in their homes into tax-free income without having 
to sell the home, give up title, or take on a new monthly mortgage 
payment. Instead of making monthly payments to a lender, as with a 
regular mortgage, a home equity conversion mortgage converts the equity 
in an individual's home to cash. In other words, the lender makes 
payments to you.
    With the rate of American home ownership at an all-time high, home 
equity conversion mortgages have become a mainstream and highly 
successful financial planning tool for elderly homeowners.
    The Federal Housing Administration (FHA) endorsed 8,041 reverse 
mortgages during the month of April, compared to 6,536 a year earlier. 
Seven months into the current federal fiscal year, FHA has endorsed 
61,101 loans, compared to 39,674 during the same period last year, a 54 
percent increase.
    The intention of H.R. 2475 is to allow the VA to offer reverse 
mortgages in the same way that FHA currently does. Like the FHA 
program, those interested in obtaining this type of mortgage must 
receive significant counseling. The veteran must demonstrate a full 
understanding of the benefits and risks as well as the consequences for 
his or her heirs before being deemed eligible for the loan.
    While our legislation leaves it to the discretion of the Secretary, 
if the Secretary follows current VA home loan regulations, veterans 
would be eligible for a higher available loan limit than the FHA HECM 
loan program, which means more cash to the veteran; and a savings of 
roughly 0.5% in interest rate, because monthly mortgage insurance 
premiums are not required with VA-guaranteed loans.
    Elderly veterans should be offered this valuable tool, which allows 
them to cash-out the equity that they have built-up in their homes over 
20, 30 or 40 years. This will enable them to continue to meet the 
demands of increasing health, housing, and sustenance costs, without 
the risk of losing their home.
    There is almost no risk to the veteran and very little risk for the 
VA. It is truly a win-win opportunity. This legislation will allow more 
veterans to remain in their homes longer without having to take on 
additional monthly bills or face the prospect of losing their home. It 
will help them to enjoy the golden years of their lives.
    Thank again Chairwoman Herseth-Sandlin and Ranking Member Boozman. 
I look forward to working with you on this issue.

                                 <F-dash>
             Prepared Statement of Hon. David G. Reichert,
       a Representative in Congress from the State of Washington
    Madame Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee--thank you for the opportunity to testify today in support 
of H.R. 1632, the Improving Veterans' Reemployment Act. Congressman Tim 
Walz (D-MN) and I introduced this bipartisan legislation to enact an 
important technical fix to the tracking and reporting of reemployment 
complaints filed by Guardsmen and Reservists. Congressman Walz is a 24-
year veteran of the Army National Guard, and has more first-hand 
knowledge of this issue than perhaps any other Member of Congress. You 
will find his supporting testimony in your hearing documents.
    As you know, the Uniformed Services Employment and Reemployment 
Rights Act (USERRA) is meant to ensure that Guardsmen and Reservists 
return to the rights, seniority, and benefits of the civilian jobs they 
put on hold to defend our freedom. After several of my constituents 
informed me of the difficulties they faced in returning to work, I 
wanted to first gather more intelligence on this issue, and then take 
immediate action. I commissioned a GAO study in the FY06 National 
Defense Authorization \1\ to examine how the thousands of Guardsmen and 
Reservists called up to serve in Iraq and Afghanistan were 
transitioning back into the civilian workforce. In conducting the 
study, the GAO reviewed volumes of employer data, assessed current 
agency policies, interviewed department officials, and met with groups 
of officers, enlisted personnel, and veterans. They found that a lack 
of coordination in the reporting of reemployment difficulties is 
hampering our Reservists' seamless transition from active duty back to 
civilian work.
---------------------------------------------------------------------------
    \1\ PL 109-163, Sec. 517.
---------------------------------------------------------------------------
    The study revealed that the Departments of Labor and Defense \2\--
who are responsible for tracking the hiring complaints filed by 
Reservists--currently do not coordinate the sharing of this complaint 
data with each other, compromising their ability to swiftly and 
effectively respond to veterans' job needs. Between Fiscal Years 2004 
and 2006, the departments addressed nearly 16,000 formal and informal 
complaints filed by Guardsmen and Reservists, but the lack of 
information sharing between the departments led to a very small 
percentage of these complaints actually being reported to Congress.\3\ 
This lack of information sharing and coordination prevents Congress 
from receiving the complete, accurate picture of Reservists' hiring 
difficulties that we need in order to best address them.
---------------------------------------------------------------------------
    \2\ The Department of Labor's Veterans' Employment Training Service 
(V.E.T.S.) receives formal reports of USERRA complaints. The Department 
of Defense assigns representatives to assist servicemembers with job 
complaints through its National Committee for Employer Support of the 
Guard and Reserve (E.S.G.R.). The Department of Justice and the Office 
of Special Counsel also have jurisdiction in responding to 
servicemembers complaints, but Labor is charged with submitting the 
annual report to Congress.
    \3\ ``Military Personnel: Additional Actions Needed to Improve 
Oversight of Reserve Employment Issues.'' GAO 07-259, p. 4. February 
2007.
---------------------------------------------------------------------------
    Our bill is straightforward: it would require the Departments of 
Labor and Defense to coordinate their sharing of and reporting on the 
complaint data filed by Reservists facing difficulties being rehired. 
It would require them to use uniform categories in tracking and 
reporting the data. And it would require the departments to 
specifically report on hiring difficulties resulting from service-
connected disabilities. These provisions will enable Congress to better 
identify trends in the reemployment difficulties Reservists face and 
the corrective actions we need to take to ease their transition back 
into the civilian workforce.
    I am encouraged by the steps the Departments of Labor and Defense 
have already taken to improve the reporting of Reservists' hiring 
difficulties, and this legislation is intended to facilitate that 
process. While DoD now mandates the collection of all Reservists' 
employment data, the Department of Labor is enhancing its information 
systems to better manage the data it receives. I am pleased that both 
departments agree with the information tracking and sharing provisions 
that our bill would implement.
    The conflicts in Iraq and Afghanistan have presented our Armed 
Forces with many new challenges, some expected and some unforeseen. As 
Members of the House Veterans' Affairs Committee, you understand the 
importance of providing comprehensive support for all of our 
servicemembers' needs as well as anyone in this chamber. Ensuring that 
our Reservists can easily return to civilian work after their tours of 
duty is one such need. I respectfully urge you to support H.R. 1632, 
which will help our Reservists return to their civilian jobs and enable 
us to better serve all of our men and women in uniform.
    Thank you. I welcome any questions that you have about our 
legislation.

                                 <F-dash>
      Prepared Statement of Ronald F. Chamrin, Assistant Director,
                  Economic Commission, American Legion
    Madam Chairwoman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
view on the several pieces of legislation being considered by the 
Subcommittee today. The American Legion commends the Subcommittee for 
holding a hearing to discuss these very important and timely issues.

H.R. 1750, A bill to amend the Servicemembers Civil Relief Act to 
extend from 90 days to one year after release of a member of the Armed 
Forces from active duty during which the member is protected from 
mortgage foreclosure.

    The American Legion supports this legislation. This legislation 
would greatly assist those veterans that were deployed to a combat zone 
and had little time to transition from active duty to the civilian 
sector. Members of the Reserve components would be the largest 
benefactors of an extension from 90 days to 1 year. Enactment of this 
legislation will allow the veteran an extended period of time to 
correct all their finances and assist them in the transition process.

H.R. 1824, A bill to amend title 38, United States Code (U.S.C.), to 
expand the scope of programs of education for which accelerated 
payments of educational assistance under the Montgomery GI Bill (MGIB) 
may be used.
Section 1
    This bill would enable accelerated payments to be used for courses 
that would lead to employment as an operator of a commercial motor 
vehicle.
    The American Legion supports this provision however, we support 
granting veterans the option to request an accelerated payment of all 
monthly educational benefits upon meeting the criteria for eligibility 
for Montgomery GI Bill (MGIB) financial payments. The selection of 
courses veterans undergo remains exclusively the decision of the 
individual veteran, and all earned veterans' education benefits should 
be made available to veterans in support of their endeavors. 
Accelerated education payments allow veterans to achieve education 
goals in the manner that they decide. Binding the timeframe of an 
education payout may restrict educational options for some veterans.
    In addition to the traditional institutions for higher learning, 
MGIB benefits can be used for training at Non-College-Degree 
Institutions, On-the-Job or Apprenticeship Training, Independent, and 
Distance or Internet training. MGIB also allows the Department of 
Veterans Affairs (VA) to reimburse veterans for the fees charged for 
national tests for admission to institutions of higher learning and 
national tests providing an opportunity for course credit at 
institutions of higher learning. Examples of tests covered are SAT, 
GRE, CLEP, GMAT, LSAT, and so forth. MGIB for veterans, and not those 
eligible under Survivors and Dependents Educational Assistance (DEA), 
is available for Flight Training and Correspondence Training.
    The significance of expanding the scope of accelerated education 
payments is that the preceding categories are eligible for MGIB 
payments, yet excluded from accelerated education payments. The 
American Legion recommends that all MGIB-approved courses, including 
the On-The-Job training (OJT) and Apprenticeship courses, become 
eligible for accelerated education payments.
    The American Legion supports the expansion of Public Law 107-103 to 
include but not limited to:

    1.  Survivors and Dependents Educational Assistance (DEA, or 
chapter 35)
    2.  Post-Vietnam Era Veterans' Educational Assistance program 
(VEAP, or chapter 32)
    3.  Reserve Educational Assistance program (REAP, or chapter 1607)
Section 2
    The exclusion of Benefit Payments under the MGIB from income for 
eligibility determinations for Federal education loans would be 
implemented if this bill were enacted into law.
    The American Legion supports this provision. Enactment of this 
legislation will increase the total amount of federal student aid a 
veteran may receive while concurrently receiving MGIB benefits. This 
will in effect raise the overall potential education benefits.
H.R. 1598, Servicemembers Credit Protection Act
Section 2
TITLE VIII NOTICE OF DEPLOYMENT
      <bullet>  Section 801. Notice of Consumer Reporting Agencies
        This section would require the Secretary of Veterans Affairs to 
notify the deployment of the servicemember within 30 days after the 
deployment and within 30 days after the end of the deployment to each 
consumer-reporting agency that complies and maintains files on 
consumers on a nationwide basis. Furthermore, the Secretary will ensure 
compliance in the timeliness of reporting such required information to 
the consumer reporting agencies.

    The American Legion supports this provision. Efforts to assist the 
servicemember and protecting their credit reporting will allow the 
servicemember to focus on their mission and provide a climate that is 
favorable to the servicemember. Mobilizing Reservists and National 
Guard members have enormous responsibilities for their mission, their 
fellow troops, their families and themselves.
    Many servicemembers and veterans are unaware of benefits and 
protections that are afforded to them. Additionally, the veteran must 
perform certain steps and procedures to receive their maximum benefit 
and protection afforded by law. Filing, following up and responses to 
matters while in a combat zone is extremely difficult. Efforts to 
assist veterans in the transition from civilian life to active duty and 
back again to civilian life will greatly benefit a veteran.

      <bullet>  Section 802. Increase in Penalties for Certain 
Violations Involving Servicemembers Deployed to an Overseas Combat Zone

    The American Legion has no official position on this provision.
Section 3
NOTIFICATION IN CONSUMER FILES OF SERVICEMEMBERS
      <bullet>  Section 605C Combat Zone Duty Alert
        Each consumer agency that receives a report that a 
servicemember is deployed in a combat zone will include a combat zone 
duty alert in the file, provide that alert along with a credit score, 
and exclude the consumer from any list of consumers prepared by the 
consumer reporting agency and provided to any third party. Furthermore, 
a combat zone duty alert will require a summary of the rights of the 
Servicemembers Civil Relief Act and the duties of creditors and other 
persons to be delivered to the consumer. If a person or another 
consumer files adverse information to a consumer reporting agency, and 
the individual is in a combat zone, the reporting agency shall notify 
the adverse reporter of the combat zone duty alert.

    The American Legion supports this provision. This measure aims to 
protect the credit of servicemembers deployed to an overseas combat 
zone by amending The Fair Credit Reporting Act.  Identity theft is an 
ever-increasing reality that can damage ones credit unnecessarily. 
Servicemembers who are fighting overseas usually do not have the time 
or resources to track all of their finances and could therefore be 
victimized more easily by identity theft. Payments on mortgages, cars, 
utilities, credit cards, and so forth. may also be hard for a 
servicemember to keep track of while fighting overseas.

H.R. 1315, a bill to amend title 38, U.S.C., to provide specially 
adaptive housing assistance to certain disabled members of the Armed 
Forces residing temporarily in housing owned by a family member.

    This bill seeks to amend title 38, U.S.C., Section 2102 A, by 
adding a section that would give the Secretary of VA the authority to 
provide specially adaptive housing assistance to members of the Armed 
Forces serving on active duty who are suffering from a disability 
described in subsection (a)(2) or (b)(2) of Section 2101 if the 
disability is a result of injury incurred or disease contracted in or 
aggravated in the line of duty while serving on active duty.

    The American Legion supports the intent, but strongly objects to 
the restrictive language ``in the line of duty.'' This would be 
inconsistent with the current VA policy for awarding of a service-
connected disability rating for an injury or medical condition incurred 
or aggravated while on active duty. The American Legion strongly 
objects to denying veterans severely disabled due to injuries sustained 
while in ``off-duty'' status.

    In the Kobar Towers disaster, the only people ``on-duty'' were 
those servicemembers on the barrack's duty roster as ``CQ'' (in charge 
of quarters). Those asleep were ``off-duty,'' but were injured just the 
same.

    Active-duty servicemembers in transit to and from their duty 
station would also be excluded from this benefit if severely injured.

H.R. 1240, a bill to direct the Secretary of Veterans Affairs to 
establish a scholarship program for students seeking a degree or 
certificate in the areas of visual impairment and orientation and 
mobility.

    The American Legion supports this legislation. Servicemembers are 
returning from the battlefield with vision loss, amputations and 
Traumatic Brain Injury. These veterans are young and have their whole 
lives ahead of them. This bill will help to ensure, that in future 
years, these veterans will have the care and improved quality of life 
that we as a nation should gladly give.

H.R. 675, Disabled Veterans Adaptive Housing Improvement Act

    The Disabled Veterans Adaptive Housing Improvement Act seeks to 
increase the amount of assistance available to disabled veterans for 
specially adapted housing and to provide for annual increases in the 
amount to reflect the increase in cost of residential home 
construction.

    The Specially Adapted Housing Grant is available for disabled 
veterans who are entitled to a wheelchair accessible home especially 
adapted for their needs. These veterans are service connected for total 
and permanent disabilities that include: loss or loss of use of both 
lower extremities; blindness in both eyes and loss or loss of use of 
one lower extremity; loss or loss of use of one extremity and residuals 
of organic disease or injury; and loss or loss of use of both upper 
extremities at or above the elbow. Many of the injured servicemembers 
may temporarily reside for extended periods of time with family members 
providing assistance during rehabilitation after combat-related 
injuries that result in permanent and total service-connected 
disabilities.

    The American Legion supports the provisions of this bill and 
strongly recommends that the current maximum for this program be 
increased to reflect the increase in the residential cost of 
construction index. Currently, the program authorized a maximum amount 
of $50,000 for this grant--which can be used up to three times. A 
temporary grant of $14,000 for veterans residing temporarily in a home 
owned by a family member is also available. The cost of construction 
material and labor will increase and the grants should be adjusted 
regularly to reflect the increase.

H.R. 513, National Heroes Credit Protection Act

    This bill would create a protection of Credit Ratings of Persons 
Activated for Military Service and provide a protection of negative 
reporting while they are on active duty. A negative report of 
nonpayment or late payment will have a notation that the account is 
delinquent or paid slowly due to military service. Furthermore, a 
future potential creditor shall disregard any negative information so 
noted in the credit report that is due to military service.
    The American Legion supports this provision. Supporting the troops 
includes ensuring that they are solely focused on their mission at hand 
while on active duty. The majority of National Guard and Reserve troops 
that are called to active duty are deployed to a combat zone such as 
Iraq or Afghanistan and have little or no opportunity to review their 
finances, credit scores, and other matters while deployed. 
Additionally, many young servicemembers are unaware of many best 
financial practices, protections, and benefits afforded to them. 
Enactment of this legislation will be beneficial to servicemembers and 
veterans.
    H.R. 2259, a bill to ensure that members of the National Guard and 
Reserves are able to fully participate in the benefits delivery at 
discharge program is extremely important to ensure the financial, 
psychological, and physical well-being of our Nations heroes. We do 
note the absence of any mention of the Department of Labor's Veterans' 
Employment and Training Service (DOL-VETS) and feel that it is an 
integral member of the transition process. This legislation would 
require the Secretaries of the VA and Department of Defense (DoD) to 
jointly submit to Congress a plan to maximize access to the benefits 
delivery at discharge.
    The American Legion supports this bill.
    The American Legion strongly supports the Transition Assistance 
Program and Disabled Transition Assistance Program. Additionally, The 
American Legion supports that DoD require all separating, active-duty 
servicemembers, including those from Reserve and National Guard units, 
be given an opportunity to participate in Transition Assistance Program 
and Disabled Transition Assistance Program training not more than 180 
days prior to their separation or retirement from the Armed Forces.

H.R. 2475, Veteran Home Equity Conversion Mortgage Act of 2007

    A bill to amend title 38, U.S.C., to authorize the Secretary of 
Veterans Affairs (VA) to guarantee home equity conversion mortgages for 
elderly veteran homeowners.
    The American Legion has no official position on this bill.

H.R. 1632, Improving Veterans' Reemployment Act of 2007

    A bill to amend title 38, U.S.C., to improve the annual report 
required on veterans' reemployment rights by requiring a report by the 
Labor Secretary of the number of cases reviewed by the Department of 
Labor, cases referred to the Attorney General, and complaints filed by 
the Attorney General. It also requires a report of the number of cases 
reviewed by the Secretary of Defense under the National Committee for 
Employer Support of the Guard and Reserve of the Department of Defense 
(ESGR). Of all these reports, the number of cases that are disability-
related must also be filed.
    The American Legion supports these provisions. The American Legion 
also supports the strongest veterans' preference laws possible at all 
levels of government. We believe that the evidence compiled in this 
report will show the current state of enforcing the Uniformed Services 
Employment and Reemployment Rights Act (USERRA) and Veterans' 
Preference laws to the nation's veterans.
    The American Legion is deeply concerned with the protection of the 
veteran and the prevention of illegal and egregious hiring practices. 
Currently, veterans are filing claims after the non-compliance 
employment event occurred and therefore may become financially 
disadvantaged. Concurrent measures and continuous oversight must be 
emplaced to protect veterans from unfair hiring practices, not just 
reactionary investigations.
    The following paragraphs are the perceived steps taken by the 
Federal government to protect veterans' employment and it demonstrates 
reactionary measures to assist veterans that may take months to 
resolve. Many veterans give up or do not file complaints because they 
must seek employment elsewhere or face serious financial difficulties.
    The Office of Personnel Management (OPM) administers entitlement to 
veterans' preference in employment. The Department of Labor, through 
the Veterans' Employment and Training Service (VETS), provides 
assistance to all persons having claims under USERRA. The Department of 
Labor is the enforcement authority for USERRA, and it processes all 
formal complaints of violations of the law. The veteran may then 
request that the Department of Justice litigate on their behalf but 
only after a certain period has passed.
    The following excerpt is from the Department of Justice website:

          ``If VETS is unsuccessful in resolving the complaint, the 
        claimant may request that VETS refer the complaint to Office of 
        Special Counsel (OSC). If the Special Counsel believes there is 
        merit to the complaint, OSC will initiate an action before the 
        Merit Systems Protection Board (MSPB) and appear on behalf of 
        the claimant.

          ``The DOJ is responsible for enforcing the provisions of the 
        USERRA against state and local government employers and private 
        employers. If the Department of Justice takes your case, it 
        will serve as your attorney if you work for a private employer 
        or a local government. If you work for a state government, the 
        Department of Justice may bring a lawsuit in the name of the 
        United States.''

    The Department of Justice website continues to state:

          ``USERRA authorizes the Department of Justice Office of 
        Special Counsel (OSC) to investigate alleged violations of the 
        act by Federal Executive Agencies, and to prosecute meritorious 
        claims before the Merit Systems Protection Board on behalf of 
        the aggrieved person. Under the Veterans Employment 
        Opportunities Act 1998 (VEOA), in order to seek corrective 
        action, a preference eligible [veteran] is to file a written 
        complaint with the U.S. Department of Labor, Veterans 
        Employment and Training Service (VETS), within 60 days of the 
        alleged violation. If the Secretary is unable to resolve a 
        complaint within 60 days, the Secretary is to provide 
        notification of an unsuccessful effort to resolve the complaint 
        to the complainant.'' (Department of Justice, www.usdoj.gov)

    The American Legion reiterates our position that protection of 
veterans' employment rights should be concurrent and continuous 
oversight must be emplaced to protect veterans from unfair hiring 
practices, not just reactionary investigations and lawsuits. We further 
state that the veteran must be protected at the onset of the hiring 
process, especially because corrective actions to remedy the veteran's 
plight is not guaranteed.
    Finally, we recommend to this Subcommittee that the Department of 
Justice provide a detailed description of their veterans' employment 
activities.

H.R. 112, G.I. Advanced Education in Science and Technology Act

    A bill to amend title 38, U.S.C., to provide for the payment of 
stipends to veterans who pursue doctoral degrees in science and 
technology.
    The American Legion supports this provision, however, we feel that 
a monthly tax-free subsistence allowance indexed for inflation must be 
part of all educational assistance packages.
    The American Legion agrees with the intent of H.R. 112 in that it 
allows for members of the Armed Services and veterans to receive 
enhanced educational benefits more in line with today's needs. While 
this legislation is aimed toward the active duty force (MGIB chapter 
30), The American Legion supports legislation that will allow 
Reservists to earn credits for education while mobilized, just as 
active-duty troops do, and then use them after they leave the military 
service.
    In addition to the positive measures that the bill encompasses, The 
American Legion feels that all veterans be treated equally regardless 
of their Reserve/National Guard status in such that an individual who 
was called to duty and served honorably should not have to remain in 
the selected reserve to use their earned benefits. We support a Total 
Force GI Bill and major enhancements to the current MGIB that would 
entail, amongst other items, that all Reservists and National Guard 
members are able to use their MGIB benefits for up to ten years after 
separation regardless of disability status and if their enlistment 
contract expires.

H.R. 2579, a bill to amend title 38, U.S.C., to authorize the use of 
funds in the VA readjustment benefits account and funds appropriated 
for such purpose to provide funding for State Approving Agencies (SAA).

    The American Legion has no official position on the mechanism of 
funding State Approving Agencies. However, The American Legion fully 
supports reauthorization of SAA funding.
    Section 301 of Public Law 107-330 created increases in the 
aggregate annual amount available for state approving agencies for 
administrative expenses from FY 2003-FY 2007 to the current funding 
level of $19 million. The American Legion believes this is totally 
inadequate, especially for a nation at war, and strongly recommends 
keeping SAA funding at $19 million in FY 2008 to assure current 
staffing and activities.

H.R. 1370, a bill to amend title 38, U.S.C., to establish in the 
Department of Veterans Affairs an Office of National Veterans Sports 
Programs and Special Events.

    The American Legion fully supports this legislation. Returning 
servicemembers, particularly those who incur service-related 
disabilities, are already benefiting from participating in sporting 
activities as they readjust to civilian life. This can be most readily 
seen in the area of adaptive sports therapy for the severely wounded. 
Whether it has been kayaking, horse riding or adaptive cycling or 
skiing, sports programs are making an immeasurably positive impact in 
how they improve the quality of life for returning servicemembers and 
veterans.
CONCLUSION
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain servicemembers into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. The Servicemen's 
Readjustment Act 1944, the ``GI Bill of Rights'' is a historic piece of 
legislation, authored by Harry W. Colmery, Past National Commander of 
The American Legion, that enabled millions of veterans to purchase 
their first homes, attend college, obtain vocational training, and 
start private businesses.
    The legislation discussed today aims to better serve veterans and 
ultimately assists them in financial stability. The American Legion 
commends the Subcommittee for addressing these important issues.
    The American Legion appreciates the opportunity to present this 
statement for the record.

                                 <F-dash>
    Prepared Statement of Charles Huebner, Chief, U.S. Paralympics,
                    United States Olympic Committee
    Good afternoon Madam Chairwoman and members of the subcommittee. My 
name is Charles Huebner and I am the Chief of U.S. Paralympics, a 
division of the United States Olympic Committee which is headquartered 
in Colorado Springs, Colorado. I appreciate the opportunity to testify 
on H.R. 1370, the bill that would establish within the Department of 
Veteran's Affairs an Office of National Veterans Sports program and 
Special Events that would work with the United States Olympic Committee 
in support of certain programs directed at disabled veterans.
    By way of a brief background, the USOC is an organization chartered 
by Congress through what was is now known as the Ted Stevens Olympic 
and Amateur Sports Act. In 1998, Paralympic terminology was added to 
the Act, giving the USOC the additional mandate by Congress to 
implement a Paralympic program for the United States. Paralympic 
activity is sports for physically disabled athletes, and the Paralympic 
Games are held approximately two weeks after the Olympic Games and at 
the same Olympic venues. The Paralympic Movement began shortly after 
World War II utilizing sports as a form of rehabilitation for injured 
military personnel returning from combat. The Paralympic Games have 
become the second largest global sporting event behind the Olympic 
Games with more than 130 Countries and 4,000 physically disabled 
athletes expected to participate in the 2008 Paralympic Games.
    Because this new Congressional mandate to implement a Paralympic 
program for the United States was not funded, it took some time to 
build an effective Paralympic organization. The USOC has now, however, 
built an organization that employs over twenty people operating with a 
budget of more than $10 million annually, all of these funds, of 
course, from private sources.
    Three years ago, recognizing the growing number of U.S. military 
personnel returning home with physically debilitating injuries, and 
utilizing our experience and expertise with sport for the physically 
disabled, we launched the USOC Paralympic Military program that 
introduced Paralympic sport to these men and women as a tool for their 
rehabilitation and a vehicle for their return to an active lifestyle. 
Components of the Paralympic Military program include national training 
of community leaders to implement Paralympic sport; clinics and mentor 
visits at military and VA installations; development of local 
community-based programs in targeted markets that have military or VA 
installations, and; ``Paralympic Military Sports Camps,'' conducted at 
our Olympic Training Centers in Colorado Springs and Chula Vista, 
California. The Military Sports Camps provide an introduction to 
Paralympic Sport, but also the introduction of Paralympians that serve 
as mentors to injured military personnel and veterans. Each of these 
camps has involved more than three dozen active duty and veteran 
military personnel, and their success is attested to by the 
participants as well as various media outlets including USA Today and 
the New York Times, which have published major features on them.
    Despite the success of this and similar programs directed at 
wounded and disabled active duty and veteran military personnel, we 
recognize that there is much more that we can and should do. I want to 
emphasize that we are and will continue to engage in these activities 
because injured military personnel are the soul of the Paralympic 
movement. And when I speak of the Paralympic movement, I am not talking 
about an exclusive number of persons that will make future Paralympic 
teams, I am speaking of a movement and individuals with physical 
disabilities that are educated, employed, active in their communities, 
promote excellence, ability and inspire Americans to achieve and 
overcome obstacles. However, it is likely that by 2008, there will be 
one or more former servicemembers that will qualify to represent their 
country again at the Paralympic Games. And that will be a great 
achievement and story for America, and the American people.
    As successful as the Paralympic Military Sports Camps have been we 
have only scratched the surface and want to do more. Currently there is 
a significant lack of Paralympic Community-based programs throughout 
the United States. We have been most fortunate in developing a very 
positive and productive working relationship with the Department of 
Veterans Affairs with which we concluded a Memorandum of Understanding 
in November 2005. Since then we have collaborated on certain activities 
but have been limited financially and programmatically. We believe that 
this legislative proposal to establish an Office of National Veterans 
Sports Programs and Special Events, accompanied by supportive funding, 
would serve as a vehicle for the VA and USOC jointly to serve a larger 
universe of veterans for whom Paralympic sport would serve as a 
valuable rehabilitation activity to reintegrate into communities with 
family members and friends. We would envision an expansion of 
Paralympic Community-Based programs to target a larger number of 
veterans and their families, and create similar programs at community 
facilities of some of our Paralympic partners such as the Lakeshore 
Foundation in Birmingham, Alabama, and in the City of Colorado Springs, 
Colorado, the home of Fort Carson, where a Paralympic Community-based 
programs does not exist currently. These programs would be community 
extensions at various VA facilities that are identified in 
collaboration with our partners at the Veterans Administration.
    This legislation, and the interest of this Subcommittee that is 
giving this proposal a hearing, is testimony to the need of veterans 
for activities and programs that enable them to return to a full and 
active life. The United States Olympic Committee, through its 
Paralympic Division, wants to be an active participant in serving a 
most deserving segment of our population. We have learned that these 
various Paralympic sport programs, whether they be the USOC's, the 
Department of Veterans Affairs', or those of Disabled Sport USA which 
is ably led by Kirk Bauer, make a positive difference in the lives of 
those who are being served. We are confident that the expertise that we 
have developed in Paralympic sport can be a valuable component in an 
effort in which there are many different parts, and believe that the 
proposal contained in this legislation will better enable us to be of 
meaningful service.

                                 <F-dash>
                Prepared Statement of Brian E. Lawrence,
                Assistant National Legislative Director,
                       Disabled American Veterans
    Madame Chair and Members of the Subcommittee:
    I am happy to appear before you to present the views of the 
Disabled American Veterans (DAV) on the various bills under 
consideration today. In accordance with its congressional charter, the 
DAV legislative mission is focused on benefits and services provided to 
veterans on account of their service-connected disabilities. We are 
therefore pleased to support the bills insofar as they fall within that 
scope. The DAV has no mandate from its membership on issues addressed 
within H.R.112, H.R. 513, H.R. 1240, H.R. 1598, H.R. 1632, H.R. 1750, 
H.R. 1824, H.R. 2475, and H.R. 2579, but we have no objection to their 
favorable consideration.
H.R. 675
    The Disabled Veterans Adaptive Housing Improvement Act would amend 
Section 2101 of title 38, United States Code, to increase the specially 
adapted housing grant from $50,000 grant to $60,000, and increase the 
$10,000 grant to $12,000. Additionally, the bill would provide for 
automatic annual adjustments based on the national average increase in 
the cost of residential home construction. The purpose of this grant is 
to enable severely disabled veterans to construct, purchase, or remodel 
homes with structural features to accommodate special needs. The grant 
was last increased by Public Law 108-183, enacted December 16, 2003. 
Because the cost of construction has risen over the past 4\1/2\ years, 
the current $50,000 maximum amount is insufficient to allow severely 
disabled veterans to make all necessary adaptations and modifications.
    During the most recent DAV National Convention, our members voted 
to again adopt a long standing resolution calling for legislation which 
would provide a realistic increase in the specially adapted housing 
grants, and would provide for automatic annual adjustments based on 
increases in the cost of living. Our resolution coincides with the 
recommendations of The Independent Budget (IB), which is a budget and 
policy document that sets forth the collective views of the DAV, 
AMVETS, the Paralyzed Veterans of America, and the Veterans of Foreign 
Wars of the United States. Therefore, we urge that the proposals 
contained in H.R.675 be favorably acted upon by the Subcommittee.
H.R. 1315
    This bill would amend Section 2102A of title 38, United States 
Code, to provide specially adaptive housing grants to disabled members 
of the Armed Forces residing temporarily in housing owned by a family 
member. Public Law 108-454, enacted December 10, 2004, authorized VA to 
provide specially adapted housing grants of up to $10,000 to eligible 
disabled veterans residing temporarily in housing owned by a family 
member. H.R. 1315 extends eligibility to members of the Armed Forces.
    The DAV supports this measure; however, we recommend that the 
amount used in the adaptation of the family member's residence should 
be added to the aggregate amount to which the veteran is entitled. In 
most instances, severely disabled veterans residing with a family 
member will eventually seek to establish his or her own permanent 
residence. In such instances, the maximum amount should be available to 
the veteran regardless of whether he or she received a previous grant 
for the alteration of a family member's home.
H. R. 1370
    The Disabled Veterans Sports and Special Events Promotion Act of 
2007 would establish a Department of Veterans Affairs (VA) Office of 
National Veterans Sports Programs and Special Events, to carry out and 
promote programs for the participation of disabled veterans in approved 
sporting and other events. The bill would authorize VA to provide a 
monthly assistance allowance to service-connected disabled veterans 
participating in an event sanctioned by the U.S. Olympic Committee 
(USOC) or residing at a USOC training center. The amount of the monthly 
assistance would be equal to the monthly amount of subsistence 
allowance that would be payable to the veteran under chapter 31 of 
title 38, United States Code. The bill would require VA to establish a 
memorandum of understanding (MOU) with the USOC under which the VA 
would provide support and reimbursement for USOC expenditures for the 
military paralympic program. Additionally, the bill would authorize an 
appropriation of $2 million each fiscal year to carry out the 
activities of the Office of National Veterans Sports Programs and 
Special Events.
    The VA, along with the DAV and several other veterans' service 
organizations as cosponsors, hosts annual national rehabilitative 
special event programs for veterans receiving healthcare from VA 
medical facilities. These four programs, which include the National 
Disabled Veterans Winter Sports Clinic, National Veterans Wheelchair 
Games, National Veterans Golden Age Games, and the National Creative 
Arts Festival, focus on rehabilitation and enhancement of the physical, 
social, and emotional well-being of many severely disabled veterans. 
These programs showcase the therapeutic value of sports, fitness, and 
recreation, which are key factors in VA's extensive rehabilitation 
programs, and are profoundly beneficial in helping veterans overcome or 
mitigate the physical and emotional impact of severe disabilities.
    In addition to supporting rehabilitative events through 
cosponsorship, the membership of the DAV has adopted a resolution 
calling on Congress to provide a separate line-item appropriation in 
the VA budget to ensure the continuance of these worthy programs. 
Therefore, we are pleased with the comparative intent of this 
legislation. Adequate resources designated specifically for the special 
events office would eliminate the VA's need to raise funds and allow it 
to focus exclusively on rehabilitation and therapy for disabled 
veterans. The responsibility for raising additional funds can and 
should be left to the co-sponsors.
    Along with our support of this draft bill, we encourage the 
Subcommittee to include language to place the special events office 
under the Veterans' Health Administration (VHA). Currently, the 
programs are under the authority of the VA Office of Public Affairs and 
the VHA is almost completely removed from administrative decisions. 
Though the Public Affairs Office certainly has a role to play, the 
ultimate purpose of these special events is to provide rehabilitative 
therapy to severely disabled veterans. Since VHA is the department 
responsible for providing such care, it should be the designated 
controlling authority for the four rehabilitative programs mentioned 
above. As the administrative authority, the VHA should be required to 
develop a comprehensive MOU with cosponsors, and to provide detailed 
accountability for all special events office funds, including 
cosponsorship fees. Without such financial support from the DAV and 
other cosponsors, substantially fewer disabled veterans would benefit 
from these uplifting special events. Therefore, cosponsors should be 
allowed at least some level of input regarding the programs.
    The DAV applauds the Subcommittee for recognizing the value and 
importance of National Disabled Veterans Sports Programs and Special 
Events, and for having the foresight to ensure they are available to 
severely disabled veterans in the future. The DAV supports this 
commendable bill and hopes the Subcommittee will consider our 
suggestions for improvement.
H.R. 2259
    This bill would ensure that members of the National Guard and 
Reserves are able to fully participate in the benefits delivery at 
discharge (BDD) program administered jointly by the Department of 
Defense and the VA to provide information and assistance on available 
benefits and other transition assistance to members of the Armed Forces 
who are separating from the Armed Forces. BDD improves service for 
separating servicemembers by eliminating lengthy delays in claims 
decisions and redundant and unnecessary physical examinations. BDD 
takes pressure off overly burdened VA Regional Offices that already 
face backlog problems. Rating decisions adjudicated via the BDD program 
are generally more accurate and appealed less frequently than those 
processed via regular claims procedures. The DAV strongly recommends 
that BDD be expanded and made available to every person retiring or 
separating from active duty.
    Madame Chair and Members of the Subcommittee, the DAV appreciates 
the opportunity to present our views on these bills. We look forward to 
our continued work with the Subcommittee to serve our Nation's disabled 
veterans and their families.

                                 <F-dash>
               Prepared Statement of Ray Kuntz, Chairman,
      American Trucking Association, and Chief Executive Officer,
          Watkins and Shepard Trucking, Inc., Helena, Montana
INTRODUCTION
    Good afternoon Madame Chairwoman Herseth-Sandlin, Ranking Member 
Boozman and members of the Subcommittee. My name is Ray Kuntz, Chairman 
of the American Trucking Associations, Inc. and CEO of Watkins & 
Shepard Trucking, Inc. I appreciate the opportunity to appear here 
again before the Subcommittee on behalf of ATA to voice our continued 
support for the intent of H.R. 1824: to expand the scope of programs of 
education eligible for accelerated payments under the Montgomery GI 
Bill. ATA commends Representative Michaud for re-introducing this 
important piece of legislation. We look forward to working with Mr. 
Michaud, and the Subcommittee to explore ways to enhance the bill so as 
to realize its goal of improving veterans' access to the accelerated 
benefit payment program, particularly as it relates to training U.S. 
veterans to driver commercial vehicles.
    As a matter of background, the American Trucking Associations Inc., 
the national trade association for the trucking industry, is a 
federation of affiliated state trucking associations, conferences and 
organizations that include nearly 38,000 motor carrier members 
representing every type and class of motor carrier in the country.
TRUCKLOAD DRIVER SHORTAGE ISSUE
    Madame Chairwoman, when I appeared before this Subcommittee 
regarding this legislation two years ago I stated that the long-haul 
truckload sector of the truck transportation industry annually 
experiences critical workforce challenges. I would submit here today 
that this situation has not significantly changed since 2005. Although 
shortages for this particular sector ebb and flow according to market 
demands, the driver shortage for the long-haul truckload industry 
segment still remains and is expected to worsen in the years ahead.
    In the next ten years, ATA expects the economy and trucking to grow 
by 30%.\1\ As a result, the demand for long-haul, heavy-truckload 
services will increase--with the long-haul truckload sector expected to 
transport 3.3 billion more freight tonnage over this ten year time span 
than it does today.\2\
    Over the same period, economic growth will give rise to a need for 
a 2.2% average annual increase in the number of long-haul truckload 
drivers, or the creation of 320,000 additional jobs overall.\3\ At 
least another 219,000 new truckdrivers must be found to replace drivers 
currently of ages 55 and older who will retire over the next 10 years. 
Combining these two figures places total expansion and replacement 
hiring needs of the heavy-truckload sector at 539,000 or an average of 
about 54,000 drivers per year through 2014.\4\
---------------------------------------------------------------------------
    \1\ ATA, Economic & Statistics Group, U.S. Freight Transportation 
Forecast to . . . 2017, 2006.
    \2\ Ibid
    \3\ Global Insights: U.S. Truckdriver Shortage: Analysis and 
Forecast, May, 2005
    \4\ Ibid
---------------------------------------------------------------------------
CHALLENGES TO RECRUITING QUALIFIED TRUCKDRIVERS
    As I have testified previously, there are several challenges to 
recruiting long-haul truckload drivers. One particular challenge is the 
fact that the truck driving industry is heavily regulated by the 
Department of Transportation, through the Federal Motor Carrier Safety 
Administration. For safety reasons, which we support, the Agency places 
many restrictions on motor carriers regarding the type of individual 
that they can and cannot hire to drive a truck. Additionally, the 
insurance companies that underwrite carriers, can place even more 
restraints on a company regarding who they can hire as a truckdriver. 
Through my own personal involvement with Watkins & Shepard's truck 
driving school, I can tell you that often times, truck driving schools 
have to reject more applicants than they can actually enroll, despite 
the driver shortage.
    For example, my company's trucking school, in the last year, 
received 1000 applications for truck driving jobs. From that total we 
were able to train and/or hire 58 qualified individuals. Put another 
way, last year, we were only able to train and/or hire less than 6% of 
the individuals who applied.
ATA & INDUSTRY EFFORTS TO ADDRESS THE LONG-HAUL TRUCKLOAD DRIVER 
        SHORTAGE
    ATA, its member motor carriers and its state trucking associations 
have been pro-active on several fronts to address these recruiting and 
training challenges. In the 2005 highway re-authorization bill, ATA 
actively sought and gained funding for a new FMCSA grant program to 
specifically train more commercial motor vehicle drivers. The grant 
program, funded at $5 million over the five years subsequent to the 
highway bill's enactment, is administered and awarded by the FMCSA on a 
competitive basis. Public, private and motor carrier training schools 
are eligible to apply for the grant for purposes of making driver 
training more affordable to more students.
    To more effectively assist in the driver recruitment effort, ATA's 
Board of Directors allocated $700,000 in October, 2005 for the 
development of the association's National Truckdriver Recruiting 
Campaign. The campaign, which was launched in early 2007, is a 
nationwide effort to promote positive images of truck driving and to 
recruit long haul truckdrivers for ATA's 50 state associations and 
their member motor carriers. ATA made matching funds available to 
interested state associations for them to purchase driver recruitment 
advertising media. Television, radio, outdoor advertising and decal 
programs are examples of what some states are using to serve as 
vehicles to promote www.GetTrucking.com. The advertising campaign 
directs new candidates, current truckdrivers, motor carriers and 
trucking schools to the website. GetTrucking.com's website has two 
functions: the first is to match new candidates with motor carriers or 
truck schools, and the second is to provide a job board for current CDL 
holders and motor carriers.
    In efforts to make tuition more affordable for students, motor 
carrier schools often subsidize or even pay the total amount of a 
student's truckdriver training. In turn, the student agrees to work for 
the carrier for a specified time. Others agree to work for the carrier 
and repay all of or a portion of the tuition. Several ATA carriers, 
including my own, operate their own driver training and driver 
finishing schools. However, according to a recent ATA poll of the 
membership, fewer than 15 of our member companies currently operate 
their own truckdriver training schools. As a result, our remaining 
carriers without their own driver training schools, rely exclusively on 
public and private truckdriver training schools for entry-level 
training of new, qualified commercial vehicle drivers.
    Commercial vehicle driver training is essential and must be taught 
by a reputable truck driving school in order for the driver to obtain 
the knowledge and skills to successfully pass both the written and 
road-testing requirements of the commercial drivers licensing test. A 
company will not hire a driver, nor are any civilian individuals 
legally able to drive a commercial motor vehicle without a valid, 
state-issued CDL.
CONGRESS NEEDS TO EXPAND THE SCOPE OF EDUCATIONAL PROGRAMS ELIGIBLE FOR 
        MGIB CHAPTER 30 ACCELERATED PAYMENT BENEFITS
    Madame Chairwoman and members of the Subcommittee, for the past six 
years, an estimated 300,000 service men and women annually transition 
from Operation Enduring Freedom and Operation Iraqi Freedom to the 
civilian sector.\5\ Of this population, the Department of Defense \6\ 
statistics indicate that 54,000 Army and 24,000 Marine military 
personnel per year transition out of the military with significant 
transportation experience.
---------------------------------------------------------------------------
    \5\ American Legion, Testimony on H.R. 1824, May 3, 2007
    \6\ DoD, Department of the Army, 2006, Department of the Marines, 
2006.
---------------------------------------------------------------------------
    Just like moving armies and fleets, transporting goods across the 
country requires monumental logistical efforts and excellent driving 
skills. For transitioning veterans with military occupational 
specialties in these areas, professional truck driving may be a natural 
career path. Although many of these veterans may have experience 
operating large trucks in the Armed Forces, this experience does not 
readily translate to a civilian CDL. Additional education is usually 
needed to further train these individuals on: basic civilian truck 
operations, FMCSA regulations; newer, onboard truck technologies; and, 
on specific state and motor carrier road skills testing and 
requirements.
    As ATA has previously testified, the current MGIB system of 
educational assistance for transitioning military personnel and 
veterans is an inefficient funding mechanism for truckdriver training 
programs. ATA believes that H.R. 1824, if enacted, would go a long way 
toward fixing this particular funding problem and could potentially add 
a significant number of qualified veterans to the demand-driven, labor 
pool of commercial vehicle truckdrivers. As currently written, this 
legislation would add commercial truck driving schools to the list of 
educational/training institutions eligible for the accelerated payment 
program under chapter 30 of the Montgomery GI Bill. However, according 
to the Department of Veterans Affairs, adding truckdriver training 
school to the MGIB's list of educational programs eligible for 
accelerated benefits would be cost-prohibitive.\7\
---------------------------------------------------------------------------
    \7\ Daniel Cooper, Undersecretary for Veterans' Affairs Benefits, 
Prepared Testimony before the Senate Oversight Hearing on VA Benefits, 
May 9, 2007.
---------------------------------------------------------------------------
    Madame Chairwoman, I have reviewed the VA's list of approved 
educational programs that are eligible for accelerated benefits payment 
assistance. ATA applauds the VA for encouraging veterans to enter high-
technology career. We believe, however, that many of the approved 
courses of study on this list do not accurately reflect today's market-
driven career demands and/or opportunities. We would also like to point 
out that this eligibility list, developed in 2002 by the Bureau of 
Labor Statistics and the National Science Foundation for the VA 
Department, was done absent any specificity or direction from Congress. 
Further, ATA contends that many of the educational programs on the VA's 
accelerated benefit payment's eligibility list are two to four year 
degree courses that can be appropriately funded through the traditional 
monthly MGIB educational benefit payment process.
ATA RECOMMENDATIONS FOR ENHANCING H.R. 1824
    ATA believes that returning service men and women should be 
encouraged to pursue careers in well-paying occupations that will 
contribute most to the U.S. economy. The Department of Labor has 
identified 14 industry sectors that are expected to add large numbers 
of new jobs or require new job training to meet the demands of the 21st 
century's economy which include transportation, hospitality, financial 
services and homeland security. Many training programs in these high-
growth industry sectors are short term and high-cost in nature, like 
truckdriver training schools. However, truckdriver training and these 
other high-growth industry training programs, are excluded from 
receiving MGIB accelerated benefit payments because they do not qualify 
under the VA's definition of ``high technology'' educational programs.
    ATA recommends that Congress consider amending P.L. 107-103, which 
authorizes accelerated benefit payments, to refocus the program and 
better define its scope.
    Due to the cost of expanding the accelerated benefit payment list 
beyond what is currently prescribed by the VA, ATA suggests that the 
VA-approved list of programs eligible for educational assistance either 
be replaced or revised. Subsequently, any newly developed list should 
be an accurate reflection of jobs in industry sectors, such as truck 
driving, that: (1) are expected to add large numbers of new, well-
paying jobs to the U.S. economy and (2) require educational career 
training that is truly high-cost and short term in nature.
    If further cost-savings must be realized, ATA recommends that 
Congress limit the length of training eligible for funding through the 
MGIB accelerated benefit payment program to one year or less. Most two 
year or four year degree educational programs may not fall within the 
original intent of the MGIB accelerated benefit program--to improve the 
affordability of relatively high cost, short term programs.
    Madame Chairwoman and members of the Subcommittee, not all veterans 
are college-bound. Accelerating the educational benefits available 
through the MGIB for a high-growth industry training program, such as 
truck driving, would allow veterans to complete an educational program 
with immediate employment results, without incurring short-term debt. 
Such a move would also make it possible for veterans, transitioning 
from the military or otherwise, to more readily support a family than 
if they were to enroll in a two-four year educational course.
    For those individuals, like our Nation's veterans who are willing 
to work, are careful, safe and responsible, the trucking industry 
offers them a wonderful opportunity. In as little as two to three 
months, upon completion of truck driver training and by successfully 
passing a state commercial drivers' license test, a veteran can be 
gainfully employed as a long haul truckload driver with a high quality 
trucking company, making an entry-level salary of approximately $40,000 
a year, with benefits. This figure does not include potential ``sign-
on'' or other bonuses that some trucking companies use to attract and 
recruit new drivers. Additionally, as truck transportation is the 
lifeblood of our Nation's economy, truck driving jobs are not likely to 
experience ``downsizing'' nor will they be ``outsourced.''
CONCLUSION
    In closing Madame Chair, I would like to reiterate ATA's support 
for the legislative intent of H.R. 1824. However, we believe that, in 
order to move this bill forward, substantive changes need to be made to 
the MGIB's accelerated payment benefits program. First, the VA's 
current list of educational programs eligible for payment assistance 
should either be replaced or revised to reflect eligibility for 
training in HIGH-GROWTH industries rather than solely in HIGH-
TECHNOLOGY industries. Further, in order to better align the 
accelerated benefits program with its original intent of providing 
affordable financing for high-cost, short term educational training, 
the program should be limited to fields of study that are one year or 
less in duration.
    ATA looks forward to working with Representative Michaud and the 
Subcommittee on ways to enhance H.R. 1824 to improve veterans' access 
to educational opportunities in high-growth, well-paying industry 
sectors, like truck transportation. This concludes my remarks Madame 
Chairwoman. I would be happy to answer any further questions.
    Thank you.

                                 <F-dash>
  Prepared Statement of Keith Pedigo, Director, Loan Guaranty Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Madam Chairwoman and distinguished members of the Subcommittee, I 
am pleased to be here today to discuss 13 bills that would affect a 
variety of VA's benefit programs, including educational assistance, 
housing, and employment, as well as statutory provisions providing 
civil and economic relief and protection for servicemembers, and 
certain other miscellaneous matters affecting veterans and 
servicemembers alike. Joining me this morning is Mr. Keith Wilson, 
Director of VA's Education Service.
    Madam Chairwoman, we do not yet have cleared positions on three of 
the bills, H.R. 1824, H.R. 1370, and H.R. 2259, but we will provide 
them for the record.
                      Education Program Amendments
H.R. 112
    Madam Chairwoman, H.R. 112, entitled the ``G.I. Advanced Education 
in Science and Technology Act,'' would amend Chapter 30 of title 38, 
United States Code, by adding a new subchapter containing provisions 
through which the Secretary would, subject to the availability of 
appropriations, be required to pay monthly stipends to eligible 
doctoral candidates who are pursuing full-time doctoral degrees in the 
sciences of engineering, mathematics, or other technology disciplines.
    For purposes of the new subchapter, the term ``eligible doctoral 
candidate'' would mean an individual who meets the requirements for 
Montgomery GI Bill (MGIB) entitlement under Section 3011 of Chapter 30 
(other than the requirements relating to the reduction in basic 
military pay otherwise applicable under the program) and who is 
pursuing a full-time a doctoral degree in the sciences of engineering, 
mathematics, or technology disciplines, after having completed a 
bachelor's degree in any academic discipline at an institution of 
higher learning.
    The bill would limit the number of stipend payments to a total of 
60 months. The amount of the stipend would be $1,200 per month, subject 
to annual adjustments for inflation and would be in addition to MGIB 
basic educational assistance allowances. Payment of the stipend would 
be conditioned on the eligible doctoral candidate's: (1) acceptance 
into an accredited doctoral program at an institution of higher 
learning; (2) providing annual documentation to VA of full-time 
matriculation in the program; and (3) maintaining good academic 
standing.
    Finally, the bill would provide that an eligible doctoral 
candidate's entitlement to the stipend would end 10 years after the 
date on which the candidate is discharged or released from active duty 
in the Armed Forces.
    Madam Chairwoman, for a number of reasons, VA does not support 
enactment of H.R. 112. In terms of equity among veterans receiving 
chapter 30 education benefits, VA has not seen evidence that veterans 
who choose to pursue doctoral candidates in engineering, mathematics, 
and technology must have a greater benefit than other veterans using 
their education benefits. This bill represents a departure from the 
existing chapter 30 MGIB structure, which provides equivalent benefit 
opportunities to veterans who establish an entitlement.
    In the absence of a clearly supportable rationale, we cannot 
support altering the existing chapter 30 benefit structure by singling 
out for special treatment one group of entitled veterans from others 
who established the same basic program entitlement.
    In addition, we have not noted any savings to offset the estimated 
costs of this bill. We estimate the increased Readjustment Benefit (RB) 
cost would be $25.9 million over a 10-year period. General Operating 
Expenses (GOE) costs were estimated at $3 million for computer system 
upgrades.
H.R. 2579
    Section 3674(a) of title 38, United States Code, authorizes VA to 
enter into contracts with State approving agencies (SAAs) to perform 
services necessary to ascertain the qualifications of educational 
institutions furnishing courses to veterans and other individuals 
receiving VA educational assistance. Section 3674(a)(2)(A) specifies 
that VA shall make payments to the SAAs out of the amounts available 
for the payment of readjustment benefits. The total amount made 
available for any fiscal year may not exceed $13 million, as outlined 
in Section 3674(a)(4).
    H.R. 2579 bill would amend Section 3674(a)(2)(A) to direct VA to 
make SAA payments out of amounts in the RB account and amounts 
appropriated to VA. Essentially, SAA payments would come from both the 
RB and GOE accounts, rather than solely from the RB account, as is 
presently done. The total amount that could be available from the RB 
account would be $13 million.
    VA does not support this legislation as written because utilizing 
two funding sources for this program (both GOE and RB Accounts) would 
create numerous complications in administering the program. SAAs are 
critical players in the readjustment process, and it is necessary to 
maintain a stable funding source and working relationship between VA 
and the SAAs.
    This proposal would allow the GOE appropriation to pay for SAA 
contracts. In 2007, the RB account is authorized to pay up to $19 
million for SAA contracts. In 2008 and subsequent years, the RB is 
authorized to pay $13 million per year for SAA contracts. This bill 
would allow for payment of up to $13 million for SAA contracts from RB, 
with any remaining funds to be paid out of GOE. Increasing funding in 
2008 and the out years to the 2007 level of $19 million would cost $6 
million per year.
              Specially Adapted Housing Program Amendments
H.R. 675
    H.R. 675, entitled the ``Disabled Veterans Adaptive Housing Act,'' 
would increase the maximum dollar amounts available under the Specially 
Adapted Housing (SAH) program, as well as provide for additional 
increases to the grants by tying the maximum dollar amounts to an 
annual cost-of-construction index. VA supports the overall objective of 
increasing the SAH grants subject to Congress' enactment of legislation 
offsetting the costs associated with the increases and with the 
following clarifications.
    Section 2 would adjust the maximum dollar amounts available under 
the SAH program. First, it would increase from $50,000 to $60,000 the 
aggregate dollar amount for grants authorized under sections 2101(a) 
and 2102A, leaving unchanged the $14,000 cap on a single Section 2102A 
grant. Next, it would raise from $10,000 to $12,000 the maximum amount 
of assistance available for grants authorized under Section 2101(b). 
Finally, it would increase from $10,000 to $12,000 the aggregate dollar 
amount for grants authorized under sections 2101(b) and 2102A, but 
would leave unchanged the $2,000 cap on a single Section 2102A grant. 
These amounts would be effective immediately upon enactment.
    Madam Chairwoman, VA supports enactment of Section 2, with the 
following clarification and subject to Congress' enactment of 
legislation offsetting the costs associated with the increases. VA 
notes that, since the existing statutory limit on grants made pursuant 
to Section 2101(a) is an aggregate that includes grants made under 
Section 2102A, an authority which is due to expire June 14, 2011, an 
ambiguity may arise at the time of expiration with regard to the amount 
of assistance available under Section 2101(a). To avoid such an effect, 
VA recommends amending the introductory paragraph of Section 2102(a) by 
adding a maximum dollar amount allowable for grants authorized under 
Section 2101(a).
    Section 3 of this bill would mandate that the Secretary increase 
the SAH assistance caps (except for grants made under Section 2102A) 
each fiscal year, commencing October 1, 2007. Such increases would be 
based on the percentage by which the residential home cost-of-
construction index for the preceding calendar year exceeds the index 
for the year immediately preceding that calendar year. As with similar 
provisions offered in other legislation, VA adamantly opposes indexing 
programs such as the Specially Adapted Housing grants. As VA closely 
monitors the sufficiency of grants provided under this program, and as 
it will be very difficult to find a suitable index which adequately 
captures the unique nature of SAH, it is best to provide adjustments on 
an ad hoc basis.
    VA estimates that enactment of sections 2 and 3 of this bill would 
result in a benefit cost of $68.6 million in the first year and $194.2 
million over 10 years.
H.R. 1315
    H.R.1315 would make Specially Adapted Housing (SAH) assistance 
available to disabled, active-duty members of the Armed Forces residing 
temporarily in housing owned by a family member. VA supports enactment 
of this technical correction. However, VA would like to point out that, 
as drafted, this provision would continue to require specific 
legislation in order to make active-duty members of the Armed Forces 
eligible any time newly enacted assistance may become available.
    Insofar as these disabled active-duty servicemembers are already 
eligible for SAH benefits, there would be no additional cost. Any 
amounts received as part of a temporary grant would be deducted from 
the total amount of SAH grants for which recipients might be eligible.
               Servicemembers Civil Relief Act Amendments
H.R. 513
    H.R. 513, entitled the ``National Heroes Credit Protection Act,'' 
would add to the Servicemembers Civil Relief Act a provision to protect 
the credit rating of ``a person in military service.'' This bill would 
require a person or entity who is engaged in the practice of assembling 
or evaluating consumer credit information, and who receives from a 
creditor a negative report of a servicemember's nonpayment or late 
payment on an account, to annotate the negative report that the account 
is delinquent or paid slowly due to military service. It would also 
require that any future potential creditor of the servicemember who 
receives such an annotated credit report to disregard that negative 
information. Because this bill would not affect the provision of VA 
benefits, VA defers to the Department of Defense (DoD) concerning this 
bill.
H.R. 1598
    H.R. 1598, entitled the ``Servicemembers Credit Protection Act,'' 
would also add to the Servicemembers Civil Relief Act (SCRA) provisions 
to protect the consumer credit of servicemembers. The new provisions 
would: (1) require that the Secretary of Defense notify the major 
consumer credit reporting agencies of a servicemember's deployment from 
his or her usual duty station to a combat zone and return from such a 
deployment; and (2) increase the penalties for violations of the SCRA 
in cases where the consumer report contains a combat zone duty alert. 
This bill would also make various amendments to the Fair Credit 
Reporting Act to accommodate these changes. Because this bill would not 
affect the provision of VA benefits, VA defers to DoD and the Federal 
Trade Commission concerning this bill.
H.R. 1750
    H.R. 1750 would amend the Servicemembers Civil Relief Act to expand 
the law's protection against mortgage foreclosure when active military 
service has contributed to the borrower's inability to repay the 
obligation. Under current law, such protection is limited to 90 days; 
under the proposed legislation, this period would be extended to 12 
months. Because the legislation would not affect the provision of VA 
benefits, VA believes that substantive views on the merits of this 
proposal should be presented by DoD.
                        Miscellaneous Proposals
H.R. 1240
    H.R. 1240 would require the Secretary, subject to the availability 
of appropriations, to establish and carry out a scholarship program to 
provide financial assistance to an individual who is enrolled in an 
education program leading to a degree or certificate in visual 
impairment or orientation and mobility, or a dual degree or 
certification in both such areas at an accredited educational 
institution. We note this program would be established apart from the 
Employee Incentive Scholarship Program (EISP) for VHA employees, which 
is authorized by 38 U.S.C. Sec. Sec.  7671, et seq.
    H.R. 1240 would require that in exchange for scholarship assistance 
the individual must, among other things, enter into a written agreement 
to serve as a full-time VA employee for a period of three years. This 
service obligation would have to be completed within the first six 
years after the individual has completed the VA-sponsored degree and 
received a degree or certificate. H.R. 1240 would also require the 
Secretary to publicize this scholarship program throughout the country, 
with an emphasis on disseminating information to institutions with high 
numbers of Hispanic students and to Historically Black Colleges and 
Universities.
    Additionally, this bill would establish detailed application 
requirements and require the Secretary to include specified information 
with each application. It would also require certain information to be 
incorporated into the written agreements used in the program. H.R. 1240 
would also authorize the Secretary to determine the funding amount 
necessary to pay the tuition and fees of an individual participating in 
the program. However, if the individual is enrolled in a dual degree or 
certification program, the bill would limit the amount that could be 
awarded to that which is needed to obtain the minimum number of credit 
hours to achieve the approved dual degree or certification. Financial 
assistance awarded under this program could be supplemented by other 
educational assistance, as long as the total amount of educational 
assistance received by a participant in an academic year does not 
exceed the total tuition and fees for that academic year.
    H.R. 1240 would limit the maximum amount of financial assistance 
that could be provided to a participant who is a full-time student to 
$15,000 per academic year. (Such amount would be pro-rated for 
participants who are part-time students.) The maximum dollar amount 
that could be awarded to a participant in the program would be $45,000, 
and the bill would limit the duration of scholarship assistance that 
could be provided to a participant to six years.
    The measure would also identify information that must be included 
in the written agreement entered into by VA and the participant. A 
participant's breach of an obligation under the agreement would require 
the participant to repay the Department an amount equal to the unearned 
portion of such assistance, except in circumstances authorized by the 
Secretary. The Secretary would be required to establish, by regulation, 
the procedures to be used in determining the amount of repayment 
required in the case of breach as well as the circumstances under which 
an exception could be granted. Further, the Secretary would be required 
to prescribe regulations providing for the waiver or suspension of any 
service or payment obligation whenever noncompliance by the individual 
is due to circumstances beyond the control of the individual, or 
whenever the Secretary determines that the waiver or suspension of 
compliance would be in the best interest of the United States. A 
payment obligation that is not waived or suspended under the program 
would be considered, for all purposes, a debt owed the United States. 
Such a debt could not be discharged in bankruptcy under title 11 if the 
discharge order is entered less than five years after the date of the 
termination of the agreement on which the debt is based. Finally, H.R. 
1240 would require the Secretary to implement this scholarship program 
no later than six months after the date of enactment.
    VA supports this legislation. However, we would note that this 
scholarship program should be authorized under Chapter 76 of title 38, 
United States Code (``Health Professional Educational Assistance 
Program''), rather than under a new Chapter 80.
    We estimate the total cost of S. 1240 to be $349,233 for FY 2008, 
and $3.7 million over a 10-year period.
H.R. 1632
    H.R. 1632 would add informational requirements to the annual report 
that the Secretary of Labor must submit to Congress concerning 
employers' compliance with the laws governing the reemployment rights 
of members of the Armed Forces. Given that this reporting requirement 
applies only to the Department of Labor, we defer to the Secretary of 
Labor on the merits of this bill.
H.R. 2475
    H.R. 2475 would authorize VA to guarantee Home Equity Conversion 
Mortgages (HECMs) made to elderly veteran homeowners. We are opposed to 
the bill, as written, for several reasons.
    First, the original intent of the VA home loan program was to 
provide home ownership opportunities for veterans and active duty 
servicemembers who forego such an opportunity in order to serve the 
nation's Armed Forces. While the program has been modified over the 
course of 60 years of legislation, all program changes have been 
designed to enable veterans to acquire and retain homes. In contrast, 
the proposed VA HECM program centers on the ability to extract equity 
prior to disposal of the property.
    In addition, FHA currently has a very active and successful HECM 
program. We fail to see what a VA HECM program would have to offer that 
would not be a duplication of this existing federal loan program. 
Further, FHA fully insures its lenders against all losses; whereas, by 
statute, VA is only able to guaranty the lender against a percentage of 
its potential loss. As a result, we do not believe this proposed VA 
HECM program would be as attractive to the lending community as the 
existing FHA program.
    Finally, we note that the text of the bill contains certain 
inconsistencies and ambiguities that would require clarification.
    We are unable to provide a cost estimate for this proposal at this 
time. Given that this bill would create a new mortgage product for VA, 
and one that is very distinct from existing products in our portfolio, 
we will need to collect data from HUD and the conventional market to 
adequately project costs. Further, this proposal has many undefined 
variables, such as administrative costs and the funding fee structure 
to be charged veterans under this program, which will require 
additional analysis. Once we have prepared a cost estimate, we will be 
pleased to submit it for the record.
    Madam Chairwoman, this concludes my statement. Mr. Wilson and I 
would be pleased to respond to any questions you or other members of 
the Subcommittee may have.

                                 <F-dash>
   Prepared Statement of Leslye A. Arsht, Deputy Under Secretary of 
  Defense (Military Community and Family Policy), U.S. Department of 
                                Defense
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to discuss issues relating to H.R. 2259, a bill to 
ensure that members of the National Guard and Reserves are able to 
fully participate in the Benefits Delivery at Discharge program 
administered jointly by the Secretary of Defense and the Secretary of 
Veterans Affairs.
    We require a great deal from our Armed Forces and I want to affirm 
the Department's commitment to all our servicemembers--Active, National 
Guard and Reserves and their families.
VIEWS on H.R. 2259
    Returning to private life after serving in the military is a very 
complex undertaking. To assist them in doing so, we must empower 
servicemembers with the tools and information they need to fashion 
individual solutions to the challenges they will face as they return to 
civilian life. To that extent, the Department supports the intent of 
H.R. 2259, which is to inform National Guard and Reserve members of the 
rights and benefits available to them as a result of their military 
service. Transition programs are currently conducted at demobilization 
and other out-processing sites. Further, because the members of the 
Guard and Reserve are so geographically dispersed, the Department has 
just launched a new web portal at www.TurboTAP.org, which provides 
comprehensive information to Guard and Reserve members about their 
rights and benefits and enables them to build individual transition 
plans.
    The Department has also formed the special working group with the 
Departments of Veterans Affairs and Labor--as required by Section 676 
of the John Warner National Defense Authorization Act for Fiscal Year 
2007--to identify and assess the needs of National Guard and Reserve 
members returning to civilian employment following deployment in 
Operation Iraqi Freedom and Operation Enduring Freedom. Additionally, 
Section 515 of the House-passed Defense Authorization Act for Fiscal 
Year 2008 would require the Department to establish another working 
group to identify, catalog and analyze the various existing programs 
currently being operated by different services, states, and commands--
such as the programs in Minnesota, New Hampshire, Oregon, and 
Washington--to help returning Reserve component members make the 
transition back to civilian life. This working group will identify best 
practices and develop plans to incorporate the best practices across 
the services to meet the needs of Reserve component members, who are 
reintegrating following return from overseas operational deployment.
    While well intended, H.R. 2259 is overly broad in its scope. H.R. 
2259 would require DoD to develop a plan to provide every Reserve 
component member who has served on active duty since September 11, 
2001--regardless of the length or purpose of the period of active 
duty--with the information contained in the Benefits Delivery at 
Discharge program. Nearly all members of the Selected Reserve perform 
annual training. Therefore, to meet the requirements of this Bill, the 
Department would have to develop the means of informing each member of 
their rights and benefits at least annually. Moreover, many active duty 
members transferred to the Individual Ready Reserve (IRR) upon 
completion of their active duty service obligation, in order to 
complete their total military service obligation. At the time of their 
release from active duty, they completed a transition course. However, 
this Bill would require that DoD develop a plan to once again inform 
every active-duty member transferred to the IRR after September 11, 
2001, of their rights and benefits, even though they many not have 
performed any duty while in the IRR, and the service has had only 
periodic contact with the member since being released from active duty.
    For these reasons, the Department does not support H.R. 2259.
TURBOTAP
    Because TurboTAP is available on the World Wide Web, complete 
transition information is already available at every military 
installation, armory, military family support center and activity 
conducting disability evaluations. TurboTAP will better meet the needs 
of the National Guard, Reserves and Active Component servicemembers and 
their families because it gives them the tools to connect and access 
the information to meet their needs when they are ready--present or 
future. This portal architecture will be the backbone of the updated 
DoD Transition Assistance Program (TAP) process for National Guard and 
Reserve servicemembers. Each Reservist and Guardsman will be able to 
create a lifelong account to which he/she or his/her spouse can refer, 
at any time during his/her life. Usability, flexibility, adaptability, 
and individual customization are the keys to successful implementation 
of this new technology-enabled process. TurboTAP allows an individual 
to develop and print out his or her own individual transition plan. The 
goal for this system is to increase servicemember participation and 
satisfaction.
    Some of the features of TurboTAP are:

    <bullet>  A comprehensive Transition Guide for the Guard and 
Reserves, as well as a comprehensive Preseparation Guide for Active 
Component servicemembers. These guides provide information on benefits 
and services available to transitioning servicemembers, as well as 
contact points for further assistance.
    <bullet>  Life long account for National Guard, Reserves and Active 
Component servicemembers, which allows them to use the system 
indefinitely;
    <bullet>  A personal profile that can be updated anytime;
    <bullet>  A customized, Individual Transition Plan;
    <bullet>  Transition information that can be accessed anytime, 
anywhere;
    <bullet>  An Employment Hub containing job searches, resume builder 
and military occupational translator using the O*NET to convert to 
civilian occupational skills;
    <bullet>  A VA Benefits Hub providing information on VA benefits, 
services and programs and, finally,
    <bullet>  ``Helpful checklists'' to remind servicemembers about key 
things they should do before separating or being released from active 
duty.

    TurboTAP allows servicemembers, veterans, retirees, and 
demobilizing members of the Reserve Components to locate and find the 
nearest DOL One-Stop Career Center, VA Regional Office, VA Vet Center, 
VA Medical Center, and military installation to where they live.
    We have high expectations for this being a 21st century approach to 
delivering individualized information and benefits to servicemembers 
and families. With the expected success, we further plan to make 
transition an online transaction much like banking and bill paying have 
become. The success and accountability of transition will be managed 
online versus a form being hand carried to a personnel file. As we move 
down this road, we will solicit your approval and legislative support.
    I now want to share with you some on-going transition initiatives 
in DoD as they relate to our severely injured servicemembers.
SUPPORT FOR SEVERELY INJURED
    As you are aware, DoD and VA established task forces to review how 
wounded servicemembers are served and how to better collaborate to meet 
the needs of the members and their families. The bipartisan 
Presidential Committee led by Senator Dole and Secretary Shalala is 
also addressing this issue. However, today, the Office of Seamless 
Transition program, established by VA, in coordination with the 
Military Services, also facilitates a more timely receipt of benefits 
for severely injured servicemembers. VA Veteran Benefits Administration 
(VBA) counselors visit all severely injured patients and inform them of 
the full range of VA services, including readjustment programs, 
employment programs, and information on educational and housing 
benefits.
    Seamless Transition helps these personnel touch base with 
vocational rehabilitation and employment services, and assists in 
putting them in contact with other employment resources available 
through DoL, the Military Services, the Joint Seamless Transition 
Office, DoD and the Military Services severely injured and wounded 
programs, including DoL's special ``Recovery and Employment Assistance 
Lifelines'' or REALifelines. All of these are available to help 
servicemembers and their families connect with the employment 
assistance they need.
    To expand employment assistance to our severely injured and 
wounded, the Office of the Deputy Under Secretary of Defense, Civilian 
Personnel Management Service, has undertaken a broad outreach program 
called ``Hiring Heroes Career Fairs'' to assist severely injured 
Servicemembers and their families in finding employment opportunities 
in the DoD, other Federal agencies, and the private sector.
    Career fairs that support the Department's ``Hiring Heroes'' 
program have been offered at the following locations: Walter Reed Army 
Medical Center, DC; Fort Sam Houston, TX; Womack Army Medical Center, 
Fort Bragg, NC; Eisenhower Army Medical Center, Fort Gordon, GA; and 
Walson Army Medical Center, Fort Dix, NJ. Three career fairs have been 
conducted in partnership with the Coalition to Salute America's Heroes, 
a non-profit organization. Over 2,000 servicemembers and their family 
members have attended these career fairs and several more are planned 
well into the future.
    Corporate America has responded to the call; many Fortune 500 
companies and small businesses are recruiting injured and wounded 
veterans for their skills, experience, maturity, and work ethic. Many 
of these companies are creating special programs geared specifically 
toward finding employment in their respective companies for these 
veterans and their family members.
    It's important to note that DoD, along with DoL and the VA, has 
worked to provide separating servicemembers with a variety of tools. 
Examples of our collaborative efforts include the Transition Assistance 
Program (TAP) Steering Committee and the Secretary of Labor's Advisory 
Committee on Veterans' Employment, Training, and Employer Outreach 
(ACVETEO). DoD and VA also partner extensively though the VA/DoD Joint 
Executive Council (JEC), the Benefits Executive Council (BEC), and the 
Health Executive Council (HEC)
OTHER BILLS
    We acknowledge that the Department of Veterans' Affairs defers to 
DoD on H.R. 513, H.R. 1598, and H.R. 1750, which are three bills 
related to the Servicemembers Civil Relief Act. We do not yet have 
cleared positions on those bills, but will provide them for the record.
CONCLUSION
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the military today and their families, I thank you and the 
members of the Subcommittee for your steadfast support during these 
demanding times.

                                 <F-dash>
 Prepared Statement of Hon. Charles S. Ciccolella, Assistant Secretary,
  Veterans' Employment and Training Service, U.S. Department of Labor
    Madam Chairwoman and distinguished members of the Subcommittee.
    On behalf of the Department of Labor's Veterans' Employment and 
Training Service (VETS) I am pleased to provide you our views on H.R. 
1632, the ``Improving Veterans' Re-employment Act of 2007.'' The bill 
expands and enhances the annual report produced by VETS regarding 
complaints made under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA).
    We support the provisions of the bill that provide an opportunity 
to collaborate with other Departments and agencies. H.R. 1632 would, 
among other things, require VETS to report, ``The number of cases 
reviewed by the Secretary of Defense under the National Committee for 
Employer Support of the Guard and Reserve of the Department of Defense 
during the fiscal year for which the report is made.'' These data are 
to be collected by the National Committee for Employer Support of the 
Guard and Reserve (ESGR) for the Department of Defense (DoD).
    We also agree with the concept of uniform categories for reporting. 
VETS and the ESGR already have a very positive working relationship. 
Should H.R. 1632 become law, VETS will work with ESGR to establish 
procedures as well as to develop a common understanding of the term 
``cases'' so that ESGR will be able to provide VETS with the required 
data in the appropriate format for inclusion in our annual USERRA 
report to Congress. VETS will include any formatted data that ESGR 
provides in a timely manner to our future annual reports.
    Another provision of H.R. 1632 would require VETS and ESGR to 
identify and report ``which of the cases reported on pursuant to 
paragraphs (1), (2), (3), and (4) are disability-related.'' VETS 
currently tracks and reports complaints involving ``disabilities'' if 
the USERRA complaint is based on a reasonable accommodation issue. We 
plan to meet with ESGR, and look forward to working with the Committee, 
to identify the data requirements needed to address your concerns.
    Thank you again for the opportunity to provide our comments on this 
legislation.

                                 <F-dash>
             Prepared Statement of Thomas Zampieri, Ph.D.,
                   Director of Government Relations,
                      Blinded Veterans Association
INTRODUCTION
    Madame Chairwoman and members of the House Veterans' Affairs 
Subcommittee on Economic Opportunity, on behalf of the Blinded Veterans 
Association (BVA), thank you for this opportunity to submit for the 
record our strong legislative support for the ``Vision Impairment 
Specialists Training Act'' (VISTA), H.R. 1240. BVA is the only 
congressionally chartered Veterans Service Organization exclusively 
dedicated to serving the needs of our Nation's blinded veterans and 
their families. BVA has worked with VA Blind Service in improving the 
VA ability to provide the necessary blind outpatient mobility and 
orientation training for blinded veterans for years and this 
legislation will help ensure that this will continue to occur. With the 
growing numbers of wounded in both Operation Iraq Freedom (OIF) and 
Operation Enduring Freedom (OEF) who are entering the VA healthcare and 
benefits system today, with direct eye trauma history and over 30% of 
Traumatic Brain Injury (TBI), having Post Trauma Vision Syndrome 
(PTVS), more of these highly skilled professionals are necessary and 
critical for VA.
    As of May 22 of this year there were 25,549 traumatic combat 
injuries, of which 7,267 required air medical evacuation from Iraq and 
another 6,991 military personnel have been injured in non-hostile 
action have also been evacuated from OIF and OEF operations. Such 
numbers reflect the probability that an ever increasing number of 
future veterans will depend on VA Blind and Low Vision Services in 
order to live independently in their own homes. More than 1,886 of the 
total TBI-injured have sustained moderate enough injuries that they are 
experiencing neurosensory complications. Epidemiological TBI studies 
find that about 30 percent have associated neurological visual 
disorders of diplopia, convergence disorder, photophobia, ocular-motor 
dysfunction, and an inability to interpret print. Some TBIs result in 
visual field loss or even legal blindness and other manifestations. 
Like other generations of disabled veterans who have desired to 
continue living independently, the current generation of OIF and OEF 
veterans deserves the same opportunity.
    BVA would like to stress again to this Committee that data compiled 
between March 2003 and April 2005 found that 16 percent of all 
causalities evacuated from Iraq were due directly to eye injuries. 
Walter Reed Army Medical Center has surgically treated approximately 
700 soldiers with moderate to severe visual injuries while the National 
Naval Medical Center has had 450 individuals with eye injuries 
requiring surgery. VA reports that 46 such servicemembers have attended 
one of the ten VA Blind Rehabilitation Centers (BRCs), 89 are enrolled 
in local VA Blind Visual Impairment Service Teams (VISTs), and others 
are in the process of being referred. It should be very obvious to 
members of this Committee that a new generation of blinded or impaired 
low vision veterans will require lifetime specialized programs to meet 
their needs. Such rehabilitation programs must be very individualized 
for such veterans and their family members, as has been the case for an 
older generation of veterans who have recently suffered from age-
related degenerative blindness.
    The Vision Impairment Specialist Training Act (VISTA), H.R. 1240, 
will help our Nation's blind and low-vision veterans by establishing a 
scholarship program for students seeking training in blind 
rehabilitation. There are 167,000 legally blind veterans in the United 
States, and 47,450 are currently enrolled in Veterans Health 
Administration services. In addition, it is estimated that there are 
over 1 million low-vision veterans in the United States, and incidences 
of blindness among the total veteran population of 24 million are 
expected to increase over the next two decades. This is because the 
most prevalent causes of legal blindness and low vision are age-related 
diseases like glaucoma, macular degeneration, diabetic retinopathy, 
cataracts, and the veteran population is increasing in age, the current 
average age is about 80 years old.
    Members of the armed forces are important to our nation and we show 
them our appreciation by taking care of them after they no longer 
serve. But the fact is that there are not enough blind rehabilitation 
specialists to serve all legally blind and low-vision veterans in the 
VA currently there are only 33 of these critical Blind Rehabilitative 
Outpatient Specialists (BROS). Two of the VA Poly Trauma Centers had 
difficulty for over a year in finding certified blind instructors at 
those centers. Blind rehabilitation training helps give these veterans 
awareness of and mobility functioning in their surroundings and enables 
them to retain their independence and dignity. Veterans without these 
services may find it difficult to be self-sufficient, relying on others 
to perform certain skills or even simple tasks on their behalf. 
Research on blind and low vision Americans show they are at high risk 
of falls, or making medication mistakes, resulting in costly hospital 
admissions every year, and of losing their independence to live at 
home. Falls are the sixth leading cause of death in senior citizens and 
a contributing factor to 40% of all nursing home admissions with annual 
federal costs over $45,000 for each nursing home bed. According to 
Framingham Eye Study, 18% of all hip fractures among senior citizens--
about 63,000 hip fractures a year--are attributable to vision 
impairment. The cost of medical-surgical treatment for every hip 
fracture is over $39,000, if outpatient rehabilitation services 
prevented even 20% of these hip fractures, the annual federal savings 
in healthcare costs would be over $441 million. Essential outpatient, 
cost effective services that would allow blind veterans to safely live 
independently at home should be supported by this Congress and the 
Administration from a healthcare policy stand point. Research has found 
that 25% of all falls resulting in hip fractures result in nursing home 
admissions with chronic disability; it is seven times more expensive to 
care for a disabled nursing home resident, than a healthy independent 
American over age 65.
    Public Law 104-262, The Eligibility Reform Act 1996, requires the 
Department of Veterans Affairs to maintain its capacity to provide 
specialized rehabilitative services to disabled veterans, but it cannot 
do so when there are not enough specialists to address these needs. 
Last December, the Veterans Programs Extension Act was passed, which 
included a provision by Congressman Michael Michaud to increase the 
number of Blind Rehabilitation Outpatient Specialists by thirty-five 
new positions over the next thirty months serving our Nation's 
veterans. However, there are currently not enough counselors certified 
in blind rehabilitation to provide for the growing number of blind or 
low-vision veterans, let alone the rest of our nation's elderly 
population. According to National Council of Private Agencies for the 
Blind and Visually Impaired today there are only approximately 3,000 
certified in the field in the entire country. Because of this shortage, 
some of the ten VA Blind Centers have had longer waiting times for 
admissions.
    The Vision Impairment Specialists Training Act H.R. 1240 helps 
remedy this situation by directing the Secretary of Veterans Affairs to 
establish a scholarship program for students seeking a degree or 
certificate in blind rehabilitation (Vision Impairment and/or 
Orientation and Mobility). This will provide an incentive to students 
considering entry into the field to consider a VA career in return for 
this scholarship funding. In addition, in exchange for the scholarship 
award, students are required to work for three years in a healthcare 
facility of the Department of Veterans Affairs, to ensure that our 
veterans are well cared for.
RECOMMENDATIONS
    BVA supports including this occupational specialty in the current 
VA educational program and provide for the aging population of visually 
impaired and blinded veterans the rehabilitative specialized staffing 
needed. BVA requests the Committee pass this VISTA act. Chairwoman 
Herseth-Sandlin and Ranking Member Boozman, BVA expresses thanks to 
both of you for this opportunity to present our statement for the 
record. The current lack of access in many networks of VA will continue 
unless changes are made by enacting this legislation. The future 
strength of our Nation depends on the willingness of young men and 
women to serve in our military. This willingness depends, in turn and 
at least in part, on the willingness of our government to meet its full 
obligation to them as veterans.

                                 <F-dash>
                Prepared Statement of Hon. Jo Ann Davis,
        a Representative in Congress from the State of Virginia
    Chairwoman Herseth Sandlin, Ranking Member Boozman, I thank you for 
the opportunity to testify on H.R. 112 and I appreciate the 
Subcommittee's interest in this legislation. Your strong support for 
those who have worn the uniform of our country is appreciated, and I am 
grateful to be here with you this morning.
    I am pleased to offer a brief statement on H.R. 112, the GI 
Advanced Education in Science and Technology Act of 2007, and I would 
ask for the full text of my written statement to be entered into the 
record.
    I represent Virginia's First Congressional District, which is home 
to almost 100,000 active duty servicemembers and veterans, one of the 
highest concentrations of active and former military personnel and 
their families in the country. Thousands of my constituents have taken 
advantage of the GI Bill as a result of their service to our country, 
and I am extremely supportive of this worthwhile veteran's educational 
assistance program. I also believe that modifications and amendments to 
the GI Bill are appropriate, especially given the nature of the Global 
War on Terror and the increased operational tempo of our Reserve 
Component.
    Additionally, I believe that we are facing serious challenges in 
our Nation's ability to retain its technological edge in the 21st 
Century. Our country is not producing enough graduates in the Science, 
Technology, Engineering, and Mathematics, or STEM, fields, and the 
forces of globalization are enabling recent graduates in the science, 
technology, engineering, and mathematics fields to leave the United 
States and pursue work elsewhere.
    I am concerned about this shortage because our economy has 
dramatically benefited from the innovation of such highly talented 
individuals. We simply must do whatever we can to ensure a future 
workforce of trained American scientists and engineers, and H.R. 112 
will provide a critical additional incentive for transitioning 
servicemembers to pursue ``hard'' science doctoral degrees. I believe 
one of the keys to reducing this shortage is education, and our 
Nation's GI Bill recipients are especially deserving of increased 
assistance to help defray the rising costs of doctoral education in 
science and technology.
    Since the enactment of the Servicemen's Readjustment Act 1944, when 
the first GI Bill began, more than 21.3 million veterans, 
servicemembers and family members have received $72.8 billion in GI 
Bill benefits for education and training. This includes 7.8 million 
veterans from World War II, 2.4 million from the Korean War and 8.2 
million post-Korean and Vietnam era veterans, plus active duty 
personnel. Over the last 60 plus years, this legislation and its 
subsequent amendments have had an enormous social and economic impact 
on our Nation, and I believe H.R. 112 will continue this tradition.
    Since coming to Congress in 2001, I have observed some disturbing 
trends in the number of American graduates in the science, technology, 
engineering, and mathematics, or STEM, fields. Simply put, there are a 
decreasing number of American graduates in these hard sciences, yet our 
future economic competitiveness and perhaps our National security could 
be in jeopardy if we do not act positively.
    Because of my Committee assignments on Armed Services and Foreign 
Affairs and previous service on the Intelligence Committee, I realize 
that our Nation relies on scientists and engineers now more than ever 
to ensure that our military remains strong and our country remains 
free. The Department of Defense and the Intelligence Community must 
have the technological advantages that come from technological 
development, and I believe that our transitioning veterans can help to 
fill the coming shortages in these key fields of innovation.
    If a former servicemember who is eligible for the GI Bill would 
like to pursue a full-time doctoral degree in the sciences of 
engineering, mathematics, or technology disciplines, I believe that 
this choice deserves recognition. By expanding provisions of the 
existing chapter 38 program under the Montgomery GI Bill, H.R. 112 
would provide an inflation adjusted, monthly stipend of $1200 for up to 
60 months to each individual who is entitled to veterans' basic 
educational assistance and is pursuing full-time a doctoral degree in 
the sciences of engineering, mathematics, or other technology 
disciplines, in addition to any other authorized Montgomery GI Bill 
educational assistance.
    The requirements for payment include: (1) acceptance into a full 
time course of study leading to a doctorate into an accredited college 
or university, (2) an annual certification of enrollment by the veteran 
to the VA and (3) maintaining good academic standing throughout the 
course of study.
    This legislation is a positive step for both our transitioning 
veterans and our future scientific workforce. The GI Bill continues to 
provide educational opportunities for those who have served our 
country, and H.R. 112 would provide a special incentive to help fill a 
coming critical shortage in our workforce.
    Madam Chairwoman, I appreciate the opportunity to present this 
statement before the Subcommittee. Thank you for holding this hearing.

                                 <F-dash>
           Prepared Statement of Harry H. Dinham, President,
                National Association of Mortgage Brokers
    Chairwoman Herseth-Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, thank you for permitting the National Association of 
Mortgage Brokers (``NAMB'') to submit this written testimony on the 
Veteran Home Equity Conversion Mortgage Act of 2007 (``H.R. 2475''). We 
are confident that this important piece of legislation will help 
elderly veterans stay in their homes longer, improve their quality of 
life, and satisfy increased financial obligations.
    NAMB is the only national trade association exclusively devoted to 
representing the mortgage brokerage industry, and as the voice of the 
mortgage brokers, NAMB speaks on behalf of more than 25,000 members in 
all 50 states and the District of Columbia. NAMB members are typically 
small business men and women, who act as independent contractors and 
serve as a principal conduit for delivering loan products, developed by 
state and federally-regulated lenders, directly to consumers. Mortgage 
brokers play a critical role in helping the American economy and in 
making the dream of home ownership a reality for America's veterans.
    Today, mortgage brokers originate a majority of all home loans, and 
remain a key distribution channel for U.S. Department of Veterans 
Affairs (``VA'') guaranteed home loans. As such, mortgage brokers are 
familiar with veterans' needs when it comes to buying or refinancing a 
home. Over the years, Congress, the VA, and other entities have worked 
to break-down barriers and make it easier for veterans to become 
homeowners. NAMB applauds these efforts, and today we urge Congress to 
work to break-down another barrier, and make it easier for elderly 
veterans to remain in their home while continuing to meet the financial 
burden of steadily increasing medical and home ownership costs.
    Roughly one quarter of the nation's population--about 70 million 
people--are potentially eligible for benefits and services through the 
VA. These benefits and services have been earned through the great 
sacrifices made to provide for our freedom and our security. We believe 
extending the VA home loan benefits to include home equity conversion 
mortgages (``HECMs'') is a small, but meaningful way to acknowledge 
that we have not forgotten the service our elderly veterans have given 
to this country.
    With the rate of American homeownership at a near-record high, 
HECMs have become a mainstream and highly successful financial planning 
tool for elderly homeowners. In the most recent fiscal year, ending 
September 30, 2006, the Federal Housing Administration (``FHA'') 
insured 76,351 HECM loans. That number is up from 43,131 the previous 
year.
    Elderly veterans represent a large and growing market for HECM 
loans. Elderly veterans should be offered this valuable product, which 
will allow them to cash-out the equity that they have built-up in their 
homes over 20, 30 or 40 years in order to meet the demands of 
increasing health, housing, and sustenance costs, without the risk of 
losing their home. A VA HECM loan program will provide elderly veteran 
homeowners with:

    1.  A higher available loan limit than the FHA HECM loan program, 
which means more cash out to the veteran;
    2.  A loan product that meets a Veterans needs better than existing 
HECM programs;
    3.  An effective savings of roughly 0.5% in interest rate, because 
monthly mortgage insurance premiums are not required with VA-guaranteed 
loans;
    4.  Greater access to HECM loans, since the VA does not impose 
burdensome audit and net worth requirements on originators wishing to 
participate in the program;
    5.  An opportunity for Veterans to remain in their homes longer, 
without incurring additional monthly expenses;
    6.  An opportunity for Veterans to choose in-home care, as opposed 
to the often more costly option of long-term care at a VA Hospital or 
other facility; and
    7.  Zero chance of default.

    Some have expressed concern that this proposed legislation does not 
fit the mission of the VA program. We believe it does. This program 
would help Veterans retain their home and would allow Veterans to take 
equity out of their home, as they can do currently with a VA refinance. 
Additionally, a VA HECM loan would be viable loan product to the 
secondary market, as the VA guarantee of the HECM loan would be the 
same as it is for VA loans that are currently purchased by the 
secondary market. Another positive point is that the program would not 
incur any additional cost. Currently, the VA funding fee charged on VA 
home loans not only covers the cost to administer the program, but also 
generates excess revenue. As currently drafted, this proposed VA HECM 
legislation would grant the Secretary of the VA discretion to establish 
the funding fee at an amount that would cover the cost of administering 
this new loan product.
    NAMB sincerely appreciates the opportunity to share its position 
with this Subcommittee. We commend Chairwoman Herseth-Sandlin and 
Ranking Member Boozman for taking the time to convene a hearing on this 
very important issue. It is imperative that we seek out ways to sustain 
this country's near-record rate of home ownership, and authorizing the 
VA to guarantee HECM loans to eligible elderly veterans is a noble 
start. We urge the Committee to support H.R. 2475 and greatly improve 
the home loan benefits earned by our veterans.

            Respectfully submitted,
                                                    Harry H. Dinham
                                                          President

                                 <F-dash>
                     COMMITTEE ON VETERANS' AFFAIRS
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                   October 23, 2007

Leslye A. Arsht, Deputy Under Secretary of Defense
(Military Community and Family Policy)
U.S. Department of Defense
4000 Defense Pentagon
Suite 5A726
Washington, DC 20301

Dear Ms. Arsht:

    In reference to the Subcommittee on Economic Opportunity hearing on 
Pending Legislation on June 21, 2007, you stated the U.S. Department of 
Defense did not have a clear position on H.R. 513, H.R. 1598, and H.R. 
1750 at the time. I am requesting for the DoD to provide a clear 
position on these four bills.
    In an effort to reduce printing costs, the Committee on Veteran's 
Affairs, in cooperation with the Joint Committee on Printing, in 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide answers consecutively on letter size paper, single 
spaced. In addition, please restate the question in its entirety before 
the answer.
    Please provide your response to Orfa Torres and fax at 202-225-
2034, no later than November 23, 2007. If you have any questions please 
call 202-225-9756.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                                 <F-dash>
                      Hearing Date: June 21, 2007
                             Committee: HVA
                      Member: Congressman Herseth
                           Witness: Ms. Arsht
                          Pending Legislation
    Question: Please provide Department's position on H.R. 513, H.R. 
1598, and H.R. 1750.

    Answer: Following are the Department of Defense (DoD) positions on 
H.R. 513, H.R. 1598, and H.R. 1750:

    The Department opposes H.R. 513, which requires credit reporting 
agencies (CRA) that receive negative credit information concerning a 
servicemember with respect to a financial obligation incurred prior to 
active duty to annotate the credit report that the negative information 
was due to military service. It would also require that the potential 
creditor disregard any adverse information containing the military 
service annotation.
    Although this bill provides some potential benefits to 
servicemembers, we have practical concerns about its implementation and 
about its impact on other protections the Servicemembers Civil Relief 
Act (SCRA), Public Law 108-189, codified at 50 United States Code 
(U.S.C.) App. Sec. Sec.  501 currently provides:

    <bullet>  Section 108 of the SCRA states that a servicemember's 
exercise of the protections of the SCRA cannot provide the basis for 
the annotation of a servicemember's credit records identifying the 
servicemember as a member of the National Guard or a Reserve component. 
The proposed bill would undercut this important provision, which helps 
prevent a creditor from refusing to extend credit to Reservists who 
might assert SCRA protections in the future.
    <bullet>  The legislation does not specify how the CRA would 
determine whether a delinquent account is owned by a military member or 
whether the obligation was incurred prior to military service. No 
mechanism or process addresses how to determine this information or who 
would be responsible for providing it. One possibility would be that 
creditors would request the DoD to provide service data to comply with 
the statute. This would be an administrative burden and raise privacy 
and security concerns about active duty and mobilizing servicemembers.
    <bullet>  The military service annotation called for in proposed 
Section 110(a) assumes, without requiring any evidence, that any 
adverse credit information is the result of military service. A 
fundamental tenet of the existing provisions of the SCRA is the 
requirement to establish that the service materially affected the 
servicemember's ability to discharge his or her legal obligations. 
Thus, the current bill undermines a fundamental principle of the SCRA.
    <bullet>  Section 110 (b) requires creditors to ``disregard any 
negative information'' containing notations required by subsection (a). 
Once negative information is put in a record, it would be nearly 
impossible to demonstrate that the negative information is not used for 
impermissible purposes.
    <bullet>  The amendment applies to all active duty military 
personnel. The obligations placed on credit reporting agencies by this 
amendment could create a situation in which they (or creditors) would 
be liable for violations of the act. The unintended consequence of this 
amendment could be that creditors refuse or limit credit to 
servicemembers to avoid the risk of liability.

    The DoD recognizes that the intent of the proposed amendment is to 
benefit servicemembers. It may provide some helpful provisions, but 
potentially at the risk of undermining other protections already in the 
SCRA, as well as undermining the cornerstone of the SCRA; the 
requirement to show material effect. Furthermore, the bill does not say 
who has the responsibility for providing basic service data. Additional 
study is needed to maximize the protections that the proposed bill 
offers while ensuring that other key provisions of the SCRA are not 
undercut.
    One possible approach would be to establish a workable and 
expedited mechanism that would allow servicemember to challenge and 
remove unfavorable information from credit reports when the underlying 
obligation was materially affected by their military service.
    The Department also opposes H.R. 1598, which would amend the SCRA 
and the Fair Credit Reporting Act (FCRA), Public Law No. 91-508, as 
amended by the Consumer Credit Reporting Reform Act 1996, Public Law 
104-208, codified at 15 U.S.C. Sec. Sec.  1681-1681x. The bill requires 
the Secretary of Defense (SECDEF) to notify CRAs of a servicemember's 
deployment within 30 days after the beginning and end of a deployment. 
The CRA must then provide a ``combat zone duty alert'' along with the 
credit score in a report involving the deployed member or when 
furnishing adverse information. Additionally, the CRA must exclude the 
servicemember from lists provided to third parties for the purposes of 
providing unsolicited offers of credit or insurance.
    Although this bill provides some potential benefits to 
servicemembers, it raises force protection concerns and practical 
concerns about the responsibilities it places on the SECDEF. We are 
also concerned about its impact on other protections the SCRA currently 
provides:

    <bullet>  This nation's enemies could learn about and exploit the 
absences of deployed servicemembers based on information provided by 
this bill. The DoD has non-disclosure policies regarding the numbers 
and locations of deployed personnel that could be violated by this 
bill.
    <bullet>  Information concerning the deployed status of a 
servicemember disclosed to third parties could be used to commit fraud 
or harass family members. Furthermore, the servicemember would be away 
from his family and less likely to detect and react to a financial 
misuse of the information.
    <bullet>  The bill places a significant administrative burden on 
the SECDEF to notify each CRA of the deployment status of potentially 
hundreds of thousands of servicemembers within 30 days after the 
deployment begins and ends. The protections of the section would 
continue to apply until the Secretary notifies the CRA of the 
termination of the deployment status. A failure to properly notify the 
CRA could give rise to claims from the servicemember against both the 
DoD and the CRAs. A potential creditor provided a combat zone duty 
alert might improperly use that information in the opposite way 
intended to deny credit to servicemembers or to their families.
    <bullet>  Section 518 of the SCRA states that a servicemember's 
exercise of the protections of the SCRA cannot provide the basis for 
the annotation of a servicemember's credit records identifying the 
servicemember as a member of the National Guard or a reserve component. 
This important provision, which helps prevent a creditor from refusing 
to extend credit to Reservists who might assert SCRA protections in the 
future, would be undercut by the proposed bill.
    <bullet>  This amendment singles out active duty servicemembers 
deployed to a combat zone for additional protection. There is no other 
provision in the SCRA that ties SCRA entitlement to deployment to a 
combat zone. This creates a dangerous precedent of not providing 
uniform protection to all qualifying servicemembers. If a Reservist 
gets mobilized and suffers a decrease in pay (material effect) there is 
a similar harm, regardless of where the Reservist is stationed.

    Although the Department recognizes that the intent of the proposed 
amendment is to benefit servicemembers, its minimal protections are 
outweighed by force protection concerns, the enormous administrative 
burden that would fall to the DoD, and the impact on other provisions 
of the SCRA.
    An alternate approach could be to more easily (and without cost) 
allow servicemembers to place a freeze on their account while deployed. 
Additionally, mechanisms allowing servicemembers to challenge an 
adverse credit entry as a matter of right upon a showing that the 
adverse entry was materially affected by military service would be 
beneficial.
    The Department supports H.R. 1750, which would amend the SCRA to 
extend mortgage foreclosure protection from 90 days to one year.

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                                    Washington, DC.
                                                   October 26, 2007

Hon. Bob Filner, Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    I am pleased to provide the views of the Department of Veterans 
Affairs (VA) on the following three bills: H.R. 704, H.R. 2259, and 
H.R. 1824, 110th Congress. These bills were on the schedules of the 
Disability Assistance and Memorial Affairs and Economic Opportunity 
Subcommittees' hearings of June 19 and June 21, respectively. At the 
hearing, the Department stated that we were not able to comment on all 
of the bills on the agenda because we did not have enough time to 
coordinate the Administration's views and estimate costs. We can now do 
so for the introduced version of these bills.
H.R. 704
    Section 1(a) of H.R. 704 would reduce from 57 to 55 the age after 
which a surviving spouse may remarry without losing eligibility for 
dependency and indemnity compensation (DIC), educational assistance and 
housing loans. Section 1(b) would specify that this amendment will take 
effect on the later of the first day of the first month that begins 
after the date of enactment of this bill or the first day of the fiscal 
year that begins in the calendar year of enactment of the amendment. 
Section 1(c) would prohibit the payment of any benefit based on the 
amendment for any period before the effective date of the amendment. 
Section 1(d) would permit an individual who remarried before the bill's 
enactment and after age 57 to apply for reinstatement of benefits 
before the end of the 1-year period beginning on the date of enactment.
    Under current law, a surviving spouse who remarries is not eligible 
for DIC benefits, medical care, educational assistance, or housing 
loans based on a prior marriage to a deceased veteran, unless the 
surviving spouse remarries after age 57 (after age 55 in the case of 
medical care).
    Because the mandatory costs of the bill are not included in the 
President's fiscal year (FY) 2008 Budget, we cannot support enactment. 
VA estimates that enactment of H.R. 704 would result in a benefit cost 
of $23 million in FY 2008 and $723.2 million over the 10-year period 
from FY 2008 through FY 2017.
H.R. 2259
    H.R. 2259 would require the Secretary of Defense and the Secretary 
of Veterans Affairs to jointly submit to Congress a plan to maximize 
access to the benefits delivery at discharge (BDD) program for members 
of the Armed Forces reserve components who have been called or ordered 
to active duty since September 11, 2001. The bill would require a 
description of the efforts that would be taken to ensure that services 
under this program are provided at specified locations, including 
locations where servicemembers are separated or discharged from the 
Armed Forces.
    VA believes that this bill is not necessary for a number of 
reasons. First, VA is already committed to working with DoD to produce 
a plan to improve transition assistance for personnel in the National 
Guard and Reserves.
    Also, it is not feasible to offer the BDD program to most National 
Guard and Reserve members. The BDD program is a joint VA and DoD 
program that provides information, benefits and services to 
servicemembers who are within 60 to 180 days of separation from service 
and who wish to file a claim for VA benefits. At least 60 days of 
remaining active-duty time is needed to process a servicemember for 
effective BDD. Major requirements of the program, such as the physical 
examination necessary to determine entitlement to VA pension or 
compensation, present significant logistical difficulties if sufficient 
time is not available. Although the BDD program is available to all 
servicemembers on active duty, including National Guard or Reserve 
members, as well as servicemembers undergoing medical evaluation board 
of physical evaluation board proceedings, most mobilized National Guard 
and Reserve members are released from active duty shortly after they 
return from deployment. Because such members are eager to return to 
their families and civilian lives, they are quickly processed through 
demobilization sites, released from active duty, and returned to their 
respective Reserve or National Guard command. Thus, there is not 
sufficient time to accomplish BDD processing before they are released 
from active duty.
    In addition, all benefits claims from servicemembers who have 
participated in the Global War on Terrorism, to include Operation 
Enduring Freedom and Operation Iraqi Freedom, receive priority 
handling. This includes servicemembers from the Guard and Reserve. 
These cases are permanently tagged to reflect priority status and are 
processed expeditiously. However, veterans who require case management, 
such as those who have sustained a serious injury or illness or have 
lost a body part, do not participate in the BDD program.
    There are no costs associated with this bill because National Guard 
and Reserve members are already provided services at demobilization.
H.R. 1824
    Section 1 of H.R. 1824 would amend title 38, United States Code, to 
expand the scope of programs of education for which accelerated 
payments of Montgomery GI Bill (MGIB) educational assistance may be 
used, to include programs that lead to employment as an operator of a 
commercial motor vehicle (as defined in Section 31301 of title 49, 
United States Code).
    Under current Section 3014A of title 38, an MGIB-Active Duty 
participant pursuing high-cost courses leading to employment in a high 
technology occupation in a high technology industry has the option of 
receiving an accelerated benefit payment. This optional lump-sum 
accelerated benefit payment covers up to 60 percent of tuition and 
fees. Enactment of H.R. 1824 would lead to a slight increase in the 
number of trainees enrolled in courses within the Heavy Equipment 
Operation industry, which includes commercial driver training.
    Section 2 of the bill would amend Section 3015 of title 38 by 
adding a new subsection (h), to provide specifically that benefit 
payments received by an individual under the MGIB-Active Duty program 
shall not be considered as income for purposes of determining 
eligibility of that individual for education grants or loans under any 
other provision of Federal law.
    The purpose of the existing accelerated payment authority is to 
facilitate training and promote employment in high technology 
occupations in high technology industry based on a demonstrated 
national need for a highly trained and highly skilled workforce in that 
sector of the economy. This bill would constitute a departure from that 
purpose. We are not aware, however, that a similar need exists for 
providing accelerated payment for the proposed commercial driver 
training or that a basis exists to do so to the exclusion of other non-
high technology, high-cost programs. Absent such a demonstrated need, 
as well as identification of cost savings to offset the cost of the 
proposed accelerated payment provision expansion, we cannot support 
H.R. 1824. Further, we note that this bill's provision excluding 
benefits payable under the MGIB from consideration as income for 
purposes of determining eligibility for education grants or loans is 
unnecessary since these benefits are not currently counted as income 
for such purposes.
    We estimate that enactment of the H.R. 1824 provisions expanding 
accelerated payment entitlement would result in a benefit cost increase 
of $578,000 in the first year and approximately $6.1 million over 10 
years.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.

            Sincerely yours,
                                                Gordon H. Mansfield
                                                   Acting Secretary

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                                    Washington, DC.
                                                     March 31, 2008
Hon. Bob Filner, Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    This letter transmits the views of the Department of Veterans 
Affairs (VA) on H.R. 1370, the ``Disabled Veterans Sports and Special 
Events Promotion Act of 2007,'' introduced in the House on March 7, 
2007. This bill seeks to establish a new office within VA that would 
carry out programs and events for participation by disabled veterans 
and require the office to cooperate with the U.S. Olympic Committee 
(USOC) and its subsidiaries to promote the participation of disabled 
veterans in USOC sporting events. VA believes this legislation is 
unnecessary because it duplicates existing offices and programs.
    VA has an established Office of National Programs and Special 
Events (ONPSE) that oversees highly successful and well-attended 
national rehabilitative programs for disabled veterans. This office 
already works with the USOC to help elite-level athletes compete in 
their paralympic programs. ONPSE currently oversees four National 
events--the National Disabled Veterans Winter Sports Clinic, National 
Veterans Wheelchair Games, National Veterans Golden Age Games, and 
National Veterans Creative Arts Festival, with a fifth pilot summer 
sports clinic currently being developed for veterans with amputations, 
traumatic brain injuries and burn injuries. The goals of these events 
are to reach disabled veterans during their recovery from traumatic 
injury or disease, introduce them to adaptive recreational activities, 
and challenge them with activities that give them a sense of 
accomplishment and enable them to redefine their capabilities. These 
events are supported by veterans service organizations, and although 
they are open to all disabled veterans who meet the eligibility 
criteria, they are particularly geared toward first-time participants. 
Each year, thousands of disabled veterans have the opportunity for 
self-development through participation in these events.
    By contrast, H.R. 1370 would require VA to enter into an agreement 
with the USOC to provide support, including direct support, and 
reimbursement (up to $2 million per fiscal year), for a program that 
would benefit a small number of elite athletes. We estimate the costs 
associated with enactment of this bill to be $2,250,000 for FY 2008 and 
$22,500,000 over 10 years.
    While we applaud the USOC 's efforts to bring more veterans into 
their elite athlete competitions, that is not the primary purpose of 
VA's rehabilitative events. For example, last year, 28 veterans 
participated in USOC programs as opposed to over 1,500 veterans who 
participated in VA National Rehabilitation Special Events. VA's 
programs are designed to include veterans of all ages and levels of 
impairment and aimed primarily at medical rehabilitation.
    VA's goal is to introduce sports and recreation to disabled 
veterans and make it a part of their daily lives. For those who rise to 
elite athletic performance, our existing partnership with the USOC 
allows them to take their training to the next level through the USOC 
paralympic program. For the above reasons, VA opposes enactment of H.R. 
1370.
    The Office of Management and Budget advises that the transmission 
of this views letter is in accord with the President's program.

            Sincerely yours,
                                               James B. Peake, M.D.
                                                          Secretary

                                 <all>

</pre></body></html>
